<html>
<title> - NEW ENGLAND AND MID-ATLANTIC PERSPECTIVES ON MAGNUSON-STEVENS ACT REAUTHORIZATION</title>
<body><pre>[Senate Hearing 113-261]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 113-261
 
   NEW ENGLAND AND MID-ATLANTIC PERSPECTIVES ON MAGNUSON-STEVENS ACT 
                            REAUTHORIZATION 

=======================================================================

                                HEARING

                               before the

     SUBCOMMITTEE ON OCEANS, ATMOSPHERE, FISHERIES, AND COAST GUARD

                                 of the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 23, 2013

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation


                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

87-797 PDF                       WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001



       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
BARBARA BOXER, California            JOHN THUNE, South Dakota, Ranking
BILL NELSON, Florida                 ROGER F. WICKER, Mississippi
MARIA CANTWELL, Washington           ROY BLUNT, Missouri
MARK PRYOR, Arkansas                 MARCO RUBIO, Florida
CLAIRE McCASKILL, Missouri           KELLY AYOTTE, New Hampshire
AMY KLOBUCHAR, Minnesota             DEAN HELLER, Nevada
MARK WARNER, Virginia                DAN COATS, Indiana
MARK BEGICH, Alaska                  TIM SCOTT, South Carolina
RICHARD BLUMENTHAL, Connecticut      TED CRUZ, Texas
BRIAN SCHATZ, Hawaii                 DEB FISCHER, Nebraska
MARTIN HEINRICH, New Mexico          RON JOHNSON, Wisconsin
EDWARD MARKEY, Massachusetts         JEFF CHIESA, New Jersey
                    Ellen L. Doneski, Staff Director
                   James Reid, Deputy Staff Director
                     John Williams, General Counsel
              David Schwietert, Republican Staff Director
              Nick Rossi, Republican Deputy Staff Director
   Rebecca Seidel, Republican General Counsel and Chief Investigator
                                 ------                                

            SUBCOMMITTEE ON OCEANS, ATMOSPHERE, FISHERIES, 
                            AND COAST GUARD

MARK BEGICH, Alaska, Chairman        MARCO RUBIO, Florida, Ranking 
BILL NELSON, Florida                     Member
MARIA CANTWELL, Washington           ROGER F. WICKER, Mississippi
RICHARD BLUMENTHAL, Connecticut      KELLY AYOTTE, New Hampshire
BRIAN SCHATZ, Hawaii                 DAN COATS, Indiana
MARTIN HEINRICH, New Mexico          TIM SCOTT, South Carolina
                                     TED CRUZ, Texas



                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 23, 2013....................................     1
Statement of Senator Begich......................................     1
Statement of Senator Rubio.......................................     3
Statement of Senator Ayotte......................................    25
Statement of Senator Blumenthal..................................    27
Statement of Senator Markey......................................    29

                               Witnesses

John K. Bullard, Northeast Regional Administrator, National 
  Marine Fisheries Service, National Oceanic and Atmospheric 
  Administration, U.S. Department of Commerce....................     5
    Prepared statement...........................................     6
C.M. ``Rip'' Cunningham, Jr., Chairman, New England Fisheries 
  Management Council (NEFMC).....................................    12
    Prepared statement...........................................    13
Richard B. Robins, Jr., Chairman, Mid-Atlantic Fishery Management 
  Council........................................................    15
    Prepared statement...........................................    17
Captain Nick Muto, Chairman, Cape Cod Commercial Fishermen's 
  Alliance.......................................................    31
    Prepared statement...........................................    33
Captain John McMurray, Owner/Operator, One More Cast Charters....    36
    Prepared statement...........................................    38
Patrick Paquette, Recreational Fishing Advocate..................    42
    Prepared statement...........................................    43
Dr. John Boreman, Adjunct Professor, North Carolina State 
  University.....................................................    48
    Prepared statement...........................................    49
Dr. Joshua B. Wiersma, Sector Manager, XI and XII Northeast 
  Fisheries Sectors and President and Executive Director, New 
  Hampshire Community Seafood Association........................    51
    Prepared statement...........................................    53

                                Appendix

Letter dated August 15, 2013 to Hon. Mark Begich and Hon. Marco 
  Rubio from Robert Beal, Executive Director, Atlantic States 
  Marine Fisheries Commission....................................    63
Matthew McKenzie, University of Connecticut History Department, 
  prepared statement.............................................    65
Response to written questions submitted to John K. Bullard by:
    Hon. Mark Begich.............................................    67
    Hon. Richard Blumenthal......................................    74
    Hon. Edward Markey...........................................    80
    Hon. Marco Rubio.............................................    82
Response to written questions submitted to C.M. ``Rip'' 
  Cunningham, Jr. by:
    Hon. Mark Begich.............................................    82
    Hon. Richard Blumenthal......................................    85
    Hon. Edward Markey...........................................    86
    Hon. Marco Rubio.............................................    87
Response to written questions submitted to Richard B. Robins by:
    Hon. Mark Begich.............................................    88
    Hon. Marco Rubio.............................................    93
Response to written questions submitted by Hon. Mark Begich to 
  Captain Nick Muto..............................................    96
Response to written questions submitted to Captain John McMurray 
  by:
    Hon. Mark Begich.............................................    97
    Hon. Marco Rubio.............................................    99
Response to written questions submitted to Patrick Paquette by:
    Hon. Mark Begich.............................................    99
    Hon. Richard Blumenthal......................................   101
    Hon. Edward Markey...........................................   101
    Hon. Marco Rubio.............................................   102
Response to written questions submitted to Dr. John Boreman by:
    Hon. Mark Begich.............................................   102
    Hon. Edward Markey...........................................   106
    Hon. Marco Rubio.............................................   107
Response to written questions submitted to Dr. Joshua B. Wiersma 
  by:
    Hon. Mark Begich.............................................   107
    Hon. Edward Markey...........................................   111


                      NEW ENGLAND AND MID-ATLANTIC

          PERSPECTIVES ON MAGNUSON-STEVENS ACT REAUTHORIZATION

                              ----------                              


                         TUESDAY, JULY 23, 2013

                               U.S. Senate,
Subcommittee on Oceans, Atmosphere, Fisheries, and 
                                       Coast Guard,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10 a.m. in 
room SR-253, Russell Senate Office Building, Hon. Mark Begich, 
Chairman of the Subcommittee, presiding.

            OPENING STATEMENT OF HON. MARK BEGICH, 
                    U.S. SENATOR FROM ALASKA

    Senator Begich. Thank you for your patience. I know Senator 
Rubio is on his way and will be attending in moments. So thank 
you all very much for attending. Thank you for being patient as 
we start our continued efforts in regards to reauthorization of 
the Magnuson-Stevens Act.
    Today, the Subcommittee on Oceans, Atmosphere, Fisheries, 
and Coast Guard begins a series of hearings that will occur 
over the next few months dealing with the reauthorization of 
the Magnuson-Stevens Fishery Conservation and Management Act or 
MSA.
    Today's hearing focuses on the New England and Mid-Atlantic 
regions. Future hearings will look at the South Atlantic, the 
Caribbean and Gulf Regions and the Pacific fisheries.
    MSA was last reauthorized in the 109th Congress with the 
enactment of the Magnuson-Stevens Fishery Conservation and 
Management Reauthorization Act of 2006. This reauthorization 
act, which was signed into law by President Bush, authorized 
appropriations to carry out the provisions of MSA through 
Fiscal Year 2013.
    The 2006 reauthorization also provided new management tools 
that ushered in sweeping changes to the way regional fisheries 
management councils and the National Marine Fisheries Service 
can serve and manage the fisheries of which their coastal 
communities and economies rely on.
    Each council was required to incorporate mechanisms into 
its fisheries management plans specifying annual catch limits 
or ACLs and/or prevent overfishing. The 2006 reauthorization 
took a significant step toward science-based fisheries 
management by requiring each council to develop ACLs that do 
not exceed the recommendations of their science and statistical 
committee. It created a new Marine Recreational Information 
program to improve upon the recreational fisheries statistical 
survey which had been place since the 1970s in order to better 
collect and report marine recreational catch and effort. It 
also created a National Saltwater Angler Registry to better 
quantify recreational fishing effort and improve recreational 
catch estimates.
    The 2006 reauthorization also mandated the Secretary of 
Commerce, working with the regional councils and the Council on 
Environmental Quality, to come up with revised procedures and 
compliance with NEPA to streamline the review and approval of 
fishery management plans and plan amendments.
    Today's hearing gives us a chance to hear from managers and 
stakeholders about how these and other aspects of MSA are 
working. We know that New England has had some success and some 
setbacks. The New England Council successfully implemented ACLs 
for all their fisheries and transitioned the ground fisheries 
to an output-based management model. Alaska has incorporated 
similar measures years ago. I'd like to boast a little bit 
about what we're doing up there. We produce over half the 
Nation's seafood while living ``hard TACs'' and various limited 
access regimes. For Alaska, this is a tried and true method for 
sustainable, efficient and safe fishery management.
    While several valuable New England fisheries, including 
Atlantic sea scallops, monkfish and others are now being fished 
at sustainable levels, the lack of progress in rebuilding key 
species like cod and certain species of flounder in spite of 
everyone's best effort under the sector system has been a 
source of great frustration.
    As with the New England Council and the Mid-Atlantic 
Council succeeding in bringing all its fishery management plans 
into compliance with the ACL requirements of MSA, as part of 
this effort, the Council incorporated a new framework across 
the fisheries' plans that is improving management consistency. 
The council also has taken a step toward forwarding cooperative 
research and management with the development of the Advisory 
Panel Fishery Performance reports. They give a fuller picture 
and broader basis for its fishery management advice and 
recommendations.
    But these and other initiatives are only as strong as the 
data and stock assessments that form the core of fisheries 
conservation and management. The experience in the New England 
and Mid-Atlantic regions reaffirms what most of us already 
know: our biggest challenge in fisheries management is and will 
likely always be balancing the need of responsible stewardship 
of the resource for future generations with the needs of the 
individuals, businesses and communities who rely upon the 
resource today.
    In closing, I want to note that in May of this year, I had 
the pleasure of speaking at the Managing Our Nation's Fisheries 
conference, which was convened here in Washington by the 
Regional Fishery Management Councils to discuss MSA 
reauthorization. I was heartened to hear that for most of the 
stakeholders there, whether they were representatives of 
commercial fishing interests, charter boat operators or 
recreational anglers, are largely pleased with MSA in its 
current form. That's not to say that they are completely happy 
with the status quo. Issues remain regarding managing data poor 
stocks, competing user interests and other issues, but these 
can be dealt with minor adjustments to the law or 
administratively through rulemaking and changes in agency 
interpretation of the existing rules. I hear the same sentiment 
in Alaska and think that this bodes well for reauthorizing this 
important statute.
    Before we start, I just want to make sure folks know, too, 
that we're going to take this process very systematically. I 
know the House is moving at a much faster pace when it comes to 
MSA. We want to hear, as I mentioned, from the different 
regions as we get their input. Alaska also has a unit 
component, subsistence harvesters, and we need to hear from the 
subsistence users as well. As we move through this, we will not 
just rush into making changes for the sake of meeting a 
deadline at the end of this year. We will do our best to 
process the information and then at the same time, prepare a 
new reauthorization that continues to move us forward in 
quality management of our resource.
    Let me end there and I know, again, as soon as the Ranking 
Member appears, what we'll do, depending on where we are in the 
panel, I may midstream stop one of you--not your testimony, but 
before I go on to the next one--to have Senator Rubio make his 
comments and then we'll go back to the panel.
    What I'd like to do is start off with John Bullard, 
Regional Administrator, Northeast Regional Office, National 
Marine Fisheries Service, National Oceanic and Atmospheric 
Administration. Thank you very much, John, for being here. I'll 
start with you and we'll just kind of go down the road here. 
John? It's always good to see you.
    Mr. Bullard. Do I push this?
    Senator Begich. Yes. A light should come on.
    Mr. Bullard. There it is.
    Senator Begich. Did it do it? Perfect.
    Mr. Bullard. Good morning, Mr. Chairman. My name is John 
Bullard. I'm the Northeast Regional Administrator for NOAA's 
National Marine Fisheries Service. It is my personal--oh, do 
you want to stop----
    Senator Begich. Perfect. Perfect timing. No, I told him I 
would do that. He just said his name. So, John, thank you, I 
gave the pre-warning. Our timing was just right. Again, we'll 
pause here for a second, we'll give Senator Rubio--we 
appreciate this kind of uniqueness from Alaska to Florida, 
everything in between, when it comes to fisheries, so we're 
very honored to have him as a Ranking Member.
    Senator Rubio.

                STATEMENT OF HON. MARCO RUBIO, 
                   U.S. SENATOR FROM FLORIDA

    Senator Rubio. Thank you, and it would be very unsenatorial 
of me to give up an opportunity to speak, and I apologize for 
being late. We had a Foreign Relations hearing on some 
Ambassadors and--I'll be brief because I am more interested in 
your statements than I am primarily in you listening to what I 
have to say--but I'm happy we're going to be having this 
meeting about reauthorizing Magnuson-Stevens.
    This is, I think, the first of three regionally-focused 
hearings before the Subcommittee and we'll hear about the 
successes and the challenges that are facing our fisheries in 
New England and the Mid-Atlantic region. And while each region 
in our country has very different kinds of ecosystems and 
different species of fish, many of the concerns expressed by 
stakeholders are very similar and I'm confident that we can 
identify broad policies that should be reviewed and revamped to 
the benefit of fishermen and the industry all across the 
country.
    For example, in today's testimony and in the feedback I 
often receive from people back in Florida, accurate and up-to-
date science is a fundamental requirement for proper fishery 
management. In the Gulf of Mexico, a recently released stock 
assessment for red snapper allowed the Council to raise the 
catch quota for the season by about two and a half million 
pounds; that's consequential.
    Unfortunately, despite this positive result, however, this 
stock assessment was the first assessment conducted on the 
fishery in literally over 5 years and unfairly leaving the 
economic burden of a lower than necessary catch limit on the 
back of both recreational and commercial fishermen in the Gulf 
region. That's just my neck of the woods, but it's an example 
of the kind of testimony we've heard from all parts of the 
country. It's even more dire in the red snapper fishery in the 
South Atlantic, where the fishery has been essentially closed. 
Despite the fact that the fishery has not had a stock 
assessment to adequately predict the health of the stock, it 
has not had a stock assessment since 2008, and as a course, 
we'll hear today, similar issues exist in the Northeast and in 
the Mid-Atlantic. Each of our witnesses today are going to 
touch on the need for accurate and up-to-date science as a 
foundation for management with a particular emphasis on real-
time data collection for the recreational industry and an 
increased emphasis on cooperative research.
    I understand that vastly increasing our data on fisheries 
will be resource-intensive and will continue to explore efforts 
to address this issue, such as reforming the authorized uses of 
the Saltonstall-Kennedy Funds. I look forward to hearing from 
today's witnesses and their views on how this fund is currently 
being managed by NOAA.
    While the need for sound science is clear, the necessary 
reforms to management policy are less clear, and today, I hope 
to hear from our witnesses which management policies under 
Magnuson-Stevens are working in their regions and which ones, 
of course, are not.
    For example, addressing forage species is a common 
management theme in today's testimony that I've read, as is the 
proper definition of the word ``sustainable'' and the role of 
the National Environmental Policy Act in Fishery Management.
    I'm also interested to hear from our witnesses their views 
on the flexibility or the lack thereof of rebuilding timelines 
as currently required by the Act, so again, thank you, Mr. 
Chairman, for holding these hearings and I look forward to the 
testimony of everyone here today.
    Senator Begich. Thank you very much, Senator Rubio. John, 
we'll go right back to you. Thank you very much for being 
patient and we appreciate all of you being here. John?

STATEMENT OF JOHN K. BULLARD, NORTHEAST REGIONAL ADMINISTRATOR, 
    NATIONAL MARINE FISHERIES SERVICE, NATIONAL OCEANIC AND 
    ATMOSPHERIC ADMINISTRATION, U.S. DEPARTMENT OF COMMERCE

    Mr. Bullard. All right. Again, good morning, Mr. Chairman, 
Ranking Member Rubio.
    My name is John Bullard. It is a personal honor to appear 
before you, Mr. Chair, given the historical ties between my 
hometown, New Bedford, Massachusetts, and the whalers of 
Barrow, Alaska, and the continuing towns of my home fishing 
port, as with Dutch Harbor. Thank you for the opportunity to 
speak about New England and the Mid-Atlantic perspectives of 
the Magnuson-Stevens Act.
    Since passage in 1976, the Magnuson-Stevens Act has charted 
a groundbreaking course for sustainable fisheries. When 
reauthorized in 2007, Magnuson gave the Regional Fishery 
Management Councils and NOAA a clear charge and some important 
new tools. It mandated science-based annual catch limits and 
accountability measures to prevent and end overfishing. It 
provided for market-based fishery management and focused on 
collaborative research with the fishing industry.
    Congress also addressed the need to improve the science 
used to inform fishery management. These improvements included 
better recreational fishing data, which we have collected 
through our Marine Recreational Information Program. We expect 
to have a nationwide survey in place in 2014. These tools are 
working. We are steadily rebuilding fisheries to support more 
fishing jobs and stronger communities.
    In our latest report, the value of commercial fisheries was 
up and we had the highest volume of landings since 1997 and the 
highest value ever recorded. The seafood industry supported 1.2 
million jobs. Recreational fishing supported 455,000 jobs, a 40 
percent increase.
    But our progress rebuilding fisheries has come with a cost. 
Fishermen, fishing communities and the councils have had to 
make tough decisions. While the Northeast and Mid-Atlantic lead 
the Nation in the number of rebuilt stocks, important stocks 
like Summer Flounder and swordfish, the Northeast also, as you 
mentioned, has some of the nation's most depleted stocks. 
Perhaps the best known is Atlantic Cod. The decline in 
productivity and the need to prevent overfishing so the stocks 
can rebuild led to significant reductions in catch levels this 
year. This is causing real pain for fishermen and the 
businesses that depend on these stocks.
    We also have examples of what fishermen, scientists and 
managers can do when they work together to rebuild stocks. The 
Atlantic Sea Scallop Fishery recovered when fishermen joined 
with scientists at the University of Massachusetts Dartmouth 
and NOAA and pioneered rotational management.
    Today, the fishery is valued at more than $380 million, a 
fivefold increase since the dark days of the early 1990s. 
Scallops have made New Bedford the top revenue port in the U.S.
    Looking ahead, we must continue to improve scientific data, 
continue our progress ending overfishing and rebuilding stocks, 
and find ways to better assist fishing communities with 
difficult transitions to sustainable fisheries.
    We're actively engaged in research to better understand why 
some stocks are not recovering. Our research is showing that 
changing ocean water temperatures, chemistry and circulation 
patterns have affected key zooplankton species that cod depend 
on. Sea surface temperatures last year in the Northeast Shelf 
ecosystem were the highest recorded in 150 years. This may be 
hindering recovery of species like cod. Fishermen are 
witnessing firsthand the effects of climate change.
    The Managing Our Nation's Fishery Conference, co-sponsored 
by the eight councils and NOAA, brought together a broad 
spectrum of partners and stakeholders to discuss sustainability 
in our fisheries. Similar open public stakeholder conferences 
were held before the previous Magnusson reauthorizations. We'll 
take the recommendations from the conference and look to the 
future in a comprehensive way that addresses the needs of 
fishermen and fish, communities and ecosystems. We look forward 
to working closely with Congress on any efforts to reauthorize 
the Magnuson-Stevens Act.
    Thank you and I welcome your questions.
    [The prepared statement of Mr. Bullard follows:]

       Prepared Statement of John K. Bullard, Northeast Regional 
Administrator, National Marine Fisheries Service, National Oceanic and 
                              Atmospheric 
              Administration, U.S. Department of Commerce
Introduction
    Good afternoon, Mr. Chairman and Members of the Committee. Thank 
you for the opportunity to testify before you today. My name is John K. 
Bullard and I am the Northeast Regional Administrator for the National 
Oceanic and Atmospheric Administration's (NOAA) National Marine 
Fisheries Service (NMFS). NMFS is dedicated to the stewardship of 
living marine resources through science-based conservation and 
management. Much of this work occurs under the Magnuson-Stevens Fishery 
Conservation and Management Act (Magnuson-Stevens Act), which sets 
forth standards for conservation, management and sustainable use of our 
Nation's fisheries resources.
    Marine fish and fisheries, such as salmon in the Pacific Northwest 
and cod in New England, have been vital to the prosperity and cultural 
identity of coastal communities in the United States (U.S.). U.S. 
fisheries play an enormous role in the U.S. economy. Commercial fishing 
supports fishermen and fishing communities, and provides Americans with 
a sustainable, healthy food source. Recreational fishing is an 
important social activity for individuals, families, and communities, 
and it is a critical economic driver of and contributor to local and 
regional economies, as well as the national economy. Subsistence 
fishing provides an essential food source and is culturally significant 
for many people.
    Our most recent estimates show that the amount landed and the value 
of commercial U.S. wild-caught fisheries was up in 2011 while 
recreational catch remained stable. U.S. commercial fishermen landed 
9.9 billion pounds of seafood valued at $5.3 billion in 2011, increases 
of 1.6 billion pounds (20 percent) and $829 million (18 percent) over 
2010 figures; the highest landings volume since 1997 and highest value 
in nominal terms ever recorded.\1\ The seafood industry--harvesters, 
seafood processors and dealers, seafood wholesalers and seafood 
retailers, including imports and multiplier effects--generated an 
estimated $129 billion in sales impacts, $37 billion in income impacts 
and supported 1.2 million jobs in 2011. Recreational fishing generated 
an estimated $70 billion in sales impacts, $20 billion in income 
impacts, and supported 455,000 jobs in 2011. Jobs supported by 
commercial businesses held steady from the previous year, while jobs 
generated by the recreational fishing industry represented a 40 percent 
increase over 2010.\2\
---------------------------------------------------------------------------
    \1\ See NOAA Annual Commercial Fisheries Landings Database, 
available at http://www.st.nmfs.noaa.gov/commercial-fisheries/
commercial-landings/annual-landings/index
    \2\ See Fisheries Economics of the U.S. 2011. NMFS Office of 
Science & Technology, available at: http://www.st.nmfs.noaa.gov/
economics/publications/feus/fisheries_economics_2011
---------------------------------------------------------------------------
    The Federal fishery management system is effectively rebuilding 
overfished fisheries. We continue to make progress towards long-term 
biological and economic sustainability and stability. Since its initial 
passage in 1976, the Magnuson-Stevens Act has charted a groundbreaking 
course for sustainable fisheries. When reauthorized in 2007, the Act 
gave the eight Regional Fishery Management Councils (Councils) and NMFS 
a very clear charge and some new tools to support improved science and 
management. It mandated the use of science-based annual catch limits 
and accountability measures to prevent and end overfishing, provided 
for market-based fishery management through Limited Access Privilege 
Programs (or catch shares), focused on collaborative research with the 
fishing industry and bycatch reduction, addressed the need to improve 
the science used to inform fisheries management, and sought to end 
illegal fishing and bycatch problems around the globe so that foreign 
fishing fleets are held to equivalent standards as, and do not 
economically disadvantage, U.S. fleets.
    While significant progress has been made since the last 
reauthorization, we recognize that this progress has not come without a 
cost. Fishermen, fishing communities, and the Councils have had to make 
difficult decisions and many areas have had to absorb the cost of 
conservation and investment in long-term economic and biological 
sustainability. The U.S. now has effective tools to address marine 
fisheries management, and as we look to the future, we must look for 
opportunities to increase flexibility in our management system. We need 
to approach that challenge in a holistic, deliberative, and thoughtful 
way that includes input from the wide range of stakeholders who care 
deeply about these issues.
    My testimony today will focus on NMFS' progress in implementing the 
Magnuson-Stevens Act's key domestic provisions, and some thoughts about 
the future and the next reauthorization.
Implementing the Magnuson-Stevens Act
    The Magnuson-Stevens Act created broad goals for U.S. fisheries 
management and a unique, highly participatory management structure 
centered on the Councils. This structure ensures that input and 
decisions about how to manage U.S. fisheries develops through a 
``bottom up'' process that includes fishermen, other fishery 
stakeholders, affected states, tribal governments, and the Federal 
Government.
    The Magnuson-Stevens Act guides fisheries conservation and 
management through 10 National Standards. These standards, which have 
their roots in the original 1976 Act, provide a yardstick against which 
all fishery management plans and actions developed by the Councils are 
measured. National Standard 1 requires that conservation and management 
measures prevent overfishing while achieving, on a continuing basis, 
the optimum yield from each fishery. Optimum yield is the average 
amount of fish from a fishery that, over the long-term, will provide 
the greatest overall benefits to the Nation, particularly by providing 
seafood and recreational opportunities and affording protection to 
marine ecosystems.
    The Councils can choose from a variety of options to manage fish 
stocks--quotas, catch shares, area closures, gear restrictions, etc.--
and also determine how to allocate fish among user groups. These 
measures are submitted to the U.S. Secretary of Commerce for approval 
and are implemented by NMFS. Thus, the Councils, in developing their 
plans, must carefully balance fishing jobs and conservation, while 
ensuring that overfishing is eliminated and overfished stocks are 
rebuilt. Other National Standards mandate that conservation and 
management measures be based upon the best scientific information 
available, not discriminate between residents of different states, take 
into account variations in fisheries and catches, minimize bycatch, and 
promote the safety of human life at sea.
    Central to many of the Council decisions are fishing jobs. Fishing-
related jobs, both commercial and recreational, are the lifeblood of 
many coastal communities around our Nation. Fishermen and fishing 
industries rely not only on today's catch, but the predictability of 
future catches. Under the standards set in the Magnuson-Stevens Act, 
and together with the Councils, states, tribes, and fishermen, we have 
made great strides in ending overfishing, rebuilding stocks, and 
building a sustainable future for our fishing dependent communities. 
Thanks in large part to the strengthened Magnuson-Stevens Act and the 
sacrifices of fishing communities across the country, the conditions of 
many of our most economically important fish stocks have collectively 
improved steadily over the last decade.
    We all share the common goal of healthy fisheries that can be 
sustained for generations. Without clear, science-based rules, fair 
enforcement, and a shared commitment to sustainable management, short-
term pressures can easily undermine progress toward restoring the 
social, economic, and environmental benefits of a healthy fishery. 
Though challenges remain in some fisheries, the benefits for the 
resource, the industries it supports, and the economy are beginning to 
be seen as fish populations grow and catch limits increase.
Progress in Implementation
    Working together, NMFS, the Councils, coastal states and 
territories, and a wide range of industry groups and other constituents 
have made significant progress in implementing key provisions of this 
legislation.
Ending Overfishing, Implementing Annual Catch Limits, and Rebuilding
    One of the most significant management provisions of the 2007 
reauthorization of the Magnuson-Stevens Act was the mandate to 
implement annual catch limits, including measures to ensure 
accountability and to end and prevent overfishing in federally managed 
fisheries by 2011. An annual catch limit is an amount of fish that can 
be caught in a year such that overfishing does not occur. 
Accountability measures are management controls to prevent the limits 
from being exceeded, and to correct or mitigate overages of the limits 
if they occur. This is an important move away from a management system 
that could only be corrected by going back through the full Council 
process--often taking years to accomplish, all while overfishing 
continued. Now, when developing a fishery management plan or amendment, 
the Councils must consider the actions that will occur if a fishery 
does not meet its performance objectives. As of December 31, 2012, 
assessments demonstrated that overfishing ended for 58 percent of the 
38 domestic U.S. stocks that were subject to overfishing in 2007 when 
the Magnuson-Stevens Act was reauthorized.\3\ Annual catch limits 
designed to prevent overfishing are in place for all stocks, and we 
expect additional stocks to come off the overfishing list as stock 
assessments are updated in the coming years.
---------------------------------------------------------------------------
    \3\ See Fish Stock Sustainability Index. This report was the source 
for the underlying data, but the numbers presented here were compiled 
specifically for this hearing. The report is available at: http://
www.nmfs.noaa.gov/sfa/statusoffisheries/2012/fourth/
Q4%202012%20FSSI%20Sum
mary%20Changes.pdf
---------------------------------------------------------------------------
    There are many examples of what fishermen, scientists, and managers 
can do by working together to bring back a resource that once was in 
trouble. The Atlantic sea scallop resource was rebuilt after fishermen 
partnered with academic and NOAA scientists to learn more about scallop 
abundance and distribution, and then embraced a rotational management 
approach focused on long-term sustainability. Valued at over $380 
million in 2011, the scallop fishery has made New Bedford, MA, the top 
revenue port in the U.S.
    In fact, many fisheries in the Northeast and Mid-Atlantic are a 
significant part of the national success story. Of the 32 stocks 
rebuilt nationally since 2000, 18, more than half, were rebuilt by 
NOAA, the Northeast and Mid-Atlantic Fishery Management Councils, the 
fishing industries, recreational anglers, and other partners on the 
Atlantic coast. In addition to Atlantic sea scallops, these include 
other important stocks such as summer flounder and Atlantic swordfish.
    We recognize that learning from our past actions and making 
adjustments as needed is important. With that in mind, the agency has 
already begun the process of reviewing the National Standard 1 
guidelines, which were last modified in 2009 to focus on implementing 
the requirement for annual catch limits. This was a major change in how 
many fisheries were managed, and we want to ensure that the guidance we 
have in place reflects current thinking on the most effective way to 
meet the objectives of National Standard 1, and builds on what we and 
the Councils have learned in applying the latest requirements of the 
Act. An Advance Notice of Proposed Rulemaking was published in May 
2012, which was followed by an almost 6-month public comment period 
where we asked the public for input on 11 topics addressed in National 
Standard 1. We received a lot of input, and are in the process of 
working through the comments and developing options for moving forward, 
be it through additional technical guidelines, regulatory changes, or 
identifying issues for discussion as part of a reauthorization of the 
Magnuson-Stevens Act.
    The Magnuson-Stevens Act also includes requirements to rebuild any 
overfished fishery to the level that can support the maximum 
sustainable yield, and as I mentioned, as of December 31, 2012, we have 
rebuilt 32 stocks nationally.\4\ We estimate that rebuilding all U.S. 
fish stocks would generate an additional $31 billion in sales impacts 
(including multiplier effects), support an additional 500,000 jobs, and 
increase dockside revenues to fishermen by $2.2 billion, a more than 
50-percent increase over current annual dockside revenues.\5\
---------------------------------------------------------------------------
    \4\ See Fish Stock Sustainability Index. Available at: http://
www.nmfs.noaa.gov/sfa/status
offisheries/2012/fourth/MapRebuiltStocksCY_Q4_2012.pdf
    \5\ See the NMFS Commercial Fishing & Seafood Industry Input/Output 
Model. The change in landings revenue for each species was derived 
using the calculation: (Current Price*MSY)--(Current Price*Current 
Landings). If MSY is not available, a zero value is assumed for the 
change in landings revenue. These values were then entered into the 
model, which produced the job and sales impacts estimates. The model is 
available at: https://www.st.nmfs.noaa.gov/documents/
Commercial%20Fishing%20IO%20Model.pdf.
---------------------------------------------------------------------------
Improvements to Science and Recreational Fishing Data
    Without high quality fishery science, we cannot be confident that 
the Nation is attaining optimum yield from its fisheries, or that we're 
preventing overfishing and harm to ecosystems and fishing communities. 
Attaining optimum yield requires an investment in information about 
fish stocks, their fisheries, and their ecosystems, including habitat 
requirements. NMFS is committed to generating the best fishery science 
to support the goals of the Magnuson-Stevens Act. Increasingly, we are 
conducting research and analyses to understand the environmental and 
habitat factors affecting the sustainability of fish populations. 
Today, we know more about our fish stocks than ever before, and it is 
vital that our science not regress, as this would inevitably lead to 
declines in our stocks and a loss in the economic and social values 
they provide.
    The importance of increasing the frequency of stock assessments, 
improving the quality of fisheries science with a better understanding 
of ecosystem factors, investing in cooperative research and electronic 
monitoring technology, and enhancing our engagement with fishermen 
cannot be stressed enough. Partnerships with industry and academia are 
a key component of successful fisheries management. Cooperative 
research provides a means for commercial and recreational fishermen to 
become involved in the science and data collection needed to improve 
assessments, and develop and support successful fishery management 
measures. The Northeast Cooperative Research Program, for example, 
enhances NOAA's capacity to respond to emerging management needs and 
research priorities associated with improving stock assessments, and 
has helped support the industry during the transition to sector 
management and the implementation of annual catch limits. Through 
cooperative research, fishermen and scientists learned that they could 
use smaller mesh fishing nets to more effectively target Acadian 
redfish and still have low bycatch of other overfished groundfish 
stocks. Based on this research, we were able to quickly authorize this 
fishing gear to provide some New England groundfish fishermen with an 
opportunity to pursue redfish while their access to rebuilding 
groundfish stocks, such as Gulf of Maine cod and haddock, was limited. 
This year we will be carrying out a new, pilot flatfish survey in New 
England using a chartered commercial fishing vessel; results will be 
evaluated to determine the potential for establishing an annual survey 
based on this approach. We will also work with commercial vessels to 
compare survey catches from commercial vessels with those from NOAA's 
Fishery Survey Vessel, Bigelow. In addition, HABCAM, a video-based, 
non-invasive survey technology that has been developed in partnership 
with the Woods Hole Oceanographic Institution, is now integral to our 
annual scallop surveys.
    The Magnuson-Stevens Act also required improvements to recreational 
fisheries data collected by NMFS for use in management decisions. In 
October 2007, NMFS established the Marine Recreational Information 
Program, a new program to improve recreational fishery data collection 
efforts, consistent with the Magnuson-Stevens Act requirement and the 
2006 recommendations of the National Research Council. The Marine 
Recreational Information Program is a national system of coordinated 
regional data collection programs designed to address specific needs 
for improved recreational fishing information. One major component of 
the Marine Recreational Information Program is the development of a 
national registry of anglers, also required by the Magnuson-Stevens 
Act, which NMFS has been using in a series of pilot studies to test 
more efficient mail and telephone surveys for the collection of data on 
recreational fishing activity. Based on the results of these studies, 
NMFS expects to be ready to implement new registry-based survey designs 
on all coasts in 2014. The Marine Recreational Information Program is 
also developing and implementing numerous other survey improvements to 
address the National Research Council's recommendations, including 
improved estimation methodologies, improved shoreside survey design, 
and improvements in for-hire fishery data collections.
    Adequate observer coverage also is critical for improving data 
collection related to bycatch. National standard 9 requires fishery 
management plans to take into account the impact of the fishery on 
bycatch, particularly for protected species. NMFS continues to work 
with the Councils and through take reduction teams established under 
the Marine Mammal Protection Act to identify measures that can be taken 
to minimize serious injury and mortality to harbor porpoises, right 
whales, and other marine mammals in New England and mid-Atlantic 
fisheries.
Looking to the Future
Remaining Challenges
    Even with these successes, we know that there are challenges that 
remain. While the Northeast and Mid-Atlantic lead the Nation in the 
number of rebuilt stocks, the Northeast also has some of the Nation's 
most depleted stocks; some of which have been overfished for more than 
a century. Some key stocks, including Atlantic cod, are having 
difficulty rebuilding. On September 13, 2012, then-Acting Secretary Dr. 
Blank determined a commercial fishery failure because a fishery 
resource disaster had occurred. This determination includes the 2013 
fishing year, which started May 1. The decline in productivity and the 
need to prevent overfishing so the stocks can rebuild have resulted in 
significant reductions in allowable catch levels, with great economic 
impact on Northeast fisheries. We are actively engaged in research to 
better understand the drivers affecting these stocks. A recent study by 
NOAA scientists found that changing ocean water temperatures and 
circulation patterns have greatly affected key zooplankton species in 
recent decades, and may be limiting survival of cod larvae and impeding 
recovery of cod and other stocks. We determined that last year, sea 
surface temperatures in the Northeast Shelf Large Marine Ecosystem were 
the highest recorded in 150 years. In response, you'll see the FY 2014 
President's Budget Request reflects a $10 million increase for NOAA to 
fund research on the impacts of climate on fisheries with a focus on 
the Northeast groundfish region.
    Looking ahead, we must continue to improve the quality and quantity 
of scientific data, continue progress made on addressing overfishing 
and rebuilding stocks, and better address the difficult transitions 
that can come with management changes leading to more biologically and 
economically sustainable fishery resources. For example, in New 
England, we are trying to cushion the effects of groundfish rebuilding 
measures by optimizing fishing opportunities on stocks that are not 
overfished, and by supporting marketing strategies that improve fish 
prices.
    The most effective annual catch limits and accountability measures 
will require further improvements to our stock assessments and 
monitoring efforts. Ensuring solid, science-based determinations of 
stock status and responsive management will also require better 
linkages to ever-shifting biological, socio-economic, and ecosystem 
conditions. U.S. fisheries are extraordinarily diverse in value, 
participation, and science needs. The Magnuson-Stevens Act provides 
flexibility in adapting management plans to the life history 
differences among species and nuances of particular fisheries, as well 
as to the unique regional and operational differences among fisheries 
and in the fishing communities that they support.
    We value the important partnerships we have formed, such as with 
the Atlantic States Marine Fisheries Commission, in helping address 
these challenges. NOAA's work with the Commission in support of 
effective science and management has been the backbone of valuable 
commercial and recreational fisheries. Together with our partners, we 
continue to explore alternative and innovative approaches that will 
produce the best available information to incorporate into management.
    It is also increasingly important that we better understand 
ecosystem and habitat factors, including climate change, and 
incorporate them into our stock assessments and management decisions, 
because resilient ecosystems and habitat form the foundation for robust 
fisheries and fishing jobs. Similarly, it is important that we meet our 
responsibilities under the Magnuson-Stevens Act in concert with related 
legislation, such as the Marine Mammal Protection Act and the 
Endangered Species Act, to reduce bycatch of protected species to 
mandated levels. As we end overfishing and rebuild stocks, the 
strategic alignment of habitat and protected species conservation 
efforts with rebuilding and managing fish stocks will be a key 
component of NOAA's success.
General Views on Legislation Proposed in the 112th Congress
    NOAA supports the collaborative and transparent process embodied in 
the Councils, as authorized in the Magnuson-Stevens Act, and strongly 
believes that all viable management tools should continue to be 
available as options for the Councils to consider when developing 
management programs.
    It is critical that we maintain progress towards meeting the 
mandate of the Magnuson-Stevens Act to end overfishing and, as 
necessary, rebuild stocks. Annual catch limits are an effective tool in 
improving the sustainability of fisheries around the Nation, and NOAA 
has concerns with efforts that would create exemptions or otherwise 
weaken provisions regarding annual catch limits. Managing fisheries 
using annual catch limits and accountability measures was a major 
change for some fisheries, and the initial implementation has 
identified some areas where we can improve that process. We will 
continue to work with the Councils to achieve the best possible 
alignment of science and management for each fishery to attain the 
goals of the Magnuson-Stevens Act.
    In an increasingly constrained fiscal environment, we must not 
mandate duplicative or otherwise unnecessary actions. Additional stages 
of review for certain types of fisheries data, or repeating data 
collection and stock assessment efforts when there are already sound 
peer review processes in place are examples of actions that will divert 
resources to a select few fisheries at the expense of others with 
little additional benefit. Moreover, legislation should be cost-
effective, particularly during this time of constrained funding. NMFS 
welcomes the opportunity to work closely with Congress, the Councils, 
and the recreational and commercial fishing industries, to use the best 
available science to seek opportunities for efficiency and improved 
management in order to end overfishing, rebuild stocks, and achieve 
stable economic opportunities for our fishermen and coastal 
communities.
The Next Reauthorization of the Magnuson-Stevens Act
    With some of the largest and most successful fisheries in the 
world, the U.S. has become a global model of responsible fisheries 
management. This success is due to strong partnerships among the 
commercial and recreational fishing, conservation, and science and 
management communities. Continued collaboration is necessary to address 
the ongoing challenges of maintaining productive and sustainable 
fisheries.
    The Managing Our Nation's Fisheries 3 conference--co-sponsored by 
the eight Councils and NMFS--brought together a broad spectrum of 
partners and interests to discuss current and developing concepts 
addressing the sustainability of U.S. marine fisheries and their 
management. The conference was developed around three themes: (1) 
improving fishery management essentials; (2) advancing ecosystem-based 
decision making; (3) and providing for fishing community 
sustainability.
    We were excited to see a wide range of stakeholders represent many 
points of view, from commercial and recreational fishing, to the 
conservation and science and management communities. Before the last 
reauthorization, we co-sponsored two of these conferences, and they 
played an important role in bringing people together and creating an 
opportunity to present ideas and understand different perspectives. We 
expect that the ideas that emerged from this event will inform 
potential legislative changes to the Magnuson-Stevens Act, but the 
benefits are much greater than that. The communication across regions 
and Councils provided an opportunity to share best practices and 
lessons learned, and could also inform changes to current policy or 
regulations that can be accomplished without statutory changes.
Conclusion
    Because of the Magnuson-Stevens Act, the U.S. has made great 
progress in ending overfishing in federally-managed fisheries, 
rebuilding stocks, and ensuring conservation and sustainable use of our 
marine fisheries. Fisheries harvested in the U.S. are scientifically 
monitored, regionally managed, and enforced under 10 national 
standards. But, we did not get here overnight. Our Nation's journey 
toward sustainable fisheries has evolved over the course of 35 years.
    In 2007, Congress gave NOAA and the Councils a clear mandate, new 
authority, and new tools to achieve the goal of sustainable fisheries 
within measureable timeframes. Notable among these were the 
requirements for annual catch limits, and accountability measures to 
prevent, respond to, and end overfishing--real game changers in our 
national journey toward sustainable fisheries, and ones that are 
rapidly delivering results.
    This progress has been due to the collaborative involvement of our 
U.S. commercial and recreational fishing fleets and their commitment to 
science-based management, improving gear-technologies, and application 
of best-stewardship practices. We have established strong partnerships 
among NOAA, the states, the Councils, and the fishing industry. By 
working together through the highly participatory process established 
in the Magnuson-Stevens Act, we will continue to address management 
challenges in a changing environment.
    It is important to take time and reflect on where we have been to 
understand where we are. We will take the recommendations from the 
Managing Our Nation's Fisheries 3 conference, and look to the future in 
a holistic, comprehensive way that considers the needs of the fish and 
the fishermen, and the ecosystems and communities. We look forward to 
these discussions, and will happily work with Congress on any efforts 
to reauthorize the Magnuson-Stevens Act.
    Thank you again for the opportunity to discuss implementation 
progress of the Magnuson-Stevens Act and future efforts of 
reauthorization. I am available to answer any questions you may have.

    Senator Begich. Thank you very much. Our next panelist is 
C.M. ``Rip'' Cunningham, Jr., Chairman, New England Fisheries 
Management Council.
    Mr. Cunningham.

   STATEMENT OF C.M. ``RIP'' CUNNINGHAM, JR., CHAIRMAN, NEW 
          ENGLAND FISHERIES MANAGEMENT COUNCIL (NEFMC)

    Mr. Cunningham. Thank you, Mr. Chairman, Senator Rubio, on 
behalf of the New England Fisheries Management Council. As the 
current Chair, I am pleased and honored to testify and hope 
that I can be helpful to you in your deliberations concerning 
MSA.
    With 18 voting New England Council members, there are often 
diverse opinions about what the problems are and what their 
solutions might be. As a result, my comments do not represent 
the official position of the Council, but the sense of the 
Council as a body.
    In New England, we have transitioned to a sustainable 
management regime and the past few years have seen impressive 
changes. We have completely revised the management of the 
iconic New England Groundfish Fishery from input to output 
controls. The scallop fisheries rotational management system is 
maturing into an efficient program that consistently leads to 
robust industry revenues while preventing overfishing. Also, we 
are completing a multi-year effort to minimize the adverse 
effects of fishing on essential fish habitat.
    The stocks in the sea scallop, monkfish, red crab, red 
fish, whiting, pollock, herring and dogfish fisheries are being 
fished at sustainable levels and effort is focused on improving 
the net benefits to the Nation. Partly due to environmental 
regime shifts, efforts to end overfishing on cod and several 
flounder stocks have been frustrated. Even though quotas are 
set according to advice and actual catches have recently been 
below the quotas, this has led to an erosion of trust in both 
the science and the management.
    The Council's adoption of sustainable fishing practices has 
dramatically increased the demand for stock assessment advice. 
We believe that sufficient resources are not being provided to 
the National Marine Fisheries Service to meet these demands. In 
our region, there is a need for about 60 different stock 
updates and yet, the Science Center is only capable of 
providing about 10 to 12. With fast-growing species, this means 
some quotas are set to catch paper fish, fish that are a result 
of assumptions about future stock growth. This is a recipe for 
disaster. Only with enhanced support will the system be able to 
make the statutory demands.
    As for MSA, we do not believe wholesale revisions are 
necessary. We believe that the Council's system is successful 
at providing an open and transparent venue for the debate on 
using fishery resources, but there are several important issues 
that need to be addressed.
    First, we believe that the current emphasis on a fixed 
rebuilding time period is misdirected. This approach assumes a 
level of stock assessment certainty that does not exist, nor 
can we predict or control the environmental changes that are 
key drivers in rebuilding. Management should focus on ending 
overfishing with a narrowly defined exception to the 
requirement when there is a dramatic change in the perception 
of stock status.
    Next, third party sustainability certification should be 
replaced by a National Marine Fisheries Service Certificate of 
Sustainability.
    Next, there is an increasing interest in ecosystem 
approaches to fishery management, but some provisions of the 
statute limit the ability to pursue such approaches. This needs 
to be addressed. And in some cases, data confidentiality 
provisions of the statute hampered the ability to understand 
the effects of management decisions. This is a public resource 
and the Council needs access to the basic data.
    In closing, the Council has expended substantial effort to 
meet the requirements of the reauthorized MSA and this effort 
has demonstrated that the current capacity of the National 
Marine Fisheries Service to provide scientific support cannot 
meet the requirements. Without that, the management process is 
likely to fail. MSA does not need to be dismantled and 
resurrected. Addressing a short list of issues would make a 
substantial impact on the Act's effectiveness. Magnuson is 
working. The improvement in the nationwide tally of stocks no 
longer experiencing overfishing and not overfished is evidence 
of the Act's success.
    Thank you, again, for asking me to participate on behalf of 
the New England Fishery Management Council.
    [The prepared statement of Mr. Cunningham follows:]

 Prepared Statement of C.M. ``Rip'' Cunningham Jr., Chair, New England 
                   Fishery Management Council (NEFMC)
    On behalf of the New England Fishery Management Council, I am both 
pleased and honored to respond to your invitation and hope that I can 
be helpful to you in your deliberations concerning the Magnusson-
Stevens Act, as well as those members of the fishing community who are 
here today.
    Before I begin, I would like to offer a few details about my 
background. I have served for nine years on the Council, five years as 
its Vice Chair and two years as Chair. I am currently the Council's 
chair--but only for a few more weeks as I have reached my term limit. 
My nine years of service on the Council has been at times fascinating, 
at times frustrating--but always rewarding. Prior to my appointment to 
the Council, I was the owner, Publisher, and Editor-in-Chief of Salt 
Water Sportsman, the world's largest sport fishing magazine, with 
approximately four million readers. I am privileged to have made a 
living by working with and for our valuable marine resources.
    With 18 voting New England Fishery Council members, there are often 
divergent opinions about the problems we face and their solutions. As a 
result, my comments may not represent the opinion of any individual 
member or the official position of the Council, but I will try to 
convey the sense of the Council as a body. I will talk about both our 
progress in the transition to sustainable management and a few 
suggested changes to the Magnuson-Stevens Act (M-S Act).
Progress Made in the Transition to Sustainable Management in New 
        England
    In New England, we have had mixed success in the transition to 
sustainable fisheries management. The past few years have seen 
impressive changes in our management system. We successfully 
implemented a system of Annual Catch Limits and Accountability Measures 
for all of our fisheries mandated by the 2007 amendments to the 
Magnuson-Stevens Act. We completely revised the management of the 
iconic New England groundfish fishery in 2010, shifting most of the 
fishery from an input management regime to an output or catch share 
system. The scallop fishery's rotational management system is maturing 
into an efficient program that consistently leads to robust industry 
revenues while preventing overfishing. Also, we are completing a multi-
year effort to redesign our approach to minimize the adverse effects of 
fishing on essential fish habitat.
    The impacts of these changes, however, have not been positive in 
all cases. The target stocks in the Atlantic Sea Scallop, Monkfish, Red 
Crab, Redfish, Whiting, Atlantic herring, and Dogfish fisheries are 
being fished at sustainable levels. These fisheries are manageable and 
sustainable and management is focused on improving the net benefits 
they produce for the Nation. Within the Skate and Northeast 
Multispecies fisheries, however, there are numerous stocks that are 
still overfished and/or subject to overfishing. Partly due to 
environmental regime shifts, our extensive efforts to end overfishing 
on cod and several flounder stocks have been frustrated at every step 
of the way. Even though quotas are set according to the advice of our 
Scientific and Statistical Committee and actual catches have recently 
been below the quotas. This has led to an erosion of trust in both the 
scientific advice and the management system. More importantly, the 
reduced quotas have led to a dramatic reduction in the active 
groundfish fishing fleet, with fewer than 400 active boats remaining, 
compared to nearly 1,200 in 2001. Our groundfish fishermen and fishing 
communities have been negatively impacted by the decline in landings 
and revenues. The Council has been largely stymied in our efforts to 
find ways to mitigate the low quotas that are in effect this year. 
After nearly twenty years of increasingly restrictive management 
measures, many groundfish fishermen feel that the promise of future 
benefits from stock rebuilding is an empty one.
    As I mentioned, the Council has complied with the requirement to 
adopt Annual Catch Limits and Accountability Measures in all our 
fisheries. The one problem Councils have all seen is that this 
management system dramatically increases the demand for stock 
assessment advice. It is our belief that sufficient resources are not 
being provided to the National Marine Fisheries Service to meet these 
demands. In our region, there is a need for periodic updates for about 
sixty different stocks and yet the science center is only capable of 
providing annual updates for about ten to twelve stocks. As a result 
assessments of an individual stock are often separated by four or five 
years. With fast growing species, this means some quotas are set to 
catch ``paper fish''--fish that have never actually been seen in an 
assessment, but are the result of assumptions about future stock 
growth. This is a recipe for disaster and contributes to our difficulty 
in rebuilding groundfish.
    It is not just the workload of scientists that has increased in 
recent years. Because of the increased complexity of both fisheries and 
other statutes, the preparation and review of management actions by 
Council and National Marine Fisheries Service staff is taking more time 
and resources than in the past. As a result the system threatens to 
become bogged down and unable to respond to our rapidly changing 
conditions. Only with enhanced support will the system be able to meet 
the demands imposed by the current statutory framework.
MSA Changes to Consider
    As one would hope with a law that has been in effect for thirty-
seven years, we do not believe wholesale revisions are necessary. We 
believe that the Council system, while not without its warts, is 
successful at providing an open, transparent venue for the debate on 
using fishery resources. Nevertheless, we do believe there are several 
important issues that need to be addressed.
    First, given our experience with the rebuilding of groundfish 
stocks, it is probably not surprising that we believe that the current 
emphasis on a fixed rebuilding time period is misdirected. This 
approach assumes a level of stock assessment certainty that does not 
exist. We have little ability to predict, and no ability to control, 
the environmental changes that are key drivers in rebuilding progress. 
We think management should focus on ending overfishing and not 
arbitrary rebuilding time frames.
    Obviously, we fully support the focus on the requirement to end 
overfishing, Our only suggestion to improve this part of the statute 
would be to create a narrowly-defined exception to the requirement to 
end overfishing immediately when there is a dramatic change in the 
perception of stock status. This is the result of our recent experience 
with a cod stock, where two successive assessments presented a 
dramatically different view of stock size that was not due to fishing 
activity. A more flexible approach would allow a management reaction 
that would be responsive to the National Standard 8 requirement to 
consider the needs of fishing communities. As I noted, however, this 
should be a narrow exception and not provide a loophole to overfish 
indefinitely.
    With one of the more strict management frameworks in the world, we 
believe that our industry should not be required to buy a third-party 
certification to demonstrate that our fishery products are sustainable. 
There are several competing seafood certification programs that confuse 
buyers, and the standards of these programs can differ. This situation 
could be simplified if the M-S Act were modified to authorize a 
National Marine Fisheries Service certificate of sustainability. Such a 
program would provide our industry with the ability to promote and sell 
seafood products in the world market.
    In addition to these main points, there are also a few other issues 
that deserve attention:

  <bullet> The relative importance of National Standard 1 (the 
        requirement to end overfishing) and National Standard 8 
        (consideration of impacts to fishing communities) continues to 
        be troublesome. Courts have interpreted National Standard 1 to 
        take precedence; it would be helpful to clarify if this is 
        indeed the intent of Congress.

  <bullet> There is increasing interest in ecosystem approaches to 
        fishery management, but some provisions of the statute limit 
        the ability to pursue such approaches. A more explicit 
        recognition of this concept would help us pursue this rapidly-
        developing approach.

  <bullet> The overlap between the National Environmental Policy Act 
        and the M-S Act has not, in our opinion, been adequately 
        addressed in spite of congressional direction to do so. While 
        NMFS has published updated guidance that the Councils have 
        reluctantly acceded to, we do not agree that this addresses the 
        fundamental problem nor were the Councils adequately consulted 
        in its development.

  <bullet> In some cases the data confidentiality provisions of the 
        statute hamper the ability of managers and the public to 
        understand the effects of management decisions. This is a 
        public resource, and the Council members need access to the 
        basic data that will tell them the effect of their actions.
Summary
    The NEFMC has expended substantial effort to meet the requirements 
set forth in the 2007 reauthorization of the Magnusson-Stevens Act by 
implementing annual catch limits and accountability measures for all of 
the managed species under its jurisdiction. This effort has 
demonstrated that the current capacity of the National Marine Fisheries 
Service to provide scientific support cannot meet the requirement for 
continuously updated stock assessments. Environmental regime shift has 
also dramatically increased the need for updated science. Without 
enhanced scientific support, the management process is likely to fail. 
It is said there are three important things to success in the real 
estate business, location, location, location. There are the three 
things that will enhance the fisheries management process, science, 
science, and science.
    MSA does not need to be dismantled and resurrected. Addressing a 
short list of issues would make a substantial impact on the Acts 
effectiveness:
  <bullet> The focus should be on ending overfishing. That is the one 
        aspect that Councils can control effectively.

  <bullet> Address the existing regulatory impediments in the Act that 
        will adversely impact the shift to ecosystem based fishery 
        management.

  <bullet> Better define the priority of competing National Standards.

  <bullet> Support the industry with a national sustainability 
        certification program.

    MSA is working. The improvement in the nationwide tally of stocks 
no longer experiencing overfishing and not overfished is evidence of 
the Act's success. The system works and simply needs some ongoing 
modifications, which will likely be the case in another six years.
    Thank you again for asking me to participate on behalf of the New 
England Fishery Management Council.

    Senator Begich. Thank you very much for your testimony.
    Next, we have Richard Robins, Chairman of the Mid-Atlantic 
Fishery Management Council.

  STATEMENT OF RICHARD B. ROBINS, JR., CHAIRMAN, MID-ATLANTIC 
                   FISHERY MANAGEMENT COUNCIL

    Mr. Robins. Thank you, Mr. Chairman and Ranking Member 
Rubio. I am Rick Robins, Chairman of the Mid-Atlantic Fishery 
Management Council. I appreciate the opportunity to testify 
before you this morning on the Magnuson Act.
    I'm pleased to report that the Council's stock rebuilding 
efforts that were ongoing at the time of the last 
reauthorization are now essentially complete. All of the stocks 
for which we have biological reference points are either at, 
near or above their biological targets. Today, fisheries in the 
Mid-Atlantic support over $600 million in commercial landings. 
They also support 21 million recreational fishing trips taken 
annually by over five million anglers.
    Since reauthorization, we've integrated the Scientific and 
Statistical Committee into our decisionmaking process. We've 
developed a quota-setting framework that incorporates a risk 
policy and a harvest control rule. The new processes worked 
very well for situations in which we have inadequate stock 
assessment. It also provides for a more clear and consistent 
approach to setting quotas; it strikes an effective balance, I 
believe, between accounting for scientific uncertainty and 
trying to maximize the yield out of our managed stocks. We've 
also established an Advisory Panel Fishery Performance report 
to provide the SSC and the Council with timely, on-the-water 
perspectives about trends in our fisheries.
    In terms of challenges and recommendations, I'll touch very 
briefly on five areas: sustainability in marketing, science, 
ecosystem approaches, representation and recreational fisheries 
management.
    Despite our rebuilding successes, some of our commercial 
fishermen and fisheries struggle to regain their footing in 
U.S. and international markets, despite the fact that the 
stocks are rebuilt and the quotas are increasing. There is also 
a lingering and sometimes demoralizing sense that U.S. 
fishermen in our region are still negatively associated with 
overfishing. These problems deserve to be addressed. U.S. 
fishermen fishing under today's Magnuson Act should be standing 
tall on the world's stage. In a market transformed by 
globalization, the sustainability of U.S. fisheries needs to be 
affirmed and U.S. processors and fishermen should be able to 
identify and label their fish caught under the gold standards 
of the Magnuson-Stevens Act as being sustainably and 
responsibly harvested. We don't need a complex Federal 
certification program, but rather, a public affirmation of the 
core strengths of the U.S. management system would be an 
important step toward facilitating education, awareness and 
better marketing for the benefit of U.S. fisheries.
    Shifting to science, adequate science is critical to our 
mission. I have three specific recommendations in this area. 
First, we need adequate research capacity within the system. 
The same system that I described to you that works very well 
for setting quotas in data-rich situations has not worked well 
in data-poor situations; it's produced inconsistent results. 
That highlights the need for this research capacity.
    Second, we also need adequate capacity within the Northeast 
Fishery Science Center to generate operational stock 
assessments and assessment updates at appropriate frequencies. 
We share these resources with the New England Council and the 
Atlantic States Marine Fisheries Commission, so these 
capacities are critical.
    Cooperative research, and specifically, cooperative surveys 
such as NEAMAP, should be adequately funded and expanded 
strategically in the Northeast region. It's not just about how 
fisheries data are packaged and communicated that build 
confidence. Directly engaging the stakeholders in the 
collection of data is the most direct strategy for building 
confidence in fisheries data and fisheries management.
    With respect to ecological considerations, our Council is 
pursuing an incremental and evolutionary strategy to implement 
an ecosystem approach to fisheries management. At the same 
time, the Northeast Fisheries Science Center is strategically 
expanding its ecosystem research programs to support this 
transition. The reason I bring this up to you today is because 
a truly ecosystem-based approach to management may require us 
to set quotas for some species above maximum sustainable yield 
while we set quotas for other species well below maximum 
sustainable yield. The ecosystem references in the Act should 
be reviewed and clarified, if necessary, to ensure alignment 
between the ecosystem references, the national standards and 
the definition of optimum yield.
    In terms of representation, it was clear from the port 
meetings we've held over the last 2 years with Southern New 
England fishermen that these fishermen in those states desire 
some form of representation on our council. Similarly, the Mid-
Atlantic's top fishery, Sea Scallops, is managed by the New 
England fishery and we don't have a final vote on those actions 
through that New England process. This issue is expected to be 
exacerbated by ongoing and substantial shifts in fisheries 
population and response to changing ocean temperatures. One 
option to resolve this in the interest of both councils would 
be to vest liaisons with voting rights.
    Turning to recreational fisheries, enhancing the stability 
of our fisheries is one of our top strategic priorities. We've 
just submitted an omnibus amendment that would frame our 
recreational accountability measures in such a way that it 
would take the statistical uncertainty into account. We would 
suggest leaving room in the Act for some flexibility in 
recreational AMs.
    In conclusion, the Mid-Atlantic Council's history offers 
solid evidence that the system established by the Magnuson Act 
is effective at preventing overfishing and rebuilding stocks. 
The next authorization should build on that success, but should 
do so in broader terms than simply preventing overfishing. We 
need to define and pursue success in terms that result in the 
management of U.S. fisheries for the greatest overall benefit 
of the nation, not just biologically, but also, socially, 
economically and ecologically, to ensure better futures for our 
fisheries and our fishing communities. As strong as the system 
is, we can improve it by working together to fine-tune the Act, 
the policies that shape its implementation and our practices.
    Thank you.
    [The prepared statement of Mr. Robins follows:]

 Prepared Statement of Richard B. Robins, Jr., Chairman, Mid-Atlantic 
                       Fishery Management Council
    Good morning, Mr. Chairman and Members of the Committee. Thank you 
for the opportunity to testify before you today. My name is Richard B. 
Robins, Jr. and I am the Chairman of the Mid-Atlantic Fishery 
Management Council. I was appointed to the Council in 2007 and have 
served as chairman for the last five years. In addition to my 
involvement on the Council, I have served as an Associate Member of the 
Virginia Marine Resources Commission since 2004. I have been processing 
and exporting U.S. seafood since 1990, and I have also been a lifelong 
recreational fisherman.
    The Mid-Atlantic Council has primary management responsibility for 
8 species of fish, 2 species of squid, and 2 species of shellfish, as 
well as the surrounding ecosystem and habitats, in the Exclusive 
Economic Zone from North Carolina to New York. The Council manages 5 
species jointly with the Atlantic States Marine Fisheries Commission 
and 2 species jointly with the New England Fishery Management Council.
    In 2011, the commercial fishing industry in the Mid-Atlantic 
harvested 858 million pounds of fish and shellfish valued at $605 
million, and more than 5 million fishermen took nearly 21 million 
fishing trips. The commercial and recreational fishing industries also 
provide approximately 80 thousand full- and part-time jobs. Although 
our jurisdiction includes the seven states of the Mid-Atlantic, the 
ecological and socioeconomic impacts of our fisheries extend well 
beyond our region.
    The Mid-Atlantic Council's stock rebuilding efforts that were 
ongoing at the time of the last reauthorization are now complete. All 
of the stocks we manage that have biological reference points are now 
rebuilt to levels at, near, or above their biological targets. Several 
of our stocks, including Atlantic Mackerel, do not currently have 
biological reference points and their status is unknown.
    I was asked to speak today about three topics as they relate to 
fisheries management in the Mid-Atlantic:

  1.  Progress made since the 2006 reauthorization;

  2.  Ongoing challenges faced in transitioning to sustainable 
        fisheries; and

  3.  Tools, resources, and statutory refinements needed to address 
        these challenges.

    The Council just completed its first Visioning Project and 
Strategic Planning Process. The initiative benefitted from extensive 
public input from thousands of fisheries stakeholders throughout the 
region, and culminated in a 5-year Strategic Plan. My responses to 
these questions will reflect not only my own perspective as a Council 
member, recreational fisherman, and commercial industry participant but 
also the goals and concerns identified by stakeholders during this 
planning process.
Recent Progress and Successes
    The U.S. has the strongest fisheries management system in the 
world. At the time of the last reauthorization, the Mid-Atlantic 
Council was already on a solid path to rebuilding stocks that were 
depleted in the 1980s and 1990s. The Council's rebuilding success was 
facilitated by quota-based management that generally complied with the 
scientific advice that came through the stock assessment process and 
quota recommendations from Monitoring Committees.
    The 2006 reauthorization required that the Council's Scientific and 
Statistical Committee (SSC) provide the Council with Acceptable 
Biological Catch (ABC) recommendations for each fishery. This was a 
significant institutional change, and the Council focused on developing 
necessary capacities within the SSC to develop and refine the quota-
setting process.
    In addition, the Council was able to bring all of its fishery 
management plans (FMPs) into compliance with the Annual Catch Limit 
(ACL) and Accountability Measure (AM) requirements of the Act through 
an omnibus amendment. At the core of the omnibus amendment is a harvest 
control rule and associated risk policy that quantifies the Council's 
tolerance for risk as a function of each fishery's stock status and the 
biological life history characteristics of the species. Since the 
Council was able to incorporate the harvest control rules for all 
fishery management plans in an omnibus amendment, our approach to risk 
and accounting for scientific uncertainty is consistent across plans 
and is explicitly incorporated in the harvest control rules.
    Our risk policy is an example of success because it strikes a 
balance between maximizing yield from a stock and accounting for the 
scientific uncertainty that is inherent in stock assessments. The new 
framework has worked very well for fisheries that have stock 
assessments with reliable biological reference points. The framework 
creates consistency for the Council and the public by establishing a 
crucial link between the Council and the SSC in the quota-setting 
process.
    A second major area of improvement for us since 2006 relates to the 
way we incorporate fishermens' on-the-water perspectives, knowledge, 
and market information into the management process. In 2011, we began 
developing Advisory Panel (AP) Fishery Performance Reports to provide 
the SSC with an annual description of the factors that influenced 
fishing effort and catch for each fishery. These reports provide the 
SSC with additional contextual information and are particularly useful 
when we establish quotas for data-poor stocks. They also provide useful 
and up-to-date information about the operations Mid-Atlantic fisheries. 
We have also reviewed and updated the composition of our APs to ensure 
the Council was benefitting from a broader range of stakeholder 
interests and geographical perspectives.
    The Council's post-reauthorization process changes have not been 
easy, but they have helped us establish a more clearly defined quota-
setting framework and contributed to successful stock rebuilding in 
Mid-Atlantic fisheries.
Challenges and Recommendations
Allow fisheries managed under Magnuson-Stevens to be marketed 
        accordingly
    As I mentioned previously, we have been steadily rebuilding stocks 
that were depleted in an earlier chapter in history. Despite these 
successes, the social and economic outcomes for our region's fishing 
communities have not been entirely positive. Many members of the 
commercial fishing industry struggle to regain their footing in U.S. 
and international markets even as quotas increase. There is also a 
lingering and sometimes demoralizing sense that U.S. fisheries and 
fishermen are still negatively associated with overfishing, despite the 
solid rebuilding successes and sustainability requirements in the 
current act.
    These problems deserve to be addressed--U.S. fishermen fishing 
under today's Magnuson Act should be standing tall among their 
international peers. In a market transformed by globalization, the 
sustainability of U.S. fisheries needs to be affirmed, and U.S. 
fishermen and processors should be able to identify and label their 
products as fish that were harvested responsibly and sustainably under 
the gold standards of the Magnuson-Stevens Act.
    A U.S. fisherman catching fish in fisheries subject to the 
Magnuson's peerless standards should not have to make a hefty 
investment in a third-party certification in order to sell his fish to 
U.S. consumers, much less to the vendors of the U.S. Park Service. 
Within the global market, there will always be a need and a role for 
third-party certifiers for sustainability and food safety.
    I would be very concerned about shouldering NMFS with an unfunded, 
complicated certification program. Rather, I think the focus should be 
kept simple and should give the agency the authority to confirm that 
fisheries subject to Federal management are sustainably managed, 
consistent with the legal requirements of the Magnuson-Stevens Act. 
This would allow fishermen and processors to label and market their 
product accordingly. Such a designation may or may not satisfy a 
European retail chain, but a public affirmation of the core strengths 
of the U.S. management would be an important step toward better 
marketing of U.S. fisheries products.
Provide funding and support for the collection of timely and accurate 
        data to meet the requirements of the Act
    The effectiveness of our fisheries management system hinges on the 
availability of accurate information about the status of our fisheries. 
The stock assessment and research capacities of the Northeast Fishery 
Science Center (NEFSC) are critical to the successful management of 
fisheries in the Mid-Atlantic. The ACL requirements of the last 
reauthorization increased the demand for assessment products from the 
NEFSC, which also supports the New England Fishery Management Council 
and the Atlantic States Marine Fisheries Commission. I would 
specifically recommend additional investment in the NEFSC's stock 
assessment and research capacities to meet the future needs of the 
region's managed fisheries.
    I also suggest securing the future of cooperative and collaborative 
research initiatives such as the highly successful Northeast Area 
Monitoring and Assessment Program (NEAMAP). These programs build 
stakeholder confidence in fisheries data used to support fisheries 
management by bringing fisheries scientists and commercial fishermen 
together to collect important fisheries data. Cooperative and 
collaborative initiatives like NEAMAP should be expanded in a strategic 
way to supplement existing surveys in the Northeast Region.
Data-Poor Stocks
    While I have already described several areas of progress relative 
to how we use scientific information in the management process, this 
progress has not applied evenly across our fisheries. The revised 
process created by the 2006 MSRA has not worked as well for data-poor 
stocks. In cases where a stock assessment fails to produce reliable 
biological reference points, the process has produced inconsistent 
results.
    Black sea bass and butterfish are two examples of fisheries that 
have been the subject of significant quota-setting challenges as a 
result of scientific uncertainty. For both fisheries, the Council has 
had to work through an iterative process with the Northeast Regional 
Science Center, the SSC, and other management partners to conduct 
supplemental analyses to achieve improved outcomes. Every Council has 
some data-poor stocks, and these examples highlight the need for 
sustained investment in the research necessary to support improved 
stock assessments that will move these stocks from the data-poor 
category, which is currently subject to ad-hoc quota-setting methods, 
to the point that they have acceptable biological reference points.
Improve Alignment of Ecosystem Objectives in the MSA with Other 
        National Policies
    The Mid-Atlantic Council has taken several significant steps toward 
a more ecosystem-based approach to fisheries management since the last 
reauthorization. These steps have included: 1) Establishing an 
Ecosystem Subcommittee within the SSC to provide the Council with 
scientific advice specific to ecosystem management, 2) Holding a 
comprehensive forage fish management workshop in 2013, and 3) 
Initiating an Ecosystem Approach to Fisheries Management Guidance 
Document in 2013.
    The Council is pursuing an incremental, evolutionary strategy to 
incorporate ecosystem approaches to fisheries management. This approach 
responds to significant public interest in the management of low 
trophic level (forage) stocks and a broader objective of more 
effectively incorporating species interactions, environmental 
conditions, and habitat associations into our management decisions. The 
process should ultimately enhance the ecological sustainability of our 
managed fisheries.
    It may be necessary to fish some species at levels above Maximum 
Sustainable Yield (MSY) and other species well below MSY in order to 
achieve ecosystem level objectives. The act should be clear on these 
issues as they relate to the definition of Optimum Yield (OY).
Address emerging representation issues
    Fish do not respect political boundaries, so the Mid-Atlantic 
Council has spent considerable time in Southern New England holding 
port meetings with fishermen and fisheries stakeholders during our 
Visioning Project. From Stonington, Connecticut to Chatham, 
Massachusetts, each of these groups raised a common concern regarding 
representation. Specifically, they expressed concern over the fact that 
their state jurisdictions did not have a voting representative on the 
Mid-Atlantic Council despite the fact that some of them depend 
substantially on fisheries managed by the Mid-Atlantic Council.
    Similarly, the Mid-Atlantic fishing and processing industries 
depend significantly on the Atlantic Sea Scallop fishery. Sea Scallops 
are the top commercial fishery in the Mid-Atlantic region in ex-vessel 
value. New Jersey and Virginia landed nearly 23 million pounds of sea 
scallops worth $222 million in 2011. While the Mid-Atlantic Council has 
two voting seats on the New England Council's Sea Scallop Oversight 
Committee, the Mid-Atlantic committee members are not able to vote on 
final Council actions.
    Geographic distributions of fisheries populations are also shifting 
substantially in response to changing ocean temperatures. The 
governance implications of these ongoing changes in the marine 
environment should be considered to ensure that constituents throughout 
the range of these fisheries are adequately and effectively represented 
in the process. The Mid-Atlantic Council is addressing these concerns 
proactively in a governance workshop in March of next year. Meanwhile, 
vesting the liaisons of the New England and Mid-Atlantic Councils with 
motion-making and voting rights in the reauthorization would ensure 
that both Councils can preserve their interest in fishery management 
actions through the final Council vote that submits a recommendation to 
the Secretary of Commerce. Another strategy would be to give the 
Council the discretion to submit final actions when convened as a 
committee of the whole, which would allow the additional committee 
members to vote on the final action.
Incorporate provisions that account for the needs and interests of the 
        recreational fishing community
    Recreational fisheries are an important source of food, recreation, 
employment, and income for many Mid-Atlantic communities. In 2012, 5 
million anglers took about 20 million fishing trips in the Mid-Atlantic 
region. The recreational fishing community is highly diverse and 
includes not only private anglers, but also for-hire vessels (i.e., 
party and charter boats with paying customers) whose business interests 
may reflect different values and regulatory preferences. It is clear 
from input we received from stakeholders during our Visioning Project 
that recreational anglers want reasonable access to fishing 
opportunities and they want greater regulatory stability.
    Since the last reauthorization, we have made considerable progress 
toward adapting our management system to better account for the 
different needs and interests of the recreational community. We 
recently completed an Omnibus Amendment that involved a comprehensive 
review and overhaul of our recreational Accountability Measures (AMs). 
Our recommendations were designed to enhance stability of recreational 
fisheries by improving alignment of our management strategies with the 
statistical characteristics of the recreational catch estimates.
Conclusion
    The Mid-Atlantic Council's history offers solid evidence that the 
system established by the Magnuson-Stevens Act and subsequent 
amendments is effective at preventing overfishing and rebuilding 
stocks. The next reauthorization should build on the past success of 
the act and position our fisheries for future success in broader terms 
than simply preventing overfishing. We need to define and pursue 
success in terms that result in the management of U.S. fisheries for 
the greatest overall benefit of the Nation not just biologically, but 
also socially, economically, and ecologically to insure and secure a 
better future for our fisheries and fishing communities. As strong as 
the system is, we can improve it by working together to fine tune the 
act, the policies that shape its implementation, and our practices.

    Senator Begich. Thank you very much. Thank you, again, for 
all of your testimony.
    I'll start off; we'll do a 5-minute round. I'll start with 
a few questions then ask other members to join in with their 
questions.
    First, Mr. Bullard, thank you very much for being here. I 
want to specifically ask you about a couple things. One, a 
little follow up on a report that was done--I think it was 
called the Touchstone Report on New England Fishery 
Management--are you familiar a little bit with it?
    Mr. Bullard. Yes.
    Senator Begich. OK. Let me ask you, so I won't go through 
the whole detail of what the report's purpose was, but because 
of your knowledge of it, I'm curious about the actions has NOAA 
taken--I know there were some recommendations within the 
report; once it was done, NOAA announced that it would adopt a 
series of immediate actions and near-term plans to incorporate 
the report's recommendations. Can you give me just a sense of 
how that is going or what the status is from NOAA's 
perspective?
    Mr. Bullard. Yes, we are very grateful for Pres Pate and 
Touchstone's report to improve the work of the regional office 
with the Mid-Atlantic and New England Councils and we've taken 
those recommendations very seriously. We have drafted formal 
agreements with the Mid-Atlantic Council, which I think is 
being signed pretty much as we speak, Mr. Chair, and hope to do 
something very similar with the New England Council.
    We're also reviewing our data collection systems with an 
eye to improving efficiency in data quality, to meet short and 
long-term management. We've undergone a plain language campaign 
that's resulting in clearer and more concise informational 
bulletins. It has always amazed me how fishermen can get 
through the regulations that constantly change to comply with 
them, so we're trying to make them easier to understand. We 
have assembled a team at the regional office and the New 
England Council to improve the process of developing fishery 
management plans, which are incredibly complex.
    And last, I'd say when I took this job about 11 months ago, 
I did a series of 20 listening sessions from Manteo, North 
Carolina to Ellsworth, Maine, to go to people's places of 
business to listen to what they had to say about how we could 
improve our operations. I got many, many comments. We 
deciphered them, we reported back on what I heard, and we're 
starting to put in place improvements based on the many 
comments that we got from people.
    Senator Begich. Very good. Thank you.
    Let me do a quick follow up and then one other question 
related and then I'll ask a couple others to other folks.
    Can you, on that report, can you at some point present to 
the Committee or give to the Committee kind of the here's the 
recommendations, here's the status, as you've just described 
some of them, and then timetable. And some of that status could 
be that you may not do some of the recommendations, which is 
understandable, because it may not be practical, but is that 
something that you could provide at some point to the 
Committee?
    Mr. Bullard. Sure.
    Senator Begich. In a very simple--I don't need a complex, I 
hate to say this, government document; I want a simplified, 
like what you're working on here, a simplification.
    Mr. Bullard. Yes.
    Senator Begich. That would be great if you could do that.
    Mr. Bullard. We'd be happy to.
    Senator Begich. Then the other one, I'm a big proponent of 
electronic monitoring systems. I've met with Woods Hole and had 
some great discussion there on their technology, as well as 
other places around the country. Can you provide me with any 
additional information? I know I harass NOAA on this all the 
time because I think it's just, the last time, I think it was 
in 2011, Administrator Lubchenco indicated an openness to kind 
of broadly implement this technology. Do you have any comments 
in regards to that, in advancing the use of this technology? I 
know in New England, there's some great testing being done by 
Woods Hole and others.
    Mr. Bullard. Yes, I believe that in this area, there is 
much that can be gained in efficiency that can benefit 
fishermen and can certainly benefit the Agency, and in Bill 
Karp, we have someone that is a gift from the State of Alaska, 
who has come down to direct the Science Center. He's got a lot 
of familiarity with the advances that have been made in Alaska 
and we are going to benefit from his experience.
    There is a working group that we've assembled between the 
regional office and the Science Center. It had almost a full-
day meeting, most recently in Boston a couple of days ago, on 
this. It's incredibly complex; a lot of people think it's just 
a question of putting cameras on boats. As you know, it's much 
more complicated than that; it involves work with the councils; 
there are regulatory changes that have to be made. Both 
councils, as the Chairs can tell you, have working groups set 
up, very recently set up. We're starting with working teams at 
the regional office and the Science Center to understand how we 
might do this, whether it would involve full retention where 
the cameras might be used, just to see whether or not you're 
discarding. And so--I'm new to this, I have a hard time with my 
cell phone, but I'm learning about this--and we're trying to 
figure out which models, which fisheries, might this work on 
first, and which fisheries would be most appropriate, what 
regulations would have to be changed. We're trying to get it 
straight between the Science Center and the regional office, 
then bring in the councils to figure out which regulations have 
to be changed, involve the industry, some of whom are chomping 
at the bit, they can't wait to get started; others of whom see 
cameras as--oh, wait, I'm not sure I want to go there. And 
we're trying to figure out how it works in the Northeast and 
how that fits with the national effort because this is, as you 
know, a priority in NOAA fisheries nationally as well. So I 
appreciate how complex it is; I also appreciate how important 
it is and how big the potential payoff is.
    Senator Begich. Very good. Thank you.
    Let me go ahead and turn to Senator Rubio, my time is up, 
for his questions.
    Senator Rubio. Thank you.
    I have two initial questions of this panel, and I'll 
actually direct them at you, Mr. Cunningham, but Mr. Robins, 
I'd like to hear from you on these as well.
    The first is: should the Act be revised to offer greater 
flexibility in the rebuilding timelines for fisheries, if you 
could comment on that.
    Mr. Cunningham. Thank you.
    I think, as I mentioned in my comments, the New England 
Council feels that the focus should be on preventing 
overfishing, not on a set rebuilding timeline because as it 
currently is, we don't have the scientific information that's 
exact enough to allow us to rebuild to that set time period, so 
that's where we think the emphasis should be placed, that 
councils should control overfishing.
    Senator Rubio. So the Council would be supportive of an 
effort to offer greater flexibility with regards to how we view 
the timelines, given the data inadequacy?
    Mr. Cunningham. That is the Council's position, that's 
correct.
    Senator Rubio. Mr. Robins?
    Mr. Robins. Thank you, Senator Rubio.
    The Council doesn't have a position per se, so I'll be 
reflecting on our experience more broadly, but the Mid-Atlantic 
Council has been through the stock rebuilding process and so 
our constituents, our communities, have been through it. It was 
very difficult and we did that jointly with the Atlantic States 
Marine Fisheries Commission and many of those important 
fisheries such as Summer Flounder. But thinking back on back on 
some of these experiences, such as dogfish, when we rebuilt the 
spiny dogfish stock, the first action was to essentially close 
the fishery because it could be rebuilt within 10 years, but 
only at an extremely low level of catch, and so that fishery 
was essentially all but wiped out in the course of the stock 
rebuilding process in that 10-year period.
    I think the other exacerbating fact here is the fact that a 
lot of times, stock growth and stock rebuilding hinges on 
environmental conditions that facilitate recruitment and growth 
into that population. To the extent that those environmental 
variables are outside of our control, I think it would be 
helpful to have some flexibility to deal with those types of 
changing or adverse environmental circumstances when a council 
is trying to rebuild a stock, so some targeted flexibility, I 
think, could be in order.
    Senator Rubio. At the core of all the testimony today has 
been the need for better data and better research. At the end 
of the day, we're making decisions here sometimes with things 
that are 4 or 5 years old and it's impacting not just the 
livelihood of people who live off of these industries, but 
quite frankly, on the recreational side; sometimes, we forget 
the economic impact that that has. I mean, I know in Florida, 
but I think this is true around the country, people pay a great 
amount of money, then stay at hotels and bring their boats in 
and take their families out, and it's also just part of the 
culture of the place, I mean, it's part of, certainly, the 
culture in South Florida and one of the greatest experiences 
I've had with my children is the ability to go out and fish and 
I'd hate to see any of that diminished at any point.
    I say all of that as a preface to the fact that one of the 
common practices now that the administration has is to divert 
in their annual budget the Saltonstall-Kennedy Funds that are 
received by NOAA. They would divert that away from the 
authorized uses and toward the agency's operation and research 
fund. So I guess my question is, have you spent any time 
talking about the diversion of those funds to the extent that 
they undermine the availability of those funds for more 
research? Shouldn't those funds go to their intended purposes 
and be appropriated, be used, so that NOAA can conduct more 
fishery research?
    Mr. Bullard. I'd assume that question is for me.
    Senator Rubio. Sorry, anybody on the panel could take it 
first. I know it's----
    Mr. Bullard. We expect that Saltonstall-Kennedy will have 
funds this year for grants $5 to $10 million, and as you know, 
Congress has allocated a significant portion of Saltonstall-
Kennedy for basic research, for stock assessments and 
cooperative research, in the past, and if it's one thing I 
heard in the listening sessions that I've mentioned, it has 
been the need for stock assessments and basic science and 
frequently people saying that we need more frequent stock 
assessments. So Congress has used a portion of Saltonstall-
Kennedy to fund that through operations and research, and so if 
the Congress wishes for Saltonstall-Kennedy Funds to be used 
for other purposes, then we're going to need to find other 
sources of money for stock assessments, which is the most basic 
thing we do for management plans. I mean----
    Senator Rubio. Clearly, you've heard the need for more 
funds--this research costs money.
    Mr. Bullard. Couldn't agree more, but every----
    Senator Rubio. But you're saying you just need 
Congressional authority to do that?
    Mr. Bullard. The building block is the stock assessment; 
that's what everything else is based on.
    Senator Rubio. So your testimony is that we would need--
what you're asking or what you need in order to be able to do 
it that way using these funds is more Congressional authority 
to spend more of this money on the research component?
    Mr. Bullard. The research is the fundamental building block 
and cooperative research, I mean, we applaud that, the 
intention is great.
    Senator Begich. Can I ask quick and then I'll go to Senator 
Ayotte--Mr. Bullard, could you give us maybe again for the 
record, not right now, but maybe the last 5 years of that Fund 
and how that has been used? It can be in broad categories for 
now and then if there is additional information that maybe 
Senator Rubio or others might have on it, but maybe for the 
Committee, for the last 5 years, the broad use in category; if 
you could present that, that'd be good.
    Mr. Bullard. The last 5 years? Yes.
    Senator Begich. The last 5 years. I'm picking that date; I 
don't know if Senator Rubio--does that sound okay?
    Senator Rubio. Yes, that's fine.
    Senator Begich. OK, that gives us a little range. Thank 
you.
    Mr. Bullard. We'll get that to you.
    Senator Begich. Senator Ayotte.

                STATEMENT OF HON. KELLY AYOTTE, 
                U.S. SENATOR FROM NEW HAMPSHIRE

    Senator Ayotte. Thank you, Mr. Chairman.
    Administrator Bullard, I'm really troubled. As you know, 
not only myself, but the New England delegation in January 
asked for approval of interim measures for 2013 for Gulf of 
Maine cod and haddock and you wrote back in January 14, 2013 
and said no, we could not have interim measures for the Gulf of 
Maine cod and haddock, and really, the end result was, just to 
use a couple numbers, was that the New England Fisheries 
Managemewnt Council then had no choice as a result of your 
denial of interim measures but to vote on January 30 to approve 
unprecedented cuts, just decreasing the overall quota for Gulf 
of Maine cod by 78 percent for the years 2013 to 2015, and to 
put that into perspective, that means fishermen's allocation 
has been reduced from 6,700 metric tons in 2012 to 1,550 metric 
tons beginning on May 1 of this year. I don't know a business 
that can go from 6,700 tons to 1,550 tons, a 78 percent 
reduction, and survive, and this is a matter of survival for an 
honorable and noble profession in New Hampshire.
    New Hampshire fishermen, many of them have this in their 
families; they have fished the waters, they believe very firmly 
in sustaining the stocks because it's part of their livelihood, 
and yet, they have not been given the opportunity to even 
transition; it's just been drastic, the impact that they've 
felt.
    And it really bothers me, and so I want to ask you, when I 
look at national standard eight of the Magnuson-Stevens Act, 
NOAA is directed to sustain both fishing stocks and fishing 
communities. What actions are you going to take to sustain our 
fishing industry in New Hampshire, and how do you expect the 
small boats to survive? In some ways, it's almost the 
implementation of too big to fail in the fishing industry, the 
way this is working out for our small boats. So I just don't 
know a business that can go with a 78 percent reduction and 
survive. So can you help me with this because this is just 
something that, you know, I've gotten to meet many of them, it 
just really bothers me and it just seems to me that they care 
deeply about what they do, we're proud of them, and yet, so 
many of them are going out of business.
    Mr. Bullard. Senator, I assure you, it bothers me too. I 
come from a fishing port and the condition of cod stocks in New 
England is something that keeps me up at night as well, and I 
wrestle with it. And especially, the situation in New 
Hampshire, a state that had six processing plants and is down 
to one, Yankee Co-Op. It is something that I thought long and 
hard about when we adjusted the closure due to Harbor Porpoise 
at the request of the sector managers up there, persuasive to 
me at any rate, request.
    I think that in the long term, the answer is what can we do 
to rebuild the stocks, and the decision made by the Council in 
January to make that 77 percent cut, a courageous vote, is made 
to rebuild those stocks. Now, long term is one thing, if you 
can't get to the long term because you go out of business, then 
what difference does it make----
    Senator Ayotte. Correct, and that's what's happening and I 
don't fault the--I really don't fault the Council for this 
because basically, the denial of the interim measures, I don't 
think that they had a lot of choice at that point. And so, I 
guess I don't understand the decision why we couldn't at least 
be granted----
    Mr. Bullard. Extended interim measures----
    Senator Ayotte. Extend them, because you do have a dual 
purpose under the Magnuson-Stevens Act; it is, and seems to me, 
that it's so dramatic what is happening to these fishermen, 
that they can't even plan. Just basically, many of them just 
had to go out of business.
    Mr. Bullard. And so, when I did my best to explain it, I 
said that there were two reasons to deny the interim measures. 
One was the legal reason, and when we granted interim measures 
2 years ago, we said we could do that; we found flexibility 
where many people thought there wasn't, but we said we could 
only do that for 1 year. We made it very clear in granting 
that, that it was 1 year and we did that and we said that we 
hoped that was a warning that allowed people some preparation 
to do that, but that it was for only year only and that we 
could not grant that for two years. So there was a legal 
reason. But the second reason was that the stocks, we couldn't, 
from a biological standpoint--the cuts needed to be made, and 
so, that's the other reason to do it.
    Now we still--there are other fish out there, and we are 
working very hard with the fishermen to find ways to get people 
through this. I met yesterday with Secretary Pritzker. She is a 
businesswoman. She looks at this same issue the way you do: how 
do you survive this cut in cod, in Gulf of Maine haddock? How 
do you get through this tough time?
    Senator Ayotte. And as you can imagine, this was on the top 
of my list when I met with her as well.
    Mr. Bullard. Yes, I'm sure.
    Senator Ayotte. Her confirmation, because how can you 
survive?
    Mr. Bullard. And other members of the delegation, how do 
you get through this? And as I've met with fishermen, they say 
the answer is we know how to catch fish. So there are other 
fish. How can we do this? How do we solve the problem? If we 
can't catch cod, if we can't catch Gulf of Maine haddock, if we 
can't catch yellowtail flounder, there are other fish. If they 
don't sell, if pollock doesn't sell for the same price as cod, 
what can we do to catch the fish that are out there? What can 
we do to get the price? So we have developed with the industry, 
with others, resources, and what Secretary Pritzker said 
yesterday is I will do everything to help you, John, reach out 
to other agencies, state and Federal, and the industry and 
NGO's, anyone who can bring something to the table, to help 
people get through this difficult time, either by catching the 
fish that are out there in abundance and build markets, or to 
get relief. I know the Senate has moved along disaster 
assistance, whatever can be done to help people get through 
these difficult times while we rebuild stocks. I'm trying to 
not leave any stone unturned to help people get through this 
time while we rebuild these stocks. That's the answer, though, 
rebuilding the stocks.
    Senator Ayotte. I know that my time is up. I just want to 
say two things. Number one, I disagree with the legal 
interpretation.
    Mr. Bullard. OK.
    Senator Ayotte. I think that you could have granted the 
interim measures, but let's put that aside for a minute.
    Mr. Bullard. Yes.
    Senator Ayotte. I think this goes to Mr. Cunningham's point 
that he made earlier, making sure that we have good information 
because I know that there's a lot of dispute in terms of what 
data is being used to implement the catch shares program that 
is having an impact on the fishermen.
    And so, finally, my final point would be if we do need to 
give flexibility under the Magnuson-Stevens Act, to make sure 
that there is a path that is more sensible, that we can also 
sustain the stocks, but not put people immediately out of 
business like that. We've got to do that.
    So I know my time is up and I thank the Chairman for the 
latitude, and I will probably stay because I do have a few more 
questions. Thank you.
    Senator Begich. Thank you very much.
    Senator Blumenthal.

             STATEMENT OF HON. RICHARD BLUMENTHAL, 
                 U.S. SENATOR FROM CONNECTICUT

    Senator Blumenthal. Thank you very much for being here 
today, every one of the witnesses.
    Thank you, Mr. Chairman, for having this hearing, and thank 
you to my colleague from New Hampshire for articulating so well 
a number of the concerns that I have shared for many, many 
years, in Connecticut. As a matter of fact, as Attorney 
General, I took legal action because this system is such a 
failure, an abject failure, over many years in upholding the 
very interests that you have expressed in your testimony, Mr. 
Bullard, and I don't blame any one of you because it really is 
the system and the lack of sufficient, reliable data, and you 
make reference to it in your testimony, Mr. Bullard, the need 
to improve the science that is so essential in this area, the 
estimates of stocks, the assessments that go into the 
conclusion that there has been overfishing and the need for 
rebuilding, and how that rebuilding should be undertaken so 
that it maximizes the interests of recreational as well as 
commercial fishermen.
    So my question to you is really more specifically what you 
think can be done, what should be done, to change this system?
    Mr. Bullard. Well, I think there's a lot in the system 
right now that works. I think the catch limits that make us 
face the music that was instituted in 2007 in Magnuson is an 
important part, important improvement, in Magnuson. I think it 
is a very good part of the system. I think I wouldn't change 
that. So what would I change? Science can always be better. 
Counting fish is difficult business and communicating science 
is also very difficult. Dr. Bill Karp, at the Science Center, 
has worked very hard to reach out to fishermen, to involve 
fishermen, but that can always be made better. The way we 
involve fishermen, the amount that is done, the resources 
available for cooperative research, that can always be 
improved.
    I think the impacts of climate on fishing is something 
that--I'm not a scientist, but how we understand the impacts 
that climate is having on the system can be made better and 
that's something that can be made better. I think the way we 
manage and introduce ecosystem-based management and how that 
works with Magnuson Act, where Magnuson is based on managing 
single stocks and, again, related to climate change, the 
advantages that ecosystem-based management has when you're 
dealing with something like climate change----
    Senator Blumenthal. But let me just, if I may, interrupt.
    Mr. Bullard. Yes.
    Senator Blumenthal. Because I want to focus on the science 
issue. You know, the system may work well in some ways, as you 
suggested, but it has put out of business many, many fishermen 
in the State of Connecticut; I suspect the same is true in New 
Hampshire, so we're not just talking about an abstract, 
speculative danger on the horizon. Some of this harm is already 
history, unfortunately. But, for example, a lot of the 
information that provides the basis for judgments made about 
rebuilding and shortages and overfishing and so forth are the 
result of observers. What kind of checks are there on the 
information that's provided for observers and what kind of 
additional checks could there be?
    Mr. Bullard. Well, I think that the system that doesn't 
work for groundfish has worked very well in scallops, it's 
worked very well in a lot of fisheries that have rebuilt, and 
so I think you have to look at why does a system work really 
well in most of the fisheries, the same system that you're 
criticizing, works so well in generating jobs, in generating 
economic activity, but----
    Senator Blumenthal. But where it's failed, why has it 
failed?
    Mr. Bullard. Yes, why has it failed in one place and 
worked----
    Senator Blumenthal. That's really why I'm--that's the 
question I'm posing.
    Mr. Bullard. Yes, and so--and I don't have a good answer 
for why something works so well in the majority of fisheries, 
but in New England groundfish, the important, iconic fishery 
that defines New England, why has it failed in this one iconic 
fishery?
    Senator Blumenthal. Well, there may be more than one.
    Mr. Bullard. Yes.
    Senator Blumenthal. But I think that, really, the challenge 
for all of us, most especially for you because it's your----
    Mr. Bullard. That's right.
    Senator Blumenthal.--job to suggest to us how this system 
needs to be changed because it may be failing in just a few, it 
may be failing in more than a few areas, but wherever it fails, 
it is a failure that has powerfully damaging consequences to 
America and to the industry, so my time is expired, but again, 
thank you and thank you, Mr. Chairman.
    Senator Begich. Thank you very much.
    I know, Senator Ayotte, you have to leave; you wanted to 
make one quick comment about your questions.
    Senator Ayotte. Yes, I appreciate it.
    I'm going to be submitting a question for the record, 
particularly to you and Mr. Cunningham, to get your perspective 
on what changes you think need to be made to make sure how we 
can improve the Federal Government's role in the fishing 
management area, probably a little more specific than Senator 
Rubio's; I appreciated his questions, but we really need your 
advice on this because it's just unacceptable where we are. So 
thank you, Mr. Chairman.
    Senator Begich. Thank you very much, and again, that's the 
purpose of our hearing is to get as much information started on 
the table and as we move forward to the reauthorization because 
we need thoughts and ideas.
    Senator Markey, thank you very much. Welcome to your first 
subcommittee meeting here on something I know is dear to your 
heart and that's the oceans and fisheries, so thank you very 
much. We have 5-minute rounds and you're the next person up and 
then we have a group right after this. So please.

               STATEMENT OF HON. EDWARD MARKEY, 
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Markey. Thank you, Mr. Chairman, very much, and I'm 
very sorry that I was late for this important hearing.
    New England is the home of America's first fisheries, so it 
is fitting that this subcommittee begins its work to 
reauthorize Magnuson-Stevens Fishery Conservation and 
Management Act by hearing from New England fishermen.
    Massachusetts has a long, proud and prosperous history 
based on the bounty of the ocean. I look forward to working 
with fishermen, their communities and this committee to ensure 
Massachusetts has a long, proud and prosperous future for 
fishermen and our coastal communities.
    But right now, that future is in question, as our region's 
iconic fish and fishermen are struggling to survive. Many of 
our coastal communities are facing an economic disaster. The 
destruction is not as quick or as clearly delineated as the 
path of a tornado and we've had more warning than hurricane 
forecasts provide, and like drought, it may persist for 
multiple years, but it is still a disaster.
    Just as the Nation comes together to help the victims of 
tornados, hurricanes and droughts, we must help our fishermen 
in their time of need. I will continue to work with my 
colleagues in Congress for emergency fishing disaster funding, 
and with the Obama Administration, to explore every option 
available to help Massachusetts fishermen, their families and 
their communities, weather the current storm and steer into 
calmer waters where fishermen can maximize the harvest of 
healthy species.
    Let me ask this, Mr. Bullard, I appreciate the efforts that 
you and Mr. Karp at the Science Center are making to help our 
New England fishing communities through the current disaster to 
a more sustainable future, and I am glad to hear that helping 
fishermen is a priority for the Department of Commerce, and I 
look forward to working with you and her to address the 
disaster that Massachusetts fishermen and coastal communities 
are experiencing.
    Mr. Bullard, you mentioned in your written testimony that 
the President's budget requests for Fiscal Year 2014 include 
$10 million increase for NOAA to fund research on the impacts 
of climate on fisheries, with the focus on Northeast 
groundfish. What does NOAA hope to accomplish by undertaking 
this research and how could that help improve stock assessments 
and ultimately benefit fishermen?
    Mr. Bullard. Thank you for your question, Senator Markey. I 
think, as I've mentioned, I'm not a scientist, but I am very 
concerned with the effects of climate on fishing. Twenty years 
ago, all you had to do in fishing in the Northeast is really 
think about how you managed overfishing; now, I think climate 
is something that exerts more and more of an impact and 
fishermen are the first who can tell you that. They're out 
there, they see temperature changes, they see fish stocks 
moving north and east offshore and they see the impacts. They 
don't have PH meters, so they're not as aware of ocean 
acidification or its impacts, but they're certainly going to be 
the recipients of those impacts. And today, as a matter of 
fact, in Providence, NOAA is hosting a workshop to understand 
the scientific gaps and understand this issue. There is, in the 
President's Fiscal Year `14 budget, $10 million for this, and I 
think that what Dr. Karp has made very clear is that we need, 
despite all of the pressure to focus on stock assessments, 
stock assessments, stock assessments, we need more resources to 
understand the drivers, the climate change, water temperature, 
current change, ocean acidification, are going to have on fish 
stocks, on fish biology, on the development of larvae, and I 
hope Congress can support this part of the President's budget 
because it's going to provide insights that are going to help 
us manage fisheries and ecosystem change, minimize the economic 
disruption on fisheries, and so your interest is welcome.
    Senator Markey. Mr. Cunningham, in your written testimony, 
you indicate that there are some provisions of the Magnuson-
Stevens Act that limit the ability to manage fisheries using an 
ecosystem approach; I would ask that you provide to the 
Committee and to me the specific provisions you think hinder 
ecosystem management and your suggestions of how to improve 
them.
    Mr. Cunningham. Well, certainly one of the issues with the 
way that the statute is written versus how you would manage 
under ecosystem-based management is the regions would be 
totally different than they are currently set up today. They 
may span areas that include two of the regions, and from a 
management standpoint, putting into the Act some ability to 
manage more, whether it's on regionally or whether the councils 
themselves have much more ability to jointly manage stocks, 
those comments were really directed at things from the 
management standpoint, rather than what John was talking about 
on the science side of things.
    Senator Markey. So would you provide that information in 
writing to the Committee and to me as well, please?
    Mr. Cunningham. Certainly. Glad to.
    Senator Markey. Thank you, Mr. Chairman.
    Senator Begich. Thank you very much, and I know--again, 
thank you for the panel. We always have more questions than 
time and I know several of us, I just made some notes to myself 
of questions I'll be submitting to you all for some additional 
follow-up, but I want to thank you; I know other members will 
have the same thing.
    If we can, we want to dismiss this panel. Again, thank you 
for your testimony. Thank you for being part of this and we 
have the Panel 2 to be put up next. Thank you all very much. 
We'll take just a second here to change out, folks. Thank you 
for your attendance.
    [Pause.]
    Senator Begich. And as the next panel is coming forward, 
just a note to the members: there's a noon vote, so we will 
attempt to get through all the testimonies as quickly as we 
can, and then if there's time allowed, we'll do questions. I'll 
forego my questions for other members if they would like to 
ask.
    For the five members, can you go ahead and please be 
seated; just sit and they'll put a nametag in front of you. 
There we go.
    Again, thank you all very much for your attendance. I'd 
like to start and just, again, go down the panel; we'll go 
again from this side over and allow you your 5 minutes of 
testimony. Again, we appreciate your efforts to be here to help 
us move forward on the reauthorization of Magnuson-Stevens.
    Mr. Nick, is it Muto?
    Mr. Muto. Muto.
    Senator Begich. Chairman of the Cape Cod Commercial 
Fishermen's Alliance. I'll have you up first and there's the 
button there on the pad there for the microphone you need to 
turn on; if it turns the light on, that should work. Just tap 
the microphone, make sure it's on. Perfect. You are on first. 
Thank you again for being here. Thank you.

 STATEMENT OF CAPTAIN NICK MUTO, CHAIRMAN, CAPE COD COMMERCIAL 
                      FISHERMEN'S ALLIANCE

    Mr. Muto. Thank you, Mr. Chairman.
    My name is Nick Muto. I'm a commercial fisherman from 
Chatham, Massachusetts. I've fished for nearly 15 years and 
have participated in just about every fishery we have on Cape 
Cod, from weir fishing in Nantucket Sound to groundfishing on 
Georges Bank. I've fished with just about every high-line 
captain in our community, and in 2009, I made the jump from 
crewman to captain, took on a tremendous amount of personal 
debt and risk and went out on my own. I now own and operate a 
lobster boat and I also fish for striped bass and dogfish. In 
the winters, I fish on another Chatham boat that fishes for 
monkfish and skates a hundred miles from Chatham.
    I also serve as Chairman of the Board of the Cape Cod 
Commercial Fisherman's Alliance, which was formerly the Cape 
Cod Commercial Hook Fisherman's Association. Our organization 
was founded over 20 years ago by independent, small boat family 
fisherman on Cape Cod, and I appreciate the opportunity to 
speak to this committee here today.
    When I started fishing in 2001, there were still dozens of 
boats landing codfish. Day in and day out, we'd land 6,000-
8,000 pounds of fish until we couldn't really do it anymore. 
Cod was our mainstay and it had been for centuries, and today, 
I get a text or a phone call sometimes, anytime somebody lands 
more than a few hundred pounds of codfish and people actually 
get excited about that. You don't see the thousands of pounds 
of fish like we used to.
    We have a community fishing quota. The codfish are worth 
money, but we can't catch them and they're not out there, and 
to me, that's the major disaster in our community, and as I 
talk to other fishermen and look at the daily auction report, 
it seems to be that the story's much the same throughout New 
England.
    Over the past decade, I've also seen our traditional weir 
fishery for squid, scup, mackerel and menhaden in Nantucket 
Sound go from a thriving and profitable one to one that's 
almost extinct. This fishery is one of the oldest in the 
country and relies on healthy populations of forage stocks in 
shore and it hasn't been from too-tight regulations that's 
destroyed this fishery, it's that we've depleted our bait 
stocks to the point that it's not even viable to set the traps 
anymore. The traps that used to be overflowing with fish are 
now completely empty, and that means there is almost nothing in 
our inshore waters to catch and fish like cod, striped bass and 
tuna have nothing to eat.
    When we allow our forage base to be depleted like it is 
now, particularly in the inshore areas, we should not be 
surprised that when all the fish that rely on that bait don't 
rebuild. Fishermen have focused on the understanding, the 
important interactions between these fish species and we need 
to have our managers to have a similar understanding of these 
interactions. They need to manage the ecosystem as a whole and 
protect these forage stocks.
    I bring up these fisheries not to make the whole thing seem 
hopeless, but to describe the nature of the disaster that we're 
facing. Congress can help, but not by rolling back regulations, 
but by renewed commitment to the rebuilding of these stocks so 
my generation has a future in this industry. The Magnuson-
Stevens Act, I believe, is the cornerstone of that commitment 
and is essential to turning around fisheries in New England, 
and those rebuilding efforts, I believe, depend on 
accountability. The good old days of fishing when you could 
just go out and fish to your heart's content and come home, 
those are over, and right now, today's managers, we need real-
time information and that means reliable monitoring and catch 
reporting, and unless we can account for how many fish are 
being taken out of the ocean, we're not really managing, we're 
guessing. We need to rely on tools like electronic monitoring 
to achieve these goals and I think there's funds for this and 
other changes in Saltonstall-Kennedy.
    Another critical part of improved management is mandating 
annual assessments for our commercial stocks, and there's 
simply no way to effectively manage with annual catch limits 
without annual fish counts. With old information, we can't 
protect the stocks that need protecting or reap the benefits of 
management measures that actually work.
    Fishermen on Cape Cod take great pride in our community, in 
our traditions, our independence and the idea that we've 
received something from our fathers and our grandfathers and 
are going to pass that knowledge on to the future.
    The transition to new management systems, if done wrong, 
can put communities like my own out of the game from the start, 
unless we have the tools to protect ourselves and preserve 
access to the fisheries we've always depended on.
    By working more closely together, we can expand the support 
and kinds of innovative solutions like the Cape Cod Fisheries 
Trust and other permanent banks that small fishing ports like 
ours around the country are already building, and I believe 
Congress should be looking for every opportunity to support 
these efforts.
    It's no secret that we're facing a disaster in New England. 
The ground fishery is in a freefall and codfish that used to 
support our fisheries and our fishermen are on the verge of a 
collapse and we need to make changes.
    I believe the Magnuson Act is a solid foundation for moving 
forward and we need to build off it and improve it, and I think 
we can. I wouldn't be here today if I didn't believe we could, 
and I believe the future of our fisheries, that we can make the 
changes, and the success of my business depends on it. And I 
appreciate your time and listening to me today and welcome any 
questions.
    [The prepared statement of Mr. Muto follows:]

    Prepared Statement of Nick Muto, Chairman, Board of Directors, 
                Cape Cod Commercial Fishermen's Alliance
    Chairman Begich, Ranking Member Rubio and Members of the 
Subcommittee, my name is Nick Muto, I'm a commercial fisherman from 
Chatham, MA. I've fished for nearly 15 years and have participated in 
just about every fishery we have on Cape Cod from weir fishing in 
Nantucket Sound to groundfishing on Georges Bank. I've fished with 
almost every highline captain in our community. In 2009, I decided that 
it was time to make the transition from crewman to captain, and I took 
on a tremendous amount of personal debt and risk to go out on my own.
    I now own and operate a 36 foot fishing vessel that primarily 
targets lobster, but I also catch dogfish, and striped bass. In the 
winters, in addition to doing trap work, I fish on another Chatham boat 
that targets monkfish and skates 100 miles to the south.
    I also serve as Chairman of the Board of the Cape Cod Commercial 
Fishermen's Alliance (formerly the Cape Cod Commercial Hook Fishermen's 
Association). We are an organization founded over 20 years ago by 
independent small-boat family fishermen on Cape Cod. We now work with 
over 100 commercial fishing businesses annually catching more than 12 
million pounds of seafood worth millions of dollars each year. These 
businesses support hundreds of fishing families and form the backbone 
of our area's coastal economy.
    I appreciate the opportunity to speak with you today about the 
future of our fisheries.
Lack of fish means lack of opportunities
    I started fishing commercially in 2001, and I'm now one of the 
younger captains in our port. When I started working on groundfish 
boats, there were still dozens of trips of day boat codfish coming 
across our pier daily. We'd bring in 6,000 to 8,000 pounds of cod a day 
for weeks until the tide ran too hard to fish and we got a few days off 
before starting again. Almost every boat fished in multiple fisheries 
over the course of the year, but cod was our mainstay and had been for 
centuries. Today, I get a text or call at home anytime someone lands 
more than a few hundred pounds a trip. People get excited about that 
little now. It's not that we don't have the quota; it's not that we 
can't get paid for them; it's that the codfish aren't there to catch! 
To me, that's the disaster in our community. And as I talk to guys all 
over New England and I look at the daily report of what's getting 
landed in other ports, it's clear that the story is much the same 
throughout New England.
    Over the last 20 years, I've also seen our traditional fish-weir 
fishery for squid, scup and pogies in Nantucket Sound go from thriving 
and profitable to almost extinct. This fishery, one of the oldest in 
the country, relies on healthy populations of forage stocks inshore. It 
hasn't been too-tight regulations that destroyed this fishery; it's 
that we've depleted our bait stocks to the point that it's not even 
viable to pursue it. Traps that used to be overflowing with fish are 
completely empty! That means that there's almost nothing in our inshore 
waters to catch, or for fish like cod, striped bass and tuna to eat.
    When we allow our forage base to be depleted like it is now, 
particularly in inshore areas, no one should be surprised when all the 
stocks that rely on that bait don't rebuild. We need to manage the 
whole ecosystem. To me, that means we need to pay attention to the way 
these fish interact in the water. Fishermen have focused on 
understanding those interactions ever since the first fisherman ever 
set a net; it's time for our managers to catch up to fishermen in 
recognizing the importance of managing the whole ecosystem.
    I bring up these fisheries, not make the whole thing seem hopeless, 
but to help describe the nature of the disaster we're facing. We need 
help! But the help we need isn't pretending our fish stocks aren't 
depleted and trying to roll back regulations. We need a renewed 
commitment to rebuilding these stocks so that my generation has a 
future in this industry. That commitment is the cornerstone of the 
Magnuson-Stevens Act and it's essential to turning our fisheries around 
in New England.
Accountability, monitoring and enforcement
    Those rebuilding efforts depend on accountability. There are still 
plenty of people around that remember the `good old days' before 
regulations when a guy could go out, fill his boat and do it again the 
next day without ever worrying about calling in or filling out a trip 
report. But those days are gone forever. Today, to manage to annual 
catch limits we need to have systems for monitoring and catch 
accounting that track information in real-time and feed it into our 
management decisions. Unless we can reliably account for how many are 
being caught, we're not actually managing our fisheries to ACLs.
    But, as we build these monitoring systems, we need to keep in mind 
what our fisheries and vessels look like. I fish all winter on a small 
boat with three other guys. We steam over 100 miles each way, often 
through terrible weather, to the fishing grounds. That means we steam 
for over 24 hours to actually fish for less than 6 hours. Unless we're 
able to use electronic monitoring tools, we're building a system to put 
an observer on a very small boat in dangerous conditions to sleep for 
24 out of 30 paid hours. With all due respect to our observers, and 
many of them are really good, hard-working people, I've never seen a 
camera show up late for the boat; puke over the rail; or stay in a bunk 
below-deck when we're hauling gear. Electronic monitoring can get us 
the information we need without the cost, safety concerns or logistical 
hassles of trying to get the same coverage with observers. We need to 
accelerate using this technology for many of our fisheries; we just 
can't keep refusing to change how we do things.
    I want to briefly discuss enforcement. Unfortunately in New 
England, because of serious abuses by some people at NOAA, 
`enforcement' has become a dirty word. Almost any time I hear a 
politician talk about enforcement, they just want to rail against what 
happened years ago. Well, I want any NOAA employee that abused their 
authority in prosecuting fisheries violations punished and removed. The 
culture of that office had to change. But we absolutely need strong and 
fair enforcement in our fisheries to keep the playing field level; and, 
right now, I don't see it. Without solid enforcement of our fishing 
rules, we might as well stop making new rules. Unreported catch and 
landings are quietly stealing from the future of our fisheries. We've 
got big enforcement problem and we need to fix it.
Need for annual stock assessments
    Another critical part of improved management is mandating annual 
assessments for almost all our commercial stocks. Earlier I mentioned 
our winter fishery targeting monkfish and skates. There are actually 
seven different skate stocks all managed under one plan in New England. 
Years ago, one of these stocks, the barndoor skate was declared 
overfished and a landings prohibition was put in place to help them 
rebuild. These measures worked and now both fishermen and the 
government trawl survey are catching more and more barndoor skates each 
year. When we're fishing for monkfish in the winter, we now spend most 
of our time picking tens of thousands of pounds of marketable barndoors 
out of our nets and throwing them senselessly over the side, often 
dead. That's just on one trip on one boat.
    Why? Because we're told that a formal assessment is needed before 
fishermen can be allowed to land and sell even a small amount of 
barndoor skates. This gets us back to the problem: we haven't had an 
actual skate assessment since 2006 and we don't have one planned until 
at least after 2016. That means that for this multi-stock, open-access, 
targeted fishery, we won't have an actual assessment in over a decade. 
That's completely unacceptable! And in the meantime, our fisheries are 
wasting an unthinkable volume of this product at a time when we can't 
afford to waste any opportunity for sustainable harvest in New England.
    Without annual assessments, we can't protect the stocks that need 
protecting or reap the benefits of management measures that work.
Investing in our fisheries
    I understand that more frequent stock assessments, better science, 
and expanded monitoring all cost money and that the regions need 
resources to make these changes. But, I think this can be done without 
increasing Federal spending. In the last Congress, Senators John Kerry 
and Olympia Snowe authored a bill that would reform the use of the 
Saltonstall-Kennedy (S-K) Fund. This money, taken from duties on 
imported fish products was always intended to provide resources for 
fisheries research and management. But over the years, it's been 
redirected into NOAA's Operations Account. This has totaled almost $1.7 
billion from 2001 to 2010 and the estimated funds for 2014 are about 
$115 million.
    It's time we recommitted these funds to the kinds of research 
projects and regional priorities like stock assessments and monitoring 
that they were always intended to pay for.
Strengthening and supporting seafood markets
    We also have to work to build and support markets for those fish 
that are abundant. Don't get me wrong, Georges Bank and the waters off 
New England are full of fish, they just aren't the ones we have 
traditionally harvested and sold. Instead of cod, haddock and flounder 
the ocean is full of dogfish, skates and monkfish. Unfortunately, the 
markets for these species are extremely limited and the prices 
fishermen get when we can sell these fish often barely cover fuel and 
bait costs.
    We're getting paid less now for our dogfish than we were over a 
decade ago, and this after fishermen took the cuts and made the 
sacrifices to rebuild the stock. We need congressional help to rebuild 
our markets. If there were greater demand and better markets, we could 
keep boats working in New England. And if were paid even a nickel or 
dime more per pound, it would make a huge difference.
    So the Fishermen's Alliance, working with other New England fishing 
groups, has requested the USDA to include dogfish in their commodity 
food purchase program. This is a good product that could be used in 
many Federal food aid programs and food pantries. Our request has been 
supported by virtually the entire New England congressional delegation 
who I'd like to thank. Support from this Subcommittee for USDA 
purchases of dogfish could go a long way in helping create a domestic 
demand. As a country, we have invested and worked to stabilize markets 
for our Nation's agricultural products; and we must take a similar 
approach with our domestic fisheries.
Protecting our communities
    One of the last topics I'd like to comment on is how we protect our 
fishing communities as we reinvest in our fisheries and rebuild the 
resource. I hear the term `community' thrown around all the time now. 
But the fishermen on Cape Cod take great pride in our community and 
always have. We take pride in our traditions, our independence and in 
the idea that we've received something from our fathers' and 
grandfathers' generations and are passing that knowledge on to the 
future.
    The transition to new management systems, if done wrong, can put 
communities like ours out of the game from the start unless we have the 
tools to protect ourselves and preserve access to the fisheries we've 
always depended on. That doesn't mean that we can or should fight off 
needed changes to our management. It means we need to expand and 
support the kinds of innovative solutions that small fishing ports 
around the country are already building. Through the Fishermen's 
Alliance and working with a local economic development group, fishermen 
in our ports have built the Cape Cod Fisheries Trust, a permit bank 
that works to secure permanent and affordable fisheries access for 
independent Cape Cod fishermen. Whether it's through low-cost quota and 
loans to fishermen; business planning assistance to help young 
fishermen build stronger businesses; or local cooperative research, 
permit banks can offer an important tool for strengthening all fishing 
communities.
    Congress should be looking for every opportunity to support these 
efforts.
Conclusion
    There's no denying that we're facing a disaster in New England. The 
groundfish fishery, especially, is in a freefall and the codfish stock 
that sustained our ports for centuries is on the verge of a total 
collapse. We need to make changes. We need to help the guys in the 
groundfish fishery who took on debt and bought permits with the promise 
that things would turn around and who are now losing their boats and 
their homes. They have no options and they are desperate. Congress has 
to act.
    But I wouldn't be here if I didn't believe in the future of our 
fisheries, if I didn't believe that we can make the changes that will 
result in more robust fish stocks and more profitable fisheries. I've 
built my business and tied my family's fortunes to the success of 
commercial fisheries. That's why I'm here today: I'm all in.
    In closing, I want to say we already have a strong law. It's not 
perfect; but, with due respect to the Committee Members, few laws are 
perfect. The Magnuson Act is a solid foundation for moving forward and 
we need to build off of it and improve it. I think we can.
    Thank you, I'd be happy to answer any questions you have.

    Senator Begich. Thank you very much and I know we have a 
good-sized panel here, so if folks could keep them as close to 
the time as possible, that's important so we can have some 
questions before our noon vote.
    John McMurray, owner and operator of One More Cast 
Charters. John?

 STATEMENT OF CAPTAIN JOHN McMURRAY, OWNER/OPERATOR, ONE MORE 
                         CAST CHARTERS

    Mr. McMurray. Thank you, Mr. Chairman, and members of the 
Subcommittee.
    My name is John McMurray. I own a relatively successful 
charter fishing business in New York that employs three boats 
and three captains. I also sit on the Mid-Atlantic Fishery 
Management Council, and in addition, I'm the Director of Grant 
Programs at the Norcross Wildlife Foundation.
    Today, however, I'm offering testimony mostly from the 
viewpoint of a charter boat captain, small business owner and a 
father.
    Without a doubt, the most nerve-wracking aspect of owning a 
business on the water is the host of variables: fuel costs, 
weather, water temperatures, but nothing is more important to a 
sustainable business model than an abundance of fish. With that 
in mind, I'd like to talk about summer flounder, one of several 
Mid-Atlantic stocks that are currently at or near historic 
highs. This was not always the case. As recently as the 1990s, 
the population was so badly overfished that it was nearly 
impossible to find a fish over 2 years old.
    Things began to turn around with the Sustainable Fisheries 
Act. It mandated an end to overfishing and required overfished 
stocks to be rebuilt within a timeframe certain, which in most 
cases, was 10 years. And so the Mid-Atlantic Council began to 
make a determined effort to rebuild overfished stocks. In 2006, 
reauthorization firmed things up with annual catch limits and 
accountability measure requirements. Perhaps more importantly, 
it required each council's science and statistical committees, 
rather than politically-pressured state managers and other 
council members, set the upper limit for allowable catch. As a 
result, the Mid-Atlantic Council was the only regional fishery 
management council where, to the best of its knowledge, no 
stock was overfished and none are subject to overfishing.
    My charter business has undoubtedly benefited. On the 
water, I see more fluke than I've seen in 13 years as a 
captain, or my 25 years as a saltwater angler. Frankly, up 
until the last few years, I never even bothered with them, as 
the inshore was composed almost exclusively of young, small 
fish. The large ones were few and far between and you generally 
had to go out 60 or even 90 feet of water and fish with 10 or 
12 ounces of lead if you wanted to catch them. Today, summer 
flounder make up a substantial portion of my business, as 20-
inch fish are relatively abundant and can be caught in shallow 
water close to home, and it seems to be consistently good from 
May to September, providing something to target in the 
traditional dog days of summer. I'm booking a lot more trips 
now during what has historically been a slow time of the year.
    Business interests aside, this fishery has become a 
recreational staple for my family. Early in May, I took my two 
4-year-old twins out on their first fishing trip. First drift 
in a spot less than 5 minutes from where we live, my son 
catches a 28-inch fluke. Second drift, my daughter sticks a 24-
inch fish. As is usually the case with four-year-olds, 
attention spans ran out, but only after several large, 
beautiful fish made their way into the boat. The look of pure 
and utter joy on their faces was worth any of the 
aforementioned business interests. We now try to do such family 
trips at least once a week, and we all look forward to them.
    I brought a prop. This, ladies and gentlemen, is a rebuilt 
fishery under Magnuson. This is my son and my wife with the 
mentioned 28-inch fish. This sort of thing exists because the 
Mid-Atlantic Council made the hard decisions and adopted the 
hard caps on harvest that they recognized were essential to 
successfully rebuilding the stock. Sure, it was inevitable that 
there would be some economic pain associated with summer 
flounder's recovery; however, the facts demonstrate that such 
pain was for the most part temporary and eventually well 
rewarded.
    In the Mid-Atlantic, according to the National Marine 
Fisheries Service, recreational fishermen caught 2.7 million 
flounder in 1989; in 2011, after the rebuilding, that number 
jumped to 21 million fish--that's a 700 percent increase. NOAA 
fishery service numbers show angler trips over the last decade 
along the Atlantic coast up 41 percent from the 1980s. During 
the rocky road to the recovery, many in the fishing industry 
said it couldn't be achieved; the rebuilding goals were too 
ambitious, the timelines were too tight, and the catch limits 
were too strict. But it's precisely because of such management 
action that we're once again catching those older, larger 
summer flounder.
    Perhaps more importantly, I can take my family out with a 
reasonable expectation of catching a few keepers, and so can 
other fathers. The story's similar for other recreational 
important fish that the Mid-Atlantic Council manages, such as 
black sea bass and scup, but of course, the picture is not all 
rosy; there are indeed some management problems which I won't 
go into detail and list here.
    While the summer flounder's recovery has been spectacularly 
successful, the collapse of winter flounder jointly managed by 
the New England Council and the Atlantic States Marine 
Fisheries Commission has been dismayingly sharp and complete. 
My business has been directly affected. In 1984, New York 
anglers harvested over seven million winter flounder; in 2012, 
they harvested only 43,000. When NMFS finally realized the 
depth of the flounder's distress in 2009 and closed the fishery 
in Federal waters, ASMFC left the state seasons open, but that 
didn't matter to me because instead of fishing in March, I keep 
the boat up on blocks because there simply aren't any fish 
around.
    Other species managed by the ASMFC haven't fared well 
either; weakfish is one of them. That has affected my business 
as well. As a member of the Mid-Atlantic Fishery Management 
Council, I can tell you that the implementation of the 2006 
Magnuson-Stevens Act reauthorization, which was not easy, but 
it's important we stay the course. Congress should not weaken 
the Magnuson-Stevens Act conservation provisions just as they 
stand on the threshold of success, for those measures are 
responsible for the turnaround in the Mid-Atlantic. There are 
still improvements to the Magnuson that should be made; the 
most important is to create a funding source for the science 
needed to produce better stock assessments, as well as funding 
for improved data collection and monitoring of our managed 
fisheries. It's very important that we have a mechanism for 
funding observers, including a mechanism for cost-sharing with 
the industry. This is critical in our squid, mackerel and 
butterfish fisheries in determining herring bycatch.
    We also need better protection of forage and guidance on 
ecosystem management. Today, the ecological consequences of 
ecosystem overfishing are rarely considered when catch limits 
are set fishery by fishery. Council needs statutory guidelines 
on developing regional fishery ecosystem plans that apply basic 
ecosystem principles to all fishery management decisions.
    This concludes my testimony. Thank you.
    [The prepared statement of Mr. McMurray follows:]

     Prepared Statement of Captain John McMurray, Owner/Operator, 
                         One More Cast Charters
    Chairman Begich, Ranking Member Rubio, and members of the 
Subcommittee, thank you for inviting me to share my perspective on the 
Magnuson-Stevens Fishery Conservation and Management Act (MSA) in the 
Northeast region. My name is John McMurray.
    I've run a relatively successful fishing charter business for well 
over a decade, employing three boats and three captains. I sit on the 
Mid Atlantic Fishery Management Council, one of eight regional fishery 
management councils in the United States. I'm also the Director of 
Grant Programs at the Norcross Wildlife Foundation, which has 
distributed over 30 million in equipment grants, much of that used by 
organizations focused exclusively on fisheries and marine habitat 
protection.
    All of these positions, give me a unique perspective. However, 
today I'm offering testimony mostly from the viewpoint of a charter 
boat captain, small business owner and a father.
    While being a charter boat captain may seem like a dream to some, 
it's actually very difficult and quite stressful. In this business, 
there are long hours (not just running trips but maintaining boats), 
early mornings and little time for sleep, clients who are paying what 
seems like a lot of money to catch fish, and daunting overhead 
expenses. Add to this the fact that at in my region fishing is 
seasonal, so most Captains, like me, have at least one other job they 
have to attend to. However, the most nerve-wracking aspect of this 
business is the dependence on a host of completely uncontrollable 
variables, such as weather, water temp, clarity, bait concentrations, 
salinity, chlorophyll levels etc. But nothing is more important to a 
sustainable business model than an abundance of fish to catch. Without 
such an abundance of fish, other variables matter little.
    With that in mind I'll focus on summer flounder (aka fluke). Summer 
flounder is one of several Mid Atlantic fish populations that are 
currently at or near historic highs. That was not always the case; as 
recently as 1990, the population had been so badly overharvested that 
it was nearly impossible to find a fluke more than two years old. For 
years, fishing for summer flounder was dismal, with few fish meeting 
the 14-inch size limit that prevailed at the time. Things began to turn 
around after Congress enacted the Sustainable Fisheries Act, which, for 
the first time, mandated an end to overfishing and required overfished 
stocks to be rebuilt within a time certain, which in most cases was ten 
years. At first, the Mid-Atlantic Council seemed to dismiss the 
conservation provisions of the new law, as it adopted a supposedly 
compliant amendment to the summer flounder management plan that had 
only had an 18 percent chance of succeeding. However, after a Federal 
appeals court found that plan inadequate in Natural Resource Defense 
Council v. Daley, and decided that, at a minimum, a fishery management 
plan must have no less than a 50 percent chance of ending overfishing 
and rebuilding a stock within the established deadline, the Mid-
Atlantic Council adhered to the mandate of the law and made a 
determined effort to rebuild overfished stocks. As a result, it is now 
the only regional fishery management council where, to the best of its 
knowledge, no stock is overfished, none are subject to overfishing and 
just one, tilefish, remains in the rebuilding stage. My charter fishing 
business has certainly benefitted from the Mid-Atlantic Council's 
actions.
    On the water, I see more fluke than I have ever seen in my 13 years 
as a Captain, or my 25 years as a saltwater angler. This is one fishery 
where I don't have to stress about abundance levels. Frankly, up until 
the last few years I never even bothered with them, as the inshore 
fishery was composed almost exclusively of small, young fish. The large 
ones were few and far between, and you generally had to go out to 60 or 
even 90 feet of water and fish with 10 or 12 oz. of lead if you wanted 
to catch them. Today, summer flounder make up a substantial portion of 
my business, as 20-inch-plus fish are relatively abundant and can be 
caught in shallow water close to home. They are really fun to catch on 
light-tackle and they are great eating fish. My clients really enjoy 
fluke fishing these days, and it seems to be consistently good from May 
to September, providing me and my clients something to target in the 
traditional ``dog-days'' of summer. I'm booking more trips now during 
what has historically been a slow time of the year.
    Business interest aside, this fishery has become a recreational 
staple for my family. Early in May of this year I took my 4-year old 
twins out for their very first fluke trip. First drift in a spot less 
than 5 minutes from where we live, my son catches a 28" fluke. Second 
drift my daughter sticks a 24" fish. As is usually the case with 4-
year-olds, attention spans ran out quickly, but only after several more 
large beautiful fish. The look of pure and utter joy on their faces 
were worth more than any aforementioned business interest. We now try 
and do such family trips at least once a week. We all look forward to 
them.
    THIS is what a fishery rebuilt under the current Magnuson Stevens 
Act looks like, and it exists because the Mid-Atlantic Council made the 
hard decisions and adopted the hard caps on harvest that they 
recognized were essential to successfully rebuilding the stock. But 
those decisions were not popular at the time that they were made.
    It was inevitable, given how badly summer flounder and other stocks 
had been overfished prior to 1996, that there would be some economic 
pain associated with the summer flounder's recovery, which was suffered 
not only by the commercial fishing industry, but the recreational 
fishing industry as well, which saw its seasons and bag limits shrink 
while the stocks recovered from decades of overfishing. However, the 
facts now demonstrate that such pain has been well rewarded.
    In the Mid-Atlantic, according to the National Marine Fisheries 
Service, recreational fishermen caught some 2.7 million summer flounder 
in 1989. In 2011, after rebuilding, that number jumped to more than 21 
million fish. That's a 700 percent increase! NOAA fisheries service's 
numbers show angler trips over the last decade along the Atlantic Coast 
up 41 percent from the 1980s. In the Mid-Atlantic alone, according to 
the fisheries service, by the mid-2000s, that has brought in an 
additional $1.4 billion in economic activity and supported 18,660 jobs. 
On the commercial side, the success story is similar. Gross commercial 
revenues for summer flounder are up more than 60 percent since 2000, 
when the rebuilding plan was put in place. And, in total, all of the 
rebuilt fish stocks brought in, on average, $585 million in gross 
commercial revenues every year from 2008-2010.
    During the rocky road to recovery many in the fishing industry said 
rebuilding couldn't be achieved--the rebuilding goals were too 
ambitious, the timelines were too tight, and that catch limits were too 
strict. But it's precisely because of such management action that we're 
once again catching those larger, older summer flounder. I take clients 
out on fluke trips now and know that we have a good shot at landing big 
fish and that I won't have to fillet 14-inch juveniles. It's more 
enjoyable for everyone!
    Without a doubt the Magnuson Stevens Act requirements for science-
based goals and firm deadlines serves the general public, who own the 
resource, even if a few business interests may have suffered a short-
term decline in profits. But, as the aforementioned statistics show, 
even they now benefit from a fully restored stock. Perhaps more 
importantly, I can take my family out with a reasonable expectation of 
catching a few keepers and so can other Dads.
    The story is similar for other recreationally important fish the 
Mid Atlantic Council manages, such as black seabass and scup. But of 
course the picture is not all rosy. Some management problems remain. In 
the summer flounder fishery, because the size limit is considerably 
higher than it has historically been (undoubtedly the reason there are 
large fish around now), the recreational discard mortality (about 10 
percent of the throwbacks don't survive) is significant. This is a 
problem deserving of the Mid Atlantic Council's attention, and it's 
getting it. Yet, I can't help but note that the fishery has been 
rebuilt despite such discards, so overfishing was clearly a much bigger 
problem and, in the end, something eats those fish; they all go back 
into the marine ecosystem. There are also serious ``fairness'' issues 
with the state-by-state allocation system that currently exists, but 
that is a complicated political issue and I'm not sure any ``fix'' to 
the Magnuson Act would help.
    In the black seabass fishery there are issues with uncertainty in 
the stock assessment and the way accountability measures are applied in 
the recreational fishery. Because of imprecise estimates that show big 
picture trends rather than year-by-year accuracy, accountability 
measures such as pound-for-pound paybacks are not practicable. But the 
Mid Atlantic Council is in the process of developing reasonable 
solutions to such problems. Such individual solutions should be created 
by the competent regional Councils as they arise elsewhere. Changes in 
Magnuson that will inevitably effect all fisheries to fix regional 
species-specific problems would be a form of legislative overkill that 
likely would, when applied across the board, create far more problems 
that they solved.
    Summer flounder, and the other fisheries managed by the Mid 
Atlantic Council, provide a good example of how this Council took the 
right approach to management, setting hard catch limits and enforcing 
them, despite the political pressure brought by some narrow economic 
interests. They stand in stark contrast to the still-depleted fisheries 
managed by, for example, the New England Fishery Management Council, 
which relied on various input controls such as trip limits, days at 
sea, etc. in order to avoid setting poundage limits on landings, and so 
never effectively reduced harvest. Now truly painful measures are 
required because they failed to embrace effective measures--such as 
hard harvest caps--since the Sustainable Fisheries Act was enacted in 
1996.
    My business has been directly affected by such failure, for while 
the summer flounder's recovery has been spectacularly successful, the 
collapse of the winter flounder, jointly managed by the New England 
Council and the Atlantic States Marine Fisheries Commission (ASMFC), 
has been dismayingly sharp and complete. Even two decades ago, New York 
anglers could legally catch winter flounder throughout the year, 
although the ``traditional'' start of the fishery was St. Patrick's 
Day, March 17, and anglers often came home with buckets overflowing 
with fish. Today, we are limited to a 60-day season in April and May, 
and permitted to keep only 2 12-inch fish per day. In 1984, New York 
anglers harvested nearly 7,400,000 flounder; in 2012, they harvested 
43,500. When NMFS finally realized the depth of the flounder's distress 
in 2009, and closed the fishery in Federal waters, ASMFC left the state 
seasons open. But that doesn't really matter to me, because instead of 
booking flounder trips in March, I keep my boat on land because, even 
if the law still allowed it, no one is going to book a charter trip to 
catch two 12-inch flounder.
    Unfortunately, winter flounder are only one of the species managed, 
in whole or in part, by ASMFC that haven't fared very well, precisely 
because that management body doesn't have to comply with Magnusson 
Stevens Act standards, may ignore overfishing and is not required to 
rebuild overfished stocks. Striped bass remains ASMFC's only notable 
``success'', but the real success took place 18 years ago after things 
got so bad that many states imposed a moratorium on the fishery, and it 
was finally recovered under a management plan that protected 95 percent 
of the spawning stock, a far higher level of protection than is imposed 
under the vast majority of the plans created pursuant to the Magnusson 
Stevens Act. And the current outlook for striped bass is not good. 
ASMFC's 2011 Stock Assessment Update states that the striped bass 
spawning stock biomass will fall below its threshold in 2017, which 
means that the stock will be overfished in four years; despite that 
fact, proposals to reduce harvest and stop the decline have been 
deferred or rejected by ASMFC's striped bass management board, pending 
a new stock assessment.
    ASMFC rarely, if ever, takes action to avert a crisis. 
Unconstrained by Federal law, it waits until such stocks are on or 
beyond the threshold of disaster before action is taken. I have already 
mentioned its failure to adopt the New England Council's measures to 
protect winter flounder. Weakfish, which used to be a substantial 
portion of my spring business, provide a similar example. Today they 
are virtually gone; the last stock assessment indicates that just 3 
percent of the spawning stock remains, yet ASMFC refused to follow the 
advice of its scientists, who advised that closing the fishery was the 
only way that the stock might begin to recover by the year 2020.
    Abandoning the conservation and management provisions of the 
Sustainable Fisheries Act, in favor of an ASMFC-like model, as some in 
the recreational fishing community are now suggesting, is a step back 
in time that will ultimately hurt both fish and fishermen. Firm 
rebuilding deadlines appear to be the only things that get managers, 
who are often under intense pressure from constituents to continue 
overfishing, to take action. As unpopular as they may be, hard quotas 
represent the only approach that has ever fixed things.
    As a member of the Mid-Atlantic Fishery Management Council I can 
tell you that implementation of the 2006 Magnusson Stevens Act 
Reauthorization has not easy, but it is important that we stay the 
course. The Magnuson Stevens Act is working, and this is important for 
my business, my community and my family. The Mid-Atlantic has turned 
the corner and ended overfishing, and we have rebuilt depleted fish 
populations like summer flounder, black seabass and scup. Such success 
and has improved fishing, the coastal economy, and the ocean 
environment for the long-term. Now is not the time to retreat from the 
hard work we've done and the progress we are seeing on the water.
    Last year NOAA Fisheries announced that the end of overfishing is 
in sight, with annual catch limits, mandated by the 2006 
reauthorization, now in place in all federally-managed fisheries. In a 
marine environment where overfishing has long been the rule, reaching a 
point where it is the exception is indeed a milestone. Having each 
council's Science and Statistical Committee, rather than politically-
pressured state managers and other council members who, like myself, 
make a living from catching fish, set the upper limit for allowable 
catch results in far more effective management plans. Congress should 
not weaken the Magnusson Stevens Act's conservation provisions just as 
they stand on the threshold of success, for those measures are 
responsible for the turnaround in the Mid-Atlantic and around the 
country, and the last thing we want to do is to go back to the failed 
policies of the past.
    Still, there are certainly improvements to the Magnusson Stevens 
Act that should be made. The most important is to create a funding 
source for the science needed to produce better stock assessments, as 
well as funding for improved data collection and monitoring of our 
managed fisheries. Black seabass provide a good example of such a need. 
The species' life history--they are the only protogynous hermaphrodite 
found north of Cape Hatteras--creates a challenge for managers. The 
most recent stock assessment was rejected in January 2012. Fishermen 
argue that there are plenty of black sea bass around and that landings 
can be safely increased, but given the currently available information, 
managers can't prudently concur. The only way to find the real answers 
is to dedicate adequate financial resources.
    We also need better protection of forage and guidance on ecosystem 
management. National Standard #1 says we will prevent overfishing while 
achieving the ``optimum yield'' (OY) from each fishery. OY is defined 
as providing ``the greatest overall benefit to the Nation,'' taking 
into account food production, recreation and protection of ocean 
ecosystems. In reality, though, the ecological consequences of 
fishing--``ecosystem overfishing''--are rarely considered when catch 
limits are set fishery-by-fishery. We know through experience that even 
what is commonly referred to as ``sustainable fishing,'' especially of 
keystone predators or prey, can cause dramatic shifts in ecosystem 
communities. Councils need statutory guidance on developing regional 
Fishery Ecosystem Plans that apply basic ecosystem principles to all 
fishery management decisions. A new National Standard requiring that 
all management measures prevent ecosystem overfishing would give these 
comprehensive plans teeth, a change that will in turn trigger new 
Federal guidelines akin to what we have done to prevent conventional 
overfishing
    Lastly, as a recreational industry member of the Mid Atlantic 
Council, I would like to see statutory language that requires a 
periodic--every five years or so--look at the allocation between 
sectors to provide the greatest overall benefit to the nation, as the 
Regional Councils are generally uncomfortable addressing such unpopular 
questions on their own.
    This concludes my testimony. Thank you for the opportunity to 
provide these comments.

    Senator Begich. Thank you very much.
    Next, we have Patrick--is it Paquette?
    Mr. Paquette. Yes.
    Senator Begich. Paquette. Recreational Angler. Patrick, 
thank you.

                STATEMENT OF PATRICK PAQUETTE, 
                 RECREATIONAL FISHING ADVOCATE

    Mr. Paquette. Thank you, Mr. Chairman, Senator Markey.
    My name is Patrick Paquette. I'm a recreational angler from 
the Commonwealth of Massachusetts. I've been working in various 
aspects of the recreational fishing industry for the past 20 
years. I've served in dozens of elected positions with local 
and East Coast-wide recreational fishing organizations and more 
recently, I worked as a consultant and organizer and 
professional advocate, and worked with groups from Maine to 
North Carolina. I've been interacting with the fisheries 
management system for over a decade and I regular attend the 
Mid-Atlantic Council, the New England Council and the Atlantic 
States Marine Fisheries Commission. I'm honored to be invited 
to testify this morning and I'm not representing anyone 
specific and I'm slightly grateful for that.
    I want to emphasize an overarching point and that is that, 
in my opinion, the Magnuson-Stevens Act is working, and I can't 
say that enough. The results of the 2006 reauthorization are 
only just starting to be seen and that's a theme that I'm going 
to repeat a couple of times as I go through this. I do not 
believe MSA needs an overhaul. In fact, as you consider options 
and proposals over this process you're undertaking, I'd ask you 
to take extreme care because every single word that changed 
guarantees us a legal challenge at some point, and every single 
one of those legal challenges, in my opinion, delays rebuilding 
and delays and causes more pain to fishermen on the other end. 
Every time we're tied up in a court onshore, good management is 
put aside, from any side, from any perspective. And so, changes 
need to come slowly and carefully and I just want to urge that.
    This being said, I absolutely see challenges in fisheries 
management that I think Congress can and should consider 
addressing. My good news to you this morning is that most of 
those issues either come from incomplete implementation of the 
Act; they come from failures in leadership, failures in 
management, and in rare occasions, failures in science.
    Recreational fishing is a national pastime, but it's also 
an economic engine that is a major and growing source of jobs 
in the United States. NOAA's own Fisheries Economics of U.S. 
2011 found that recreational fishermen took over 70 million 
trips in that year. To put that in perspective, the total 
attendance at Major League Baseball games was 73 million. 
Recreational fishing is as big as baseball.
    My first marine fishing was done with my father and 
brothers for winter flounder. I'm not surprised I'm the second 
person talking about winter flounder. At times, I learned to 
fish on the docks of Boston Harbor or we would go to the harbor 
and we'd catch flounder with my dad and brothers. We'd watch 
skiffs populate every corner of Boston Harbor that were rented 
from buses from New York and New Jersey and Pennsylvania and 
Ohio, and they came to fill five-gallon buckets with winter 
flounder. Those fish collapsed, those buses stopped coming, and 
the kids in the city of Boston no longer grew up fishing at the 
Castle Island Pier for winter flounder. Eventually, we got some 
striped bass, but at that time, there were no striped bass and 
it's taken a long time for that fishery to come back. We've 
only recently got some more quota. That fishery wasn't rebuilt 
in 10 years. That fishery wasn't required to rebuild in 10 
years because of the way Mr. McMurray brought it up. So even 
though it is coming back, it's taking too long and it's 
something that Congress might want to consider correcting.
    The 2006 MSA reauthorization required a total restructuring 
of recreational fisheries data is collected and analyzed. The 
implementation of MRIP thus far has not gone well and is a long 
way from being complete. State by state, stakeholders went 
through the pain of instituting registries, deciding if they 
wanted to take on a license in their state or go with the 
Federal program, and we did that. Unfortunately, the first 
experience under this new system and the promise of a 2006 
Magnuson, the first experience of an updated data collection 
program was a new analysis of the same old data from NMFS. We 
didn't get the new data stream online first; we fixed the 
analysis, which to many of us, seemed backward, and although 
there may be some internal reasons that that happened, the 
other end of that is that the public trust has been hurt yet 
again, and people like myself who try and translate fisheries 
management to recreational stakeholder groups, we struggle 
greatly in trying to explain to somebody how we decided to 
analyze things differently before we got the better data. It's 
seven years later and even Massachusetts, which is a national 
leader in collecting that recreational data, we're not really 
online yet; we've just gone online in March of this year. So 
the 2006 reauthorization needs to be implemented; it needs to 
continue to be implemented.
    My community easily understands ecosystem-based management. 
Every child, every child is first taught: if you want to go 
fishing, big fish eat little fish, and to catch fish, you find 
the bait. That's not hard to understand, it really isn't, and 
we want that. We want ecosystems protected; we want the 
relationships between forage fish and predator fish to be 
included in management plans.
    I'm over time so I'm going to--if I could just read one 
small thing, and that is just that I hope my overall message 
has been that, as written, the Act does a good job in ending 
overfishing. We have to complete the implementation of what's 
gone on and we need to fast track ecosystem-based management. I 
submitted an eight-page document where I expand on all of 
these. Thank you very much.
    [The prepared statement of Mr. Paquette follows:]

 Prepared Statement of Patrick Paquette, Recreational Fishing Advocate
    Chairman Begich, Ranking Member Rubio, and members of the 
Subcommittee, thank you for inviting me to share my perspective on the 
Magnuson-Stevens Fishery Conservation and Management Act (MSA) in the 
Northeast and Mid Atlantic regions. My name is Patrick Paquette and I 
am a recreational fisherman from the Commonwealth of Massachusetts. 
Since my first job as a regular customer turned mate on Gloucester 
Party boats fishing for New England groundfish, I have spent over 
twenty years working in the many sub sections of the recreational 
fishing industry. My experience includes working my way up the chain as 
a mate, captain and owner of a small charter fishing vessel, working in 
the development, sales and marketing of fishing tackle and writing 
about both sport fishing and regional recreational fishing management 
issues for a variety of media outlets. I have served in dozens of 
volunteer and elected positions in the organized recreational fishing 
community. More than a decade ago I became heavily engaged within the 
fishery management system. My body of experience has lead me to work 
with recreational fishing and beach access groups from North Carolina 
to Maine seeking a balance between sound management and conservation 
all aimed at benefiting the recreational fishing community.
    I regularly attend meetings of both the New England and Mid 
Atlantic Fishery Management Councils, in addition to the Atlantic 
States Marine Fisheries Commission. I have and continue to serve as an 
advisor to various sub groups under each of these management bodies.
    I am honored to be invited to testify this morning and do so 
representing no specific organization. In this testimony, I'll cover 
the unique importance of the recreational fishing community and the 
challenges we face, and I'll discuss significant progress that could be 
made without changing the law, and offer some thoughts I hope you keep 
in mind as you begin the process of reauthorization.
The MSA is Working
    I want to emphasize the overarching point that the Magnuson-Stevens 
Act is working, the results of the 2006 reauthorization have only just 
begun to take effect and any changes at this time should be given 
extremely rigorous consideration. I am sure that today and through out 
the process, the Subcommittee will hear about problems we face in the 
Northeast and Mid Atlantic fisheries, but I think it's important to 
recognize that progress has been made toward ending overfishing and 
rebuilding many fish stocks is underway.
    I do not believe the MSA needs an overhaul. In fact, as you 
consider opinions and proposals, I urge you to approach this 
reauthorization always keeping in mind the unfortunate reality that 
each and every change, even to a single word, has the potential to 
inspire costly legal challenges that can drag on for years. This legal 
wrangling always frequently puts our fish stocks, our fishermen, and 
the goal of ensuring consistent, healthy and sustainable long-term 
fisheries further away from being realized.
    This being said, I do see challenges in fisheries management that I 
think Congress should consider during the process of reauthorizing the 
Act. My good news to you this morning is that many of these issues are 
the result of either incomplete implementation of the Act (specifically 
the 2006 reauthorization) or failures of leadership, management and the 
ability of strained resources preventing science from keeping up with 
an increased change in our ocean environment rather than the problems 
being found within the Act itself. I believe this is good news, because 
it is much easier to repair the plumbing than to demolish and rebuild 
the whole building.
The Value of Recreational Fishing in the Northeast
    Recreational fishing is a national pastime, but it is also an 
economic engine that is a major and growing source of jobs and income, 
supporting small businesses along the coast. For too long, our 
community has been underappreciated, our economic impact underestimated 
resulting in our being underrepresented in Federal fisheries 
management, and this has played out in both allocation decisions and a 
lack of developing management strategies to manage our portion of 
fisheries in a manner that is fair and makes sense.
    The latest National Oceanic and Atmospheric Administration (NOAA) 
``Fisheries Economics of the U.S. 2011'' report found that recreational 
fishermen took over 70 million trips in 2011, which I think is probably 
an underestimate. To put that in perspective, the entire Major League 
Baseball attendance for the same year was around 73 million. In the 
Northeast, 3.7 million anglers took 22.1 million fishing trips. 
Recreational fishing jobs, income, sales, and the overall value it has 
added to the U.S. economy have all increased significantly since 2008 
despite downward national economic trends.
    Each individual trip has much broader secondary impacts in terms of 
income and jobs through associated businesses and industries including 
boat sales and maintenance bait and tackle, even gas and food in 
coastal communities. According to the NOAA report, in 2011 recreational 
fishing added $1.1 billion in sales impacts in New England alone. In 
the mid-Atlantic, the contribution was even larger, $3.8 billion in 
sales impacts which was greater than the contribution of commercial 
fishing.
    Unfortunately, the council makeup in our regions does not reflect 
this reality, so we often lose out in decisions. For example, past 
allocations of quotas for many key species have become fossilized. We 
need a more equitable distribution of stakeholders on councils. 
Although this can be addressed without opening the Act, I fear Congress 
may need to intervene to fix this imbalance of representation.
The Benefits of MSA Conservation Successes
    Again, while I see room for improved implementation I want to 
emphasize the law is working. The MSA's conservation requirements are 
strong and smart, and the law is working to benefit our nation, 
including millions of recreational saltwater fishermen like me. The 
National Marine Fisheries Service (NMFS) reported in its latest Status 
of U.S. Fisheries that 32 previously overfished federally managed 
stocks, like summer flounder and bluefish, have been rebuilt since 
2000. While states played an important role in contributing to these 
successes, the MSA was a driving force that instituted a science-based 
approach to management in the Northeast, and it will accomplish far 
more if it is fully implemented.
    My first marine fishing was done with my father and brothers 
fishing for winter flounder from the docks and piers of Boston Harbor. 
We would watch busloads of anglers rent skiffs or hire charter vessels 
in coastal communities like Quincy MA to fill buckets with winter 
founder. These tourists populated hotel rooms and frequented seaside 
businesses. As winter flounder stocks collapsed for many reasons, the 
busses no longer came and the children of Boston no longer lined the 
docks on a weekend afternoon. Due to many circumstances, it has taken a 
long time to rebuild winter flounder but it is happening. In recent 
years catch limits for winter flounder have increased. I am convinced 
that without the MSA, this rebuilding would not be ongoing.
    NMFS has said that the return on investment from rebuilding all 
Federal stocks would be $31 billion in sales activity and 500,000 new 
jobs. Many of these gains would be realized by recreational fishermen 
and associated businesses. So I believe that Congress must heed these 
successes and stay strong in its current commitment to ending 
overfishing and restoring populations through science-based catch 
limits based on well informed stock assessments coupled with reasonable 
accountability measures that support robust rebuilding plans. We can, 
nonetheless, improve on the current system--especially with regard to 
the recreational sector.
A Changing Ocean
    Fisheries in New England and the mid-Atlantic are changing at a 
pace that is hard for someone not regularly on the water to understand. 
To comply with the MSA, fisheries management must be able to keep up 
with this new reality. The best example that I can provide is that in 
the summer of 2012, black sea bass, a species associated with the Mid 
Atlantic and Southern New England were encountered in surprisingly 
catchable numbers in Boston Harbor, a place where previously it was a 
news item when even one of these fish was caught. The spring and summer 
of 2013 has seen both private anglers and for-hire operators actually 
targeting black sea bass and while doing so, they are now catching 
scup, another fish not known to be common north of Cape Cod. Another 
example of this is that over the last month I have heard multiple 
reports of cobia being caught in RI and southern MA waters.
    I view these personal observations, in the context of recent 
scientific studies, as irrefutable evidence that climate change or 
ocean warming is affecting fisheries at a previously unseen rapid pace. 
One important way managers can react to these kinds of changes is for 
the management system to be producing timely catch data. The only 
solution is to invest in recreational management and complete the 
implementation of the 2006 required update to recreational data 
collection so that the best possible science drives management, 
adjustments can be made quickly, and accountability measures will be 
based on reliable and timely data. Managers should not be asked to 
choose between timeliness and accuracy of data. We need to make 
decisions on better than three year old data and we must collect data 
in the most accurate way possible. I understand this is an expensive 
suggestion. My response to the obvious question is to urge you to take 
a hard look at how much money is being spent on recreational fisheries 
in the North East and Mid Atlantic and compare it with both the direct 
and indirect economic impact of recreational fishing.
    There is a fundamental difference between managing commercial and 
recreational fisheries. Commercial fisheries effort and catch is more 
predictable and easier to manage because it is based on how much fish 
is taken from the ocean, usually done in pounds. Recreational catch and 
more important to the scientific analysis, recreational fishing effort 
is largely determined by availability of fish stocks or numbers of 
fish. In essence, commercial fisheries require fish, while recreational 
fisheries require the opportunity to catch fish. In that sense, 
recreational fishery impact can seem less tangible--but as I explained 
earlier there is hard data to suggest that recreational fishing has a 
momentous effect on the economy. It may be appropriate to consider MSA 
provide some direction that clarifies managers can use different tools 
to approach this fundamental difference. Managers must have the ability 
to address this difference across a comprehensive management plan 
strategy as opposed to the current norm of picking some specific point 
and doing a calculation that in almost every case sees negative 
consequences for the recreational fishery. My view is that ability to 
address these fundamental differences exists now, however an 
institutionally the management system seems stuck in a ``this is how we 
do it'' state of mind. Also preventing progress is a lack of 
consideration of economic impacts and a lack of representation on 
councils, which muffles fresh ideas before they are given serious 
analysis, and consideration.
The Need for Improved Management of Recreational Fisheries
    The 2006 MSA reauthorization recognized major problems in 
recreational fishing management and required a total restructuring of 
how recreational fisheries data is collected, how catch is monitored, 
and how the results are analyzed. This new program was named the Marine 
Recreational Information Program (MRIP). I submit to you that although 
most state and local communities adhered to the program, the 
implementation of MRIP thus far has not gone well and is a long way 
from being complete. State by state, community by community, managers 
and the public went through great pains implementing the MRIP's 
required Federal registry which in most cases became a salt water 
fishing license. While this was going on, NMFS focused on developing 
new analytical methods.
    Unfortunately, by choosing to develop the MRIP analysis methodology 
before completing development of MRIP data collection methodology, the 
first experiences of the recreational community under the new system 
involved being presented with an updated way of looking at the same 
data most agree is unreliable, and has failed independent scientific 
review because it was never designed to be used for the kind of 
management it was informing. Instead of building on the promise of the 
reauthorized Act, the result was disappointment and a feeling that our 
community was simply tricked into paying for the right to go fishing.
    Without improved recreational data to provide the foundation, there 
is no chance management will be able to make better decisions. No 
amount of good will and outreach by NMFS will supercede our problems 
with data reports that in some cases do not pass even a common sense 
review.
    My point is that damage has been done. A change to the Act will not 
repair this damage. What will begin the long process of repairing the 
recreational fishing communities trust is finishing implementation, 
stabilizing the data collection methodology and getting new and better 
data into the system. It is tough for me to consider changing a system 
that is not yet online after seven years.
    For my community, the rubber really meets the road when management 
decisions get translated into accountability measures in the context of 
the large amounts of uncertainty or imperfection of recreational catch 
data. I can not repeat enough the reality that recreational fishing 
effort fluctuates on both actual availability of fish to catch and on 
the ability to catch fish. Councils definitely need to approach 
accountability measures based on unique situations, and that 
flexibility already exists in the MSA. With the exception of the 
fundamental constraint of not allowing overfishing, the Act allows 
plenty of opportunity for creative management strategies when it comes 
to determining recreational annual catch limits and accountability 
measures. It is wrong to tell a community it needs to pay a price after 
adhering to measures established by management.
    An example of this is that In June, the Mid-Atlantic Fishery 
Management Council (MAFMC) adopted an innovative new policy for 
recreational accountability, where the Council's management response to 
annual overages will take into consideration the health of the fish 
stock and the quality of the data. This change was largely driven by a 
looming crisis with black sea bass, which is rebounding in some areas 
so that anglers are blowing through quotas. Even though the stock is 
considered healthy, managers were faced with shutting down the 2014 
season completely due to past overages. This problem was resolved 
within the MSA's existing flexibility.
    While I see stocks rebounding, severe underlying threats have not 
been addressed, such as the destruction of fish habitat, increasing 
temperatures and acidity of the sea, and the catch or bycatch of fish 
with ecologically critical roles that just aren't factored sufficiently 
into management strategies. I have spent a great deal of my time 
building coalitions between recreational, small boat commercial, and 
environmental organizations in order to improve fisheries management 
and promote conservation. My experience is that the one common belief 
among all of these very diverse and often adversarial communities is 
that we need to move from single species management to something that 
better accounts for the interconnected relationships between species 
and the environment.
The Needed Transition to Ecosystem-Based Fisheries Management
    The transition to Ecosystem-Based Fisheries Management (EBFM) must 
be accelerated. In the recreational fishing community, most of us find 
the concept of EBFM to be easily understood. When you are first taught 
to fish, every child learns that big fish eat little fish. Once you are 
old enough to fish on your own, the second lesson you learn is that to 
catch fish, all you have to do is find the bait. It's a simple fact 
that much of this bait--forage fish--serves as the linchpin for the 
whole marine food web. It is this common sense truth that has led me to 
dedicate many years to encouraging managers to look at forage species 
with a special eye. These little fish are one major part of the 
equation for the long-term success of our fisheries.
    Bait or forage species are important locally both because of their 
ability to draw in and increase the availability of predator species, 
and also because of their role as food for valuable fish stocks. We can 
never expect to rebuild and achieve healthy sustainable fisheries by 
fishing down the food chain. And leaving more forage fish in the ocean 
makes common sense, and it's also the right decision economically.
    A reauthorized Magnuson-Stevens Act should recognize the importance 
of forage species by requiring that ecosystem functions be included in 
scientific assessments and fishery management plans, and accounting for 
the critical ecological role of forage fish and the needs of predators 
when we set catch limits. We should require that plans to ensure these 
values are protected are in place before forage fisheries are started 
or expanded. Under the existing authority of the Act, Councils are 
moving forward with developing policies to improve the management of 
forage fish, but a legal requirement to do so would speed up this 
process. Earlier this year, I attended a full day forage fish panel 
organized by the MAFMC, which is being translated into a policy. 
Unfortunately, other councils including the NEFMC are lagging behind.
    We also need to do a better job of tending to fish habitat and 
minimizing the wasteful bycatch of species of fish we aren't even 
targeting. The MSA currently requires that this bycatch should be 
minimized, and that essential fish habitat should be protected, but the 
Councils and NOAA have done an inconsistent and often poor job of 
achieving these important goals. Over the past few years the New 
England Council & NMFS allocated a large amount of juvenile haddock to 
the Atlantic Herring Fishery while and this year, two short years later 
raised the minimum size of recreationally caught haddock to a point 
where NMFS scientists developed a model that predicted recreational 
catch of haddock was so unlikely that the recreational community did 
not have to take the significant reductions being taken by the vessels 
that harvest haddock for food. Essentially management has turned 
apportion of haddock caught for food and private harvest into lobster 
bait. This quite frankly is an outrage to small boat commercial 
fishermen, for hire charter operators and private anglers alike, all 
done in the name of preserving one industrial fishery that provides few 
jobs and a small ecomomic impact.
    Just last week NMFS rejected a community wide demanded action 
passed by the New England Council to place 100 percent monitors and 
limit dumping of unwanted catch over the side on industrial scale 
herring harvesters. To their credit these harvesters had stepped up and 
offered to pay for part of the monitoring costs. The NMFS lawyers have 
a reason for deciding that what has been figured out in fisheries 
managed by other councils and was passed by the NEFMC is not allowed in 
New England. Once again I feel this is an issue of implementation and 
NMFS leadership rather than in the Act itself but Congress may need to 
strengthen protection of non target species so that we are getting the 
most value out of our fisheries.
    One way Congress can make these ecosystem safeguards a reality, and 
consistent across the country, through the next MSA reauthorization 
would be by requiring that broader fishery ecosystem plans be developed 
and integrated into all individual fishery management plans. This way 
Congress could ensure that such plans are in place to account for 
current ecological impacts, and for consideration in future actions 
before opening or expanding a forage fishery can take place.
    These combined steps would add up to ensure that the species we 
depend on for food and for recreation can rebound if overfished, and 
that their populations are resilient enough to prosper for generations 
into the future.
Conclusion
    In conclusion I hope my overall message today has been that as 
written the act does a good job ending overfishing and does not need 
significant changes. I urge you to allow and even accelerate 
implementation of the actions required in the prior reauthorization of 
2006 and to add language that accelerates the transition from single 
species management to a more ecosystem based system.
    Thank you again for allowing me the honor of providing testimony 
and I am available for questions.

    Senator Begich. Thank you very much for your testimony.
    Next up, we have Dr. John Boreman, Adjunct Professor, 
Department of Biology, North Carolina State University.
    Dr. Boreman.

    STATEMENT OF DR. JOHN BOREMAN, ADJUNCT PROFESSOR, NORTH 
                   CAROLINA STATE UNIVERSITY

    Dr. Boreman. Thank you, Mr. Chairman and Senator Markey. 
Thank you for the opportunity to testify before you today.
    I'd like to focus my remarks on the scientific aspects of 
the Magnuson-Stevens Act as they relate to establishment of the 
acceptable biological catch, or ABC, recommendations, and 
identify where adding language to MSA can help reduce 
scientific uncertainty and bolster the scientific underpinnings 
of ecosystem-based fisheries management.
    Since the enactment of MSA reauthorization in 2006, our 
SSC, which I chair, has worked with the Mid-Atlantic Fishery 
Management Council to establish ABC control rules and has 
successfully implemented those rules for all the stocks managed 
by the Council. Our rules are based on the amount of confidence 
the SSC has and the information contained in the associated 
stock assessments by using a four-level approach. 
Unfortunately, all of the stocks managed by our council are 
associated with the lowest two levels. This means that, 
according to our control rules, the buffer between overfishing 
limit and the ABC needs to be much larger because of the 
greater amount of scientific uncertainty associated with the 
assessments.
    The problem that has led to the SSC's lower-level ratings 
of the stock assessments is related to the poor quality of 
input data used in the assessment models, not the quality of 
the models themselves. Two of the principal sources of 
scientific uncertainty in stock assessments and sources of 
frustration for the SSC are inadequate spatial coverage of 
surveys and inefficient or inappropriate survey gear. 
Supporting expansion of industry-based cooperative surveys and 
reauthorization of the MSA can help to address both of these 
major sources of scientific uncertainty. Industry-based surveys 
can complement the spatial coverage of ongoing fishery 
independent surveys being conducted by the Northeast Fisheries 
Science Center. The SSC would also like to see survey coverage 
expanded further offshore, outside the current offshore extent 
of the spring and fall bottom trawl surveys conducted by the 
Center, particularly with regard to reducing the uncertainty in 
stock biomass estimates for species like Atlantic mackerel and 
spiny dogfish.
    Employment of alternative sampling gears, such as traps and 
long lines and mid-water trawls to complement the bottom 
trawling gear used by the Northeast Center can also be 
undertaken through the use of industry-based surveys. For 
example, the Northeast Center's Cooperative Research Program 
and the Mid-Atlantic Council's Research Set-Aside Program are 
testing the use of traps deployed from industry vessels in 
developing more robust stock assessment of stock biomass 
estimates for scup and black sea bass.
    In development of the new system of recreational fishing 
surveys, known as MRIP, NOAA Fisheries is testing the use of 
angler-generated catch information to complement collection of 
information on recreational and other types of non-commercial 
catch. A major drawback is that the angler-generated data, as 
well as the data generated by industry-based surveys, need to 
be collected in a statistically robust fashion or they cannot 
be used. Reauthorization of the MSA can help in this regard by 
allowing the commercial industry and non-commercial angling 
community to work closely with NOAA Fishery scientists in 
designing cooperative data collection programs that would yield 
high quality information. Currently, this type of close 
collaboration during the early stages of program development is 
not possible due to constraints imposed by the grants process 
within the Agency.
    Forage fish species have become the poster children for 
ecosystem-based fisheries management. In developing 
recommendations for the Mid-Atlantic Council related to forage 
species and ecosystem-system based management, our SSC has 
discovered that the definition of a forage species varies 
across the SSCs, as well as how each SSC accounts or does not 
account for forage status in their ABC recommendations to their 
fishery management councils. Reauthorization of the MSA can 
clear up confusion and inconsistencies among the SSCs by 
defining what constitutes a forage species and requiring that 
ABC recommendations from the SSCs account for the importance of 
forage species to the food web of the fish community.
    Thank you for the opportunity to testify and I'm available 
to answer any questions.
    [The prepared statement of Dr. Boreman follows:]

      Prepared Statement of Dr. John Boreman, Adjunct Professor, 
                    North Carolina State University
    Good morning, Mr. Chairman and Members of the Committee. Thank you 
for the opportunity to testify before you today on science. My name is 
John Boreman and I am an adjunct professor in the Department of Biology 
at North Carolina State University. I retired from NOAA Fisheries at 
the end of 2008, where my last two positions were as Director of the 
Northeast Fisheries Science Center (NEFSC) and Director of the Office 
of Science and Technology. Since my retirement from NOAA, and in 
addition to my faculty position at NC State, I have been Chair of the 
Scientific and Statistical Committee (SSC) for the Mid-Atlantic Fishery 
Management Council (MAFMC), a Member of the SSC for the South Atlantic 
Fishery Management Council (SAFMC), and Chair of the Executive Steering 
Committee that overviews the development and implementation of NOAA's 
new marine recreational fishing survey (MRIP). Also, I am currently 
serving as president of the American Fisheries Society (AFS). AFS was 
established in 1871 and is the world's oldest and largest professional 
society dedicated to fishery science and management, with over 9,000 
members in 64 countries.
    Today, I would like to focus my remarks on the scientific aspects 
of the Magnuson-Stevens Act (MSA) as they relate to establishment of 
the MAFMC SSC's acceptable biological catch (ABC) recommendations, and 
identify where adding language to MSA can help reduce scientific 
uncertainty and bolster the scientific underpinnings of ecosystem-based 
fisheries management.
    Since the enactment of the Magnuson-Stevens Fishery Conservation 
and Management Reauthorization Act in 2006, our SSC has worked with the 
MAFMC to establish ABC control rules and has successfully implemented 
those rules for all the stocks managed by the MAFMC. Our rules are 
based on the amount of confidence the SSC has in the information 
contained in the associated stock assessments by using a four-level 
approach. Level 1 assessments account for all major sources of 
scientific uncertainty in the data sources and assessment methods. 
Level 2 assessments account for most major sources of scientific 
uncertainty and have a reliable estimate of uncertainty for the 
overfishing limit. Level 3 assessments do not have a reliable estimate 
of uncertainty for the overfishing level, but the SSC feels comfortable 
using a proxy value. Finally, Level 4 assessments contain no reliable 
estimates for key biological reference points, including the 
overfishing limit. Many of the other SSCs have adopted similar rating 
systems for information related to ABCs that is generated by stock 
assessments. Unfortunately, all of the stocks managed by the MAFMC are 
associated with either a Level 3 or Level 4 assessment. This means 
that, according to our control rules, the buffer between the 
overfishing limit and the ABC needs to be much larger because of the 
greater amount of scientific uncertainty associated with the 
assessment.
Support Expansion of Industry-Based Surveys
    The problem that has led to the SSC's lower-level ratings of the 
stock assessments for fishery species in the mid-Atlantic region is 
related to the poor quality of input data used in the assessment 
models, not the quality of the models themselves. Enhancing sampling 
frequency in current fishery dependent and fishery independent surveys 
can address some of the data quality issues, such as improving 
estimates of bycatch-related fishing mortality. However, two of the 
principal sources of scientific uncertainty in stock assessments are 
inadequate spatial coverage and inefficient or inappropriate survey 
gear. Supporting expansion of industry-based cooperative surveys in 
reauthorization of the MSA can help to address both of these major 
sources of scientific uncertainty.
    Industry-based surveys can complement the spatial coverage of 
ongoing fishery independent surveys being conducted by the NEFSC; the 
Northeast Area Monitoring and Assessment Program (NEAMAP) survey 
conducted under the research set-aside program of the MAFMC is an 
excellent example of how industry vessels are being used to sample near 
shore in areas that are unreachable by the large NOAA survey vessels. 
The SSC would also like to see survey coverage expanded further 
offshore, outside the current offshore extent of the spring and fall 
bottom trawl surveys conducted by the NEFSC, particularly with regard 
to reducing the uncertainty in stock biomass estimates for species like 
Atlantic mackerel, spiny dogfish, shortfin squid, and longfin squid. 
Industry vessels could be used to expand the survey range.
    Employment of alternative sampling gear, such as traps, longlines, 
and midwater trawls, to complement the bottom trawling gear used by the 
NEFSC, can also be undertaken through the use of industry-based 
surveys. For example, the NEFSC's Cooperative Research Program and the 
MAFMC's research set-aside program are testing the use of traps 
deployed from industry vessels in developing more robust stock biomass 
estimates for scup and black sea bass.
Promote Closer Collaboration between Industry and NOAA Fisheries
    In development of the MRIP system of surveys, NOAA Fisheries is 
testing the use of angler-generated catch information to complement 
collection of information on recreational and other types of non-
commercial catch. Although using such information is appealing to the 
fishing community, and would probably generate more ``buy-in'' to the 
catch and effort estimates being generated through MRIP, a major 
drawback is that the angler-generated information needs to be collected 
in a statistically robust fashion or it cannot be used. The same 
drawback applies to using data generated by industry-based surveys. 
Reauthorization of the MSA can help in this regard by allowing the 
commercial industry and non-commercial angling community to work 
closely with NOAA Fisheries scientists in designing cooperative data 
collection programs that would yield high quality data. Currently, this 
type of close collaboration during the early stages of program 
development is not possible due to constraints imposed by the grants 
process within the agency.
Directly Address the Need to Conserve Forage Fish Species
    Forage fish species have become the poster children for ecosystem-
based fisheries management. The MAFMC SSC is being encouraged by 
outside groups to give forage fish a special status that would result 
in a lower-than-normal ABC for forage fish that are directly managed by 
the MAFMC (such as squids, Atlantic mackerel, and butterfish). Although 
we are sensitive to the concerns of these groups, we have discovered 
that the definition of a forage species varies across the SSCs, as well 
as how each SSC accounts (or does not account) for forage status in 
their ABC recommendations to the fishery management councils. 
Reauthorization of MSA can help clear up confusion and inconsistencies 
among the SSCs by defining what constitutes a forage species and 
requiring that ABC recommendations from the SSCs account for the 
importance of forage species to the food web of the fish community.
    In closing, I have touched on three areas where changes to language 
in the MSA can help reduce the scientific uncertainty in stock 
assessments (and thus reduce the buffer between the ABC and the 
overfishing limit) and help facilitate recognition of the implications 
of ABCs directed at individual fishery stocks to ecosystem-level 
impacts. Specifically, I am requesting that language in the 
reauthorization of the MSA: (1) promote expansion of industry-based 
surveys; (2) promote closer collaboration between the commercial and 
non-commercial fishing interests and NOAA Fisheries; and (3) directly 
address the need to conserve forage fish species.
    Thank you for the opportunity to testify and I am available to 
answer any questions you may have.

    Senator Begich. Thank you very much.
    Next, we have John--is it Weisserma?
    Dr. Wiersma. Wiersma.
    Senator Begich. Wiersma. Sector Manager, Northeast 
Fisheries Sector. Please.

      STATEMENT OF DR. JOSHUA B. WIERSMA, SECTOR MANAGER,

           XI AND XII NORTHEAST FISHERIES SECTORS AND

        PRESIDENT AND EXECUTIVE DIRECTOR, NEW HAMPSHIRE

                 COMMUNITY SEAFOOD ASSOCIATION

    Dr. Wiersma. Thank you, Mr. Chairman, and Senator Markey 
for this opportunity to testify before your subcommittee today.
    My name is Joshua Wiersma. The testimony is about the 
progress and ongoing challenges of transitioning to sustainable 
fisheries in New England and about what tools and resources or 
statutory refinements might be necessary to improve 
conservation and management outcomes.
    I began working for the commercial fishing industry in New 
England in 2006 as an economist for the Massachusetts 
Fishermen's Partnership while I was finishing up my Ph.D field 
work in Gloucester. In 2009, I was hired as a sector policy 
analyst for the Northeast Seafood Coalition to help them 
organize New England fishermen into 12 harvesting groups called 
sectors. The Northeast fishery sectors varied by geographic 
region and gear type and I took a job in New Hampshire managing 
the two New Hampshire sectors, NEFS 11 and NEFS 12. We are a 
small day boat fleet of gill netters and small draggers. This 
is now my fourth year as manager and things look much different 
today than when I first started.
    After my first year, the number of active boats fishing 
dropped from 36 to 26; we are down to 14 this year after a 
large series of cuts in our ACL, and 3 weeks ago, we were told 
that our fishermen would no longer be able to land dogfish as a 
result of the global market for dogfish crashing. So now, we're 
down to four boats fishing right now as I speak. And when I 
first started, things were bad and our first year, we qualified 
for disaster relief, as we experienced a 38 percent reduction 
in groundfish revenue via a new sector system. Today, that 
first year looks really good. In short, the fishing industry in 
New Hampshire and throughout New England is not OK today. We 
are in a state of disaster. Immediately, we need disaster 
relief aid for our fishermen to transition through this time 
for us. We also need help establishing different programs so we 
can sell surplus dogfish.
    This testimony is based on my experiences helping to 
transition the Northeast Groundfish Fishery from a system based 
on effort controls to a system based on output controls. It may 
not necessarily represent the viewpoints of my Board of 
Directors, other sector members or organizations like the NSC. 
I do believe that some progress has been made, but progress is 
very fragile and we are by no means a sustainable fleet.
    In terms of progress, the progress that has been made is 
mostly in the infrastructural transition to sectors. Seventeen 
sector groups were established and formed throughout New 
England; all official 501(c)5 non-profit groups with a mission 
to fish sustainability, at-sea monitoring, selection, 
communication and execution has been more streamlined. Dockside 
monitoring proved to have little to no utility and was 
eliminated. Data management reporting is becoming more 
electronic and streamlined but by no means real-time, and my 
reporting has transitioned from once a month to once a week. 
Ace trading markets have developed both internally and external 
to sectors. Collaborative research projects are easier to 
develop and execute through the organization of sectors. Risk 
pooling behavior and bycatch hotspot reporting behavior is 
evolving, which has been shown on the West Coast to be 
beneficial to conserve low quota stocks, and there seems to be 
an increased awareness about local seafood and traceability and 
certification.
    Here in New Hampshire, we've had a lot of support from our 
representatives and Senators, especially recently. A thank you 
to Senator Ayotte and Senator Shaheen for their continued 
support on our many issues in New Hampshire, but we still have 
many challenges ahead of us. Most important, our challenge is 
due to the instability in ACL from year to year. These wild 
fluctuations have not protected the resource, play havoc on the 
lease prices of ACE, sometimes distorting the price so much 
that it costs more to go fishing than it does to stay home.
    Data collection, storage management and transmission is not 
in real-time or automated and has been riddled with errors and 
transcribing and the science used for fisheries management has 
historically not included fishermen's observations or 
information about their fishing effort.
    Finally, fishermen are sacrificing healthcare and safety to 
go to work in this most dangerous profession in the world, and 
now our best fishermen are existing the fishery at an alarming 
rate because even our best fishermen, the ones that our nation 
needs fishing right now as stewards of this resource, can't 
figure out how to make a business plan from year to year and 
they can't figure out how much to invest in its future or how 
much to invest in their family's future.
    The reauthorization of Magnuson needs to include some level 
of sustained stability so that fishermen stand a fair fight in 
the battle to consolidate or not, and fish stand a fair fight 
in the battle to rebuild or not. Specific recommendations 
include: additional strategies added to Statute 304(e)(4)that 
include fishing mortality rate-based strategies to 
simultaneously prevent overfishing and rebuild overfished 
stocks, but to do so in a time-frame that reflects prevailing 
ecological and environmental conditions; the mandate to end 
overfishing immediately should be replaced with a more rational 
and smoother mechanism to end overfishing that would employ 
step up or step down approach to achieving a new desired ACL; 
expand collaborative fisheries research and management with a 
focus on making it more industry-driven and research priorities 
set by industry members along with scientists at the government 
level; require more safety training for fishermen prior to 
going to sea to participate in this most dangerous profession; 
prioritize better healthcare and shore-side support aid for 
fishermen; reprioritize our local seafood by establishing a 
national sustainable fishery certification program so that any 
fish caught in U.S. waters operating under Magnuson is deemed 
sustainable; re-determine how cost recovery for at-sea 
monitoring programs is recovered from sectors. I feel cost 
recovery should be based on the same 3 percent level used for 
the limited access privilege programs and levied on individual 
sectors, not on the fishery as a whole. Mandate that 
information has to flow in real time from vessel to dealer and 
from the dealer to sector manager and the government 
simultaneously. Real-time information about landings is 
critically important to improve efficiency, reduce transaction 
costs, trade ACE, manage quota and to create certainty in 
traceability about catch that can be used as a new source of 
marketing and branding.
    Thank you for this opportunity to testify in front of you. 
It has been my honor.
    [The prepared statement of Dr. Wiersma follows:]

Prepared Statement of Dr. Joshua B. Wiersma, Sector Manager, XI and XII 
  Northeast Fishery Sectors and President and Executive Director, New 
                Hampshire Community Seafood Association
    Mr. Chairman, distinguished members of the Subcommittee, thank you 
for this opportunity to testify before your Subcommittee today to 
contribute to your oversight of the implementation of the Magnuson-
Stevens Reauthorization. My name is Joshua Wiersma. This testimony is 
about the progress and ongoing challenges of transitioning to 
sustainable fisheries management in New England, and about what tools, 
resources, or statutory refinements might be necessary to improve 
conservation and management outcomes.
Background
    I began working for the commercial fishing industry in New England 
in 2006 as an economist for the Massachusetts Fishermen's Partnership 
while I was finishing up my PhD field work in Gloucester studying 
fisheries economics. I learned quickly that fishermen are different 
from academics. To adapt, I became a fisherman-economist. As a 
fisherman-economist I espoused the benefits of tradable fishing rights, 
LAPPs, fishing cooperatives and risk pools--but was also willing to 
question these ideas when the actual playing field didn't fit their 
applications, or when I started to meet fishermen who were going out of 
business who shouldn't be.
    I worked at the Massachusetts Fishermen's Partnership between 2006 
and 2009 just as the major changes in Magnuson like annual catch limits 
(ACLs), accountability measures (AMs), and sectors were being discussed 
and developed. After that, I was hired as a Resource Economist by the 
Northeast Seafood Coalition (NSC) in 2009 just in time to help organize 
New England fishermen into twelve harvesting groups, called 
``sectors''.
    To do this, fishing leaders were invited from different fishing 
regions though out New England for a year-long series of meetings to 
recruit and organize members, develop operating plans and harvesting 
strategies, complete environmental assessments, and completely overhaul 
the data collection and reporting infrastructure.
    What resulted from the series of meetings and workshops at the NSC 
was a network of twelve sectors (NEFS Sectors), varied by geographic 
region and gear type, but tied together through membership to the NSC 
and to another newly formed entity, the Northeast Sector Service 
Network (NESSN). The day after NMFS approved operations plans for the 
NEFS Sectors on April 30, 2010, I began work as the manager for two of 
these twelve NEFS Sectors (NEFS 11 and 12). NEFS 11 and 12 are official 
non-profit 501(c)5 entities. We have a board of directors comprised of 
commercial fishermen and fishermen's wives, and we have a set of by-
laws that can be amended from time to time. My sector members are 
smaller day boat gill netters and small draggers, who generally make 
their living fishing inshore Gulf of Maine waters.
    This is now my fourth year as manager for the New Hampshire sectors 
and things look much different today than they did when I first 
started. The fishing industry in New Hampshire and throughout New 
England is not OK today. We are in a state of disaster!
    This testimony is based on my experiences helping to transition the 
northeast groundfish fishery to be sustainable through the creation and 
implementation of sector management. It may not necessarily represent 
the viewpoints of my board of directors, other sector members, or other 
organizations. I will attempt to highlight some of the most important 
obstacles and challenges dealing with the new ACLs and AMs, and 
reference those challenges to New Hampshire. Finally, I will recommend 
changes to make the Magnuson act more flexible, so that it can better 
deal with and give guidance on complex bio-economic issues.
    The day NMFS approved our 2010-2011 Final Operations Plans for 
sectors, over fishing ended, or so we thought. We were now constrained 
to a hard ACL on 16 different groundfish stocks. Since then, fishermen 
and sector managers have been learning how to navigate through all of 
the new regulatory change and new reporting requirements intended to 
satisfy the new AMs and ACLs. They have never exceeded a catch limit, 
but overfishing is still occurring because harvesting advice has not 
been accurate.
    Fishermen have had to learn a completely new language based on ACLs 
and AMs, and spoken in terms of annual catch entitlement (ACE) and 
potential sector contribution percentage (PSC percent). They had to 
start thinking about fish in terms of live lbs rather than landed lbs 
because ACE is allocated in live wt. The net effect for a species like 
cod for example, is that a fisherman now lands 100 lbs of cod, but 117 
lbs will be deducted from his allocation of ACE because it is converted 
back into live wt. at the docks.
    This conversion is required. It is part of the accountability 
measures needed to ensure that the fishery stay under a hard ACL for 
that stock, which is calculated using the live weight estimates of a 
stocks biomass. To this day, I have to clarify to fishermen whether or 
not I'm talking in live or landed lbs. It makes a big difference. 
Fishermen also had to learn how to fish with zero regulatory discards. 
To me, this transition seemed the most natural to many fishermen. Most 
fishermen will tell you that the worst part about effort controlled 
management was the legal requirement to discard perfectly good fish at 
sea.
    Progress has been made, and I will briefly describe some of the 
most important progress that I've seen in New England, and then relate 
that to New Hampshire. But I should also caution that progress is very 
fragile, and we are by no means a stable, sustainable fleet right now. 
I should also note that most of the progress that I refer to is 
progress in terms of the structural transition to sectors, but in 
regards to progress becoming a sustainable fishery--we are not close. 
New tools are needed to give Magnuson more flexibility to deal with 
dynamic changes in the ecosystem that may cause havoc in one part of 
the ocean, but leave another part untouched. New statutes are needed to 
end arbitrary rebuilding timelines, and new resources are needed to 
help our fishermen and our communities become more professional as 
fishermen, as public educators, and as scientific partners.
Progress to Date
  <bullet> Establishment of 17 sector groups throughout New England, 
        whose membership represents approximately 99 percent of the 
        total history of groundfish landings. In NH, our two sectors 
        are comprised of 54 multispecies fishing permits, collectively 
        owned by 36 individuals, who together represent 100 percent of 
        the Federal ground fishing industry.

  <bullet> A market place for ACE trading has developed, both internal 
        to sectors and between sectors. Trading allows us to maximize 
        the value of our portfolio of allocated fish. In New Hampshire, 
        fishermen prefer to buy and sell ACE with one another and to 
        generally keep their fishing rights in New Hampshire. The 
        rights of first refusal language written into our membership 
        agreements give us an opportunity to do this.

  <bullet> Fishermen are learning how to be much more selective at sea. 
        Because we must stop fishing for all stocks if we run out of 
        allocation of one stock, fishermen must utilize all of their 
        combined ecological knowledge to help one another fish more 
        selectively. In New Hampshire, I have seen much higher level s 
        of information sharing and communications develop though the 
        years.

  <bullet> Data collection and reporting has transitioned from once a 
        month to once a week. Accuracy and precision in landings has 
        dramatically increased. My weekly reports are reviewed and 
        compared to NMFS own weekly reports every week, and we often 
        meet to reconcile even small differences.

  <bullet> At sea data gathering, communication, and transmission are 
        becoming much more advanced. Electronic Vessel Trip Reports 
        (VTRs) are replacing paper VTRs, and fishermen are starting to 
        use real time, wireless applications at sea to document by-
        catch hot spots. In New Hampshire, about half of our fishermen 
        now use E-VTR, and we have entered into a pilot project with 
        the Gulf of Maine Research Institute to test a by-catch 
        reporting hot spot tool for harbor porpoise sightings.

  <bullet> A series of both federally funded and private permit banks 
        have been developed to coincide with sectors. Permit banks can 
        have an impact of the price and availability of permits for 
        fishermen, but can also benefit local communities and sector 
        members if used to help keep traditional fishing permits in the 
        community. In NH, our members have generally benefited from the 
        existence of three separate permit banks--(1) a state 
        sponsored/NOAA permit bank run through New Hampshire Fish and 
        Game, (2) a sector permit bank comprised of NH sector permits 
        run by myself and my board of directors, (3) a ``collaborative 
        research'' permit bank comprised of permits owned by the Nature 
        Conservancy, who lease their ACE to fishermen that want to do 
        collaborative research or fish more selectively.

  <bullet> Risk pooling behavior has started to develop amongst sector 
        members. For example, via sectors, two fishermen can 
        effectively pool their allocations of low ACE species together 
        to give both fishermen a better chance of catching more of 
        another species. This type of behavior can be very informal, 
        and can require nothing more than a phone call to tell me to 
        say, ``Hey Josh, Neil's going to fish off my dabs this week in 
        case he runs out . . . he may give me some black backs later . 
        . .'' These types of behaviors are important for a fishery 
        transitioning to sustainable. It essentially creates de-facto 
        insurance policies for low quota fish--increasing the 
        likelihood that ACL for these stocks will not be overfished.

  <bullet> At sea monitoring increased to a high of 32 percent the 
        first year of sectors, but has been required around 25 percent 
        over the last three years. Still, this is an increase from 8 
        percent observer coverage in 2009. Fishermen have made much 
        progress transitioning to at sea observers on their vessels, 
        and now have to coordinate trips with observers through a 
        robust system of pre-trip notification, developed to randomly 
        assign observer coverage--but in practice has seemed to be 
        biased.

  <bullet> Sectors as entities can receive creative financing and low 
        interest loans to do important economic development and 
        biological conservation work. For example, our NH Sectors 
        received a grant to purchase 800 new generation acoustic 
        deterrent devices called ``pingers''. We were able to partner 
        on this purchase with NEFS 4 (the Gloucester Preservation Fund 
        Sector), and the Gulf of Maine Research Institute through their 
        GEARNET collaborative research program. Together, we purchased 
        4800 new generation pingers--enough to over haul the entire 
        gill net fishing fleet. This has been the largest pinger 
        purchasing program in the world to date.
New Hampshire Community Seafood Program
    An increased awareness about local seafood and local fishermen is 
evolving. I believe the coordination and organization of sectors, which 
has allowed fishermen to come together more often as a group, also 
allows them to think of different and creative ways to add value to 
themselves and to their fishery. For example, in New Hampshire, we 
started a community supported fishery (CSF) called New Hampshire 
Community Seafood. Our intent was to highlight our fishermen, share 
their stories, but most importantly share our seafood direct from the 
boat to their plate. We have found that a tremendously receptive market 
for this, and not just for ``high value'' species like cod and haddock, 
but also for things like ``day boat'' dogfish and whiting--two 
traditionally low valued stocks.
    In New Hampshire, we are trying to address the fishery crisis by 
increasing the recognition and appreciation of the interdependent roles 
that the fishing industry and the consumer play in our local ecological 
economy. In doing so, we hope to provide local fishermen a fair market 
for all the species they catch and to provide the consumer with access 
to a wide variety of fresh locally caught seafood throughout the year, 
better insight into the supply chain that brings seacoast seafood to 
their table, and direct input about the choice and diversity of fish 
they consume.
    The cultivation and nurturing of this direct relationship between 
local fishermen with local consumers is intended to increase demand for 
local seafood, to promote community awareness and engagement in marine 
resource issues, and to support our local and regional economies 
through the preservation of the livelihoods of local fishermen and the 
supporting of shore-side support infrastructure.
Challenges
    We have made improvements in transitioning to a sustainable 
fishery, but like I mentioned before, most of the improvements have 
been structural successes in the implementation of sectors. The core 
challenges that we now face threaten to wipe away entire sectors and 
fishing communities. We can't have a fishery without fishermen. And we 
can't have a healthy ecosystem without fishing and without robust 
markets for all the fish that we catch. For example, the domestic 
market for spiny dogfish crashed in 1995 when the Federal government 
completely shut down the fishery. Even though the stock has recovered 
to Marine Stewardship Certification standards, the domestic market 
never really recovered.
    For the last three weeks fishermen who land dogfish in New 
Hampshire and Massachusetts have been unable to go to work. Dogfish 
processors are back loaded, and the European market has apparently 
crashed. So, just in these last three weeks and even at 17 cents a 
lbs., the economic impact of this has already been in the millions of 
dollars to fishermen and their communities. This has especially 
affected the smaller inshore vessels, like mine, who annually depend on 
their inshore dogfish revenue this time of year to support their annual 
fishing plan. If fishermen can't land dogfish right now, they can't 
fish. Not much else gets caught in their nets now, and nobody wants to 
spend all day picking out fish just to throw them back.
    This situation is so wasteful. Dogfish can be delicious if 
processed correctly. If bled and iced at sea, their meat maintains a 
tremendous quality--white, firm and sweet. Our fishermen sell some of 
their ``day boat'' dogfish filets to our CSF members at $12 per lbs. We 
call it ``day boat'' dogfish because of the special way it was pre-
processed to preserve its freshness and quality. People tell us it 
might be their favorite fish now. And yet, on a global level no market 
exists. How is this possible?
    I say this to highlight the importance of allowing both the 
industry time to adapt to new markets, and to highlight the importance 
of creating new markets for sustainable, healthy fish stocks, while we 
give time to some of the more critical groundfish stocks to recover. We 
need some time to educate our citizens about new markets, about new 
fish, and about new management. We need help promoting our brand as 
certified United States Sustainable. We need resources to help 
fishermen make the transition to different markets or to transition to 
new technology and ultimately a new way of fishing, and of thinking 
about fish.
    Here in New Hampshire, we have had a lot of support from our 
representatives and senators. We are especially thankful to Senator 
Ayotte and Senator Shaheen for their continued bi-partisan support and 
recognition of the proud tradition of fishing in New Hampshire, and of 
the critical issues that we face here--especially as group of small 
family run businesses. Senator Ayotte has advocated for us since I've 
been manager, and has recently helped address the dogfish crisis by 
supporting an effort for New England fishermen to work with the USDA 
farm aid program to buy surplus supply. Senator Shaheen has also been 
very supportive of our New Hampshire fishing industry, and just 
recently was instrumental in appropriating much needed disaster relief 
money for our industry, which was declared a Federal fishery disaster 
by the Secretary of Commerce last winter.
    We have a number of challenges ahead of us. If these challenges are 
not addressed via the reauthorization of Magnuson, I believe the 
fishery will be playing catch up for years to come and may never fully 
recover. The most important challenge has to do with the instability in 
ACL from year to year, and the inability of Magnuson to deal with 
changes in ACL that are orders of magnitude larger than what would have 
been predicted six years ago. Wild fluctuations in ACL from year to 
year have not protected the resource, and instead play havoc on the 
lease prices of ACE--sometimes distorting the ACE price so much that it 
costs more to go fishing than to stay home.
Specific Challenge Issues
  <bullet> Rapid consolidation of the fishery. Consolidation is 
        occurring at a rate that is not sustainable or healthy for 
        either the community or the resource. Consolidation is a 
        natural consequence of catch share programs, but it should be 
        more gradual and at pace with true shadow value of fishing. 
        Problems arise because extreme changes in ACL from year to year 
        distort the true opportunity cost of fishing. In New Hampshire, 
        the number of active fishing boats has consolidated down from 
        26 four summers ago to 4 this summer. This is a direct result 
        of wild swings in the ACL from year to year.

  <bullet> Rapid swings in the dynamics of ecosystems. We are 
        experiencing a series of strange phenomena in the ocean that 
        most fishermen contribute to abnormal environmental conditions. 
        These rapidly changing conditions are more problematic under 
        the confines of single stock management because fisheries 
        managers are too constrained trying to maximize one stock at 
        the expense of the group.

  <bullet> Data collection, storage and management have to be in real 
        time. We have been managing a hard TAC fishery with soft TAC 
        data for four years. Information has to flow in real time from 
        the vessel to the dealer, and from the dealer to the sector 
        manager and government. It is tremendously inefficient to 
        manage a real time fishery with week old data. Real time 
        information about landings is critically important to improve 
        efficiency, reduce transactions costs, and to gain certainty 
        and traceability about catch that can be used as a new source 
        of marketing and branding.

  <bullet> Instable prices for seafood and high competition with 
        imports. Catch share management is supposed to benefit 
        fishermen by restoring some stability to seafood prices. 
        Generally, this stability is supposed to result in higher 
        prices and lower landings. However, when the year to year cuts 
        in ACL are as high as 80 percent for a primary stock like cod, 
        seafood buyers and processors will look elsewhere to take its 
        place. Processors can now import a fileted cod product from 
        Iceland and Norway; unfrozen, and delivered to their door the 
        day after catch at a cheaper rate than if they bought it 
        domestically. This trend can't continue.

  <bullet> Non-transparent market for buying, selling, and trading ACE. 
        Because ACE is not considered a property right of individual 
        fishermen, the government does not have to track ACE trades on 
        an individual level. Although this has provided some privacy 
        benefits, it has also resulted in a marketplace with no central 
        clearinghouse that fishermen can go to in order to gather 
        information about ACE prices, or to lease, sell or trade ACE. 
        ACE postings are generally done by e-mail between sector 
        managers, who then forward the information on to members.

  <bullet> No plan for industry to pay for at sea monitoring. Fishermen 
        in New England were supposed to pay for their own at-sea 
        monitoring coverage starting in 2012 after the transition to 
        sectors. This has yet to happen, in large part because of the 
        continuous cuts and costs to fishermen associated with other 
        aspects of sector management. Also, debate still exists as to 
        whether we should be gathering more precise data or more 
        accurate data. In terms of distributing costs more equitably, 
        it is better to have more accurate data, as costs would then be 
        proportional to landings--and hence less regressive.

  <bullet> Fishermen are sacrificing their health insurance and their 
        safety as a way to cut costs and continue to participate in 
        this fishery. Only 10 percent of all active fishermen have ever 
        completed a basic safety training course, when every study 
        shows that it saves lives. We are losing a standard of 
        professionalism and pride as fishermen, and that needs to be 
        restored.
Current Status of the Fishery
    It's been four years since sector management started, and the 
fishing industry has not exceeded the hard annual catch limit set for 
any of the 16 different groundfish stocks. In fact, contrary to public 
perception, the commercial fleet has remained at or below the target 
annual catch limits even prior to ACLs/AMs being implemented. Still, 
the results of stock assessments continually show that mortality goals 
are not being met, and as a result, estimated ACLs change by as much as 
80 percent from year to year, and in the case of Pollock by 600 percent 
mid-year! Now our best scientists admit that they have very little 
faith in their current models to predict and forest future stock size. 
If we can't accurately predict stock sizes, we can't provide harvesting 
advice.
    And now our best fishermen are exiting the fishery at an alarming 
rate, because even our best fishermen--the ones our nation needs 
fishing to serve as stewards of this resource--can't figure out how to 
make a business plan from year to year, and therefore can't figure out 
how much to invest in its future, or how much to invest in their 
families future. The reauthorization of Magnuson needs to provide tools 
to allow some level of sustained stability in management so that the 
fishermen stand a fair fight in the battle to consolidate or not--and 
so fish stand a fair fight in the battle to rebuild or not.
Recommendations to Improve Magnuson
  1.  Additional strategies should be added to the statute 304 (e) (4) 
        that include a fishing mortality rate based strategy. Such a 
        strategy for example, achieves by definition the two principle 
        goals of the MSA--to prevent overfishing and to rebuild 
        overfished stocks. But, it allows rebuilding to occur over a 
        time frame that reflects prevailing ecological and 
        environmental conditions.

  2.  The mandate to end over fishing immediately should be replaced 
        with a more rational mechanism to end over fishing that would 
        employ a ``step down'' or ``step up'' approach to achieving a 
        new desired ACL. For example, if the change in ACL from an old 
        ACL to a new ``target'' ACL is large, then the reduction (or 
        increase) in ACL should be annually capped at some level not to 
        exceed a 20 percent change from the previous year's ACL.

  3.  Multiple mandates to end or prevent overfishing have made it 
        impossible to utilize tools like ``mixed-stock exception 
        clause'' so that overfishing could continue on some stocks even 
        if it means that the threshold criterion regarding rebuilding 
        requirements may not be met. The statutory definition of 
        fishery at MSA (3)(13) may provide a basis for future treatment 
        of this issue so that the mixed stock exception could be used 
        as intended--to allow the fishery and community to survive via 
        healthy stocks while an unhealthy stock simultaneously 
        rebuilds.

  4.  Expand collaborative fisheries research and management with a 
        focus on making it more industry-driven. Research priorities 
        should be set by close consultation with commercial fishermen, 
        and renewed efforts to utilize existing and to integrate new 
        data sets into traditional science and management models needs 
        to occur. Collaborative fisheries initiatives need to be 
        directly tied into stock assessments.

  5.  The fishing world operates as a bio-economic system, where 
        management changes that affect the biology also affects our 
        economy and changes our community. National Standard 8 requires 
        managers to seriously consider these tradeoffs prior to policy. 
        This does not often happen, as managers are always playing 
        catch up to changes in the fishery and stock assessments, and 
        economists are always playing catch up to changes in management 
        and policy. The intent of Magnuson should be to protect both 
        the resource and the resource user.

  6.  Require more safety training for fishermen prior to going to sea 
        to participate in the most dangerous profession in the United 
        States. Prioritize better health care and shore side support 
        and aid for fishermen. Begin to transition our fishery to one 
        that relies once again on professional, well-trained fishermen.

  7.  Re-prioritize our local seafood by establishing a National 
        Sustainable Fishery Certification Program so that any fish 
        caught in U.S. waters by a boat participating under the strict 
        rules of Magnuson is considered sustainable. United States 
        seafood should be promoted as the gold standard for the world, 
        and domestic markets have to be developed. Promote local 
        markets and branding efforts, and encourage the development of 
        community supported fisheries where fish flows direct from 
        local boat to local consumer.

  8.  Re-determine how cost recovery for at sea monitoring programs is 
        recovered from sectors. Cost recovery for sectors should be 
        based on the same 3 percent level used for cost recovery in 
        Limited Access Privilege Programs and be levied on individual 
        sectors, not the fishery as a whole.

  9.  Information has to flow in real time from the vessel to the 
        dealer, and from the dealer to the sector manager and the 
        government simultaneously. Real time information about landings 
        is critically important to improve efficiency, reduce 
        transactions costs, trade ACE, manage quota, and to create 
        certainty and traceability about catch that can be used as a 
        new source of marketing and branding.

    Thank you for allowing me the opportunity to testify before you 
today. It has been my honor. I sincerely appreciate your time and 
thoughtful consideration on these important issues related to 
transitioning to, and sustaining a sustainable fishery.

    Senator Begich. Thank you very much. Thank you for all of 
your testimony.
    Let me just say two quick things, I'll turn to Senator 
Markey for his questions. First, I know I said on the 
Appropriations Committee we were able to put at this point in 
the Commerce Committee's Subcommittee report $150 million for 
disaster relief for fisheries failures in the Nation; we'll see 
how that fares as it goes through the process. And second, 
interesting to note and I think Senator Markey would agree with 
this, we debated a House bill or a farm bill on this side and 
the House debated a farm bill; if we were to call it a fish 
bill, we would all be so pleased.
    In many ways, as you sort of talked about when you had the 
dogfish surplus, if that was on land, we'd give you a subsidy 
to make sure you're taken care of. When you have a shortage, 
we'd call it a drought on land; in fisheries, we just call it 
emergency. So it's an interesting difference. The only 
difference is we harvest from the sea; farming is harvested 
from the land. It is still a food supply and food for this 
country and so it's an interesting debate that every meeting 
that I have, every hearing I have, I try to bring this to 
people's attention that I'm singing to the choir and the bottom 
line is, again, we harvest from the sea; farmers from the land 
and the difference is just where it is. Other than that, it 
feeds this country and feeds this world and so we have to 
create an equalization here between our on-land and off-land or 
in-sea food supply for this country.
    So it's just a commentary I always like to make because I 
think we get all those economic issues if this was a--if we 
were on the Ag Committee right now, we'd have 20 programs 
solving that problem, making sure you're continuing the fish or 
if you were doing sugar, wheat, corn, you know, I can go 
through the list, so let me turn to Senator Markey for his 
questions and then if there's time, I'll have a couple 
questions, if not, I'll submit mine for the record, only 
because we have a vote at noon.
    Senator Begich. Senator Markey.
    Senator Markey. Thank you, Mr. Chairman.
    I remember growing up, when we had tuna fish, the company, 
its slogan was ``Chicken of the Sea.''
    Senator Begich. That's right.
    Senator Markey. Brand tuna.
    Senator Begich. That's right. Not Chicken of the Land, 
Chicken of the Sea.
    Senator Markey. No, Chicken of the Sea. You know, I'm just 
showing how--pretty much the same deal.
    Yes, whether it be fish or chicken, and here, we just find 
a way of treating them differently though, as you're saying: 
one is subject to drought and should be given emergency relief 
and the fishermen not considered in the same way.
    So I appreciate the testimony from our witnesses today and 
the issues they have raised. There appear to be some areas of 
agreement and I think it makes sense to focus on them as we 
undertake the reauthorization of Magnuson-Stevens and I have a 
list here of five that seems to be in agreement.
    One, additional support for ecosystem management. Two, 
taking into account forage fish, those fish that are at the 
base of the food chain, the need for more timely, improved and 
cooperative science, more transparent and timely sharing of 
fishing data and the possibility of a national sustainable 
fishery certification. So I think it's important for us to 
focus on those areas that are all in agreement so that we can 
ensure that they are in any legislation as we move forward.
    Mr. Muto?
    Mr. Muto. Muto.
    Senator Markey. Excuse me?
    Mr. Muto. Muto.
    Senator Markey. Muto. Muto. Mr. Muto, I know you're working 
with the Fisherman's Alliance and you're working to find 
creative solutions for fishermen to the daunting challenges 
which they're facing. One encouraging possibility is to expand 
the domestic market for dogfish. Can you tell me what is being 
done to expand the demand for dogfish and how could this 
committee help?
    Mr. Muto. Quite honestly, dogfish is one of the only things 
we have left in Chatham, and as of the last day or two, we're 
not even sure if we have that; I'm waiting to see what happens 
when I go home.
    But I do know that those 40 million pounds of quota that 
are our dogfish fishery, they need to come out of the ocean and 
quite honestly, at some sort of an appropriations, even at 30 
cents a pound, a ``small,'' $12 million, could afford to pay 
for fishermen to go to work and harvest those fish out of the 
ocean, which could have a rippling effect to also increase the 
groundfish quota; it removes predators from the ocean, it 
removes an apex predator, somewhat of a predator to forage 
stocks, to codfish, to other fisheries, it removes them from 
the ocean. When they cut the dogfish back drastically years 
ago, we ran into a problem where they were just overrunning the 
ocean; they were destroying everything and, I mean, I think 
that's one thing to consider in making sure that we can remove 
these species from the ocean, and I think possibly a large USDA 
buy of our domestic dogfish and putting it deeper into domestic 
markets could really put a lot of guys back to work and show 
some glimmer of hope for commercial fishermen up and down the 
coast.
    Senator Markey. Thank you.
    Mr. Paquette, in your testimony, you mentioned that winter 
flounder stocks are now rebuilding. How do the requirements to 
end overfishing and to rebuild an overfished fishery operate 
together to ensure that fishermen can maximize the harvest of 
healthy species?
    Mr. Paquette. I'm sorry, Senator, could you repeat the 
question? I didn't quite understand the way you asked it.
    Senator Markey. The bottom line is, what do the 
requirements to end overfishing combined with ensuring that the 
overfished fishery operates together as part of a rebuilding 
process do in order to ensure that something like winter 
flounder stocks are in fact now something that are rebuilding 
successfully?
    Mr. Paquette. I think winter flounder is an interesting 
example, and obviously, why I put it in. It was a stock that I 
watched crash growing up. For various reasons, I'm not in the 
business of blame today. And in my opinion, they took too long 
to come back, but they have built and I believe that one of the 
reasons they took too long is because there is a difference in 
translating Magnuson language, overfishing and stock status 
language with the Atlantic States Marine Fisheries Commission 
and it's a little bit of a complex problem, but we see in 
summer flounder is sort of like another which was held to the 
rebuilding standard of 10 years, that summer flounder rebuilt a 
lot faster than anybody thought; it was also given a chance to 
rebuild. I believe that species that we do the work on and that 
we don't, one way or another, push the pause button on 
rebuilding, I think we see it benefit us economically and jobs-
wise. And in high school, I worked on Gloucester cod boats and 
I can remember we got better tips when haddock came over the 
rail; haddock was the superstar at the time for us. Haddock 
today have been turned into lobster bait because of bycatch and 
industrial fisheries. We've seen cod stocks fall and if we 
don't have some limit--rebuilding didn't really happen until 
after it was made mandatory. When it was sort of, what was the 
word, optimum in the law? At earlier versions of Magnuson, when 
rebuilding wasn't mandatory and didn't set a limit on it, we 
didn't really rebuild; we tried, but we were never really 
successful at it. We've only seen the number of stocks that are 
rebuilding, and there are some that aren't and there's 
definitely, I have a lot of talk in my testimony about 
ecosystems and climate change and how it's hurting and how we 
have to get a handle on it, but it's clear that we have to 
allow Magnuson to work and I need to be forced as a fisherman 
to follow the rules.
    Senator Markey. Thank you, sir. Thank you, all of you, so 
much. Thank you, Mr. Chairman.
    Senator Begich. Thank you very much, and again, I'll have 
some questions for the record, but Mr. Muto, let me ask you a 
quick question, just back on the--to follow up on Mr. Markey's 
question in marketing, because one thing that hasn't been 
mentioned actually interestingly enough in the two panels is 
when you have an overabundance, one of the things I know, 
Alaska, what we did, I mean, when we had dogfish, today, you 
eat them as--not you, but your pets--eat them as ``Yummy 
Chummies.''
    Mr. Muto. Yes.
    Senator Begich. We repackaged them and made them into a 
different product. We get two and a half, probably three times 
what the value is, what it should be if it was just sold at the 
market because we thought of a different way of repacking. It 
used to be you'd get salmon strips in a cellophane-wrapped bag; 
now, you get it as salmon jerky, you pay more for it. 
Marketing, marketing, marketing. But I didn't hear anyone 
mention that and I'm just curious, and I know the vote has 
started, so I only have a couple minutes and so I just, to me, 
when I think of dogfish, if you have an oversupply, as we did, 
well, first off, no one likes to buy fish called dogfish, it 
just doesn't excite them, so like I said, we called it 
something different and we repackaged it and I guarantee you, 
we sell more of that product, bycatch for us, than ever before 
and make a lot of money on it, especially because we have not 
only a raw product, but we've turned the raw product into a 
finished product, so I think that's where part of, I think, 
Senator Markey was getting to, is there something more we can 
do, and I'm going to--I want to ask all four of you, but I'm 
going to go right to the economist because in theory, that's 
what you do, you look at markets, and so I'm just curious if 
that is something that comes up in your discussion with the 
regions.
    Dr. Wiersma. Yes. Yes, exactly and I mention it in my 
written testimony. One of the things that we've done in New 
Hampshire is started a what we call the community-supported 
fishery and what that is, is it's basically, if you're familiar 
with a farm share where people sign up for a weekly share of 
the farmer's catch, what they've signed up for is a weekly 
share of our fish.
    Senator Begich. Right.
    Dr. Wiersma. And we include that fish dogfish, only we 
called it day boat dogfish because our fishermen are cutting it 
at sea, they're bleeding it, they're brining it and they're 
bringing in a completely differentiated product, a product that 
allows us to give them $1.50 per pound at the dock relative to 
the 17 cents a pound they get when they try to sell it to the 
global market. You know, this has been extremely positive; our 
feedback we've got from our members said that it's some of the 
best fish they've ever eaten, and so, in my mind, when I think 
the global market for dogfish has crashed, yet I'm selling 
fillets for $12 a pound to the local people in New Hampshire, 
it doesn't make sense to me and so----
    Senator Begich. You're getting someone very excited here on 
the--I have feeling you're going to have a conversation----
    Dr. Wiersma. We had a conversation----
    Mr. Muto. Yes, we talked about this ahead of time; we were 
trying to coordinate our teams.
    Senator Begich. He's going to go home tonight and ship it 
to New Hampshire.
    Dr. Wiersma. Yes, well, we have our own dogfish. I mean, 
we're trying to develop that market, you know, it's a slow 
process, but it can't crash completely, you know, as we make 
that transition to taking greater ownership of that resource 
and to rebrand it and to remarket it. You know, I don't want to 
change the name from dogfish; I think we can make it cool. We 
just need to give the time to do that for us.
    Senator Begich. Let me ask, and maybe you all just nod yes 
or no because I've got to close this off because of the vote. 
Do you think we need to make sure in Magnuson-Stevens we do 
have commentary or concern or even language in there to talk 
about the marketing of our seafood products, not only locally, 
but internationally? Does anyone disagree with that, I guess? 
OK. It might be a little mixed, I see, but the bottom line is, 
we shouldn't not exclude marketing, but it should be something 
we should think about. OK.
    Let me end there and just say--how many days are we going 
to keep this open?
    Voice. Two weeks.
    Senator Begich. Two weeks? We'll keep the record open for 2 
weeks for other members to submit questions for the record for 
response. I have some that I'll submit for the panel here 
because of our time delay.
    Senator Begich. But I do want to thank all of you who are 
on the ground, literally, in the water, finding out what we 
need to be doing and changes we need to have. The common theme 
is that don't make drastic changes, but there are some tweaks 
clearly that we need to make, and I think Senator Markey laid 
out five of them that he summarized that he's heard and I have 
some, too, so again, thank you all very much for your 
testimony. This is one of a series that we'll be doing 
regarding the fisheries around our country, so as we move to 
reauthorization, we totally look at it from a holistic 
standpoint, not just one region versus another region.
    Thank you all very much. This meeting is adjourned.
    [Whereupon, at 12:07 p.m., the hearing was adjourned.]
                            A P P E N D I X

                Atlantic States Marine Fisheries Commission
                                     Arlington, VA, August 15, 2013

Hon. Mark Begich,
Chairman,
Subcommittee on Oceans, Atmosphere, Fisheries, and Coast Guard,
Senate Committee on Commerce, Science, and Transportation,
Washington, DC.

Hon. Marco Rubio,
Ranking Member,
Subcommittee on Oceans, Atmosphere, Fisheries, and Coast Guard,
Senate Committee on Commerce, Science, and Transportation,
Washington, DC.

Chairman Rockefeller and Ranking Member Thune:

    I am Robert Beal, Executive Director of the Atlantic States Marine 
Fisheries Commission (Commission). The Commission is comprised of the 
fifteen Atlantic coastal states and carries out a diverse array of 
programs for its members with the goal of restoring and sustaining 
Atlantic coastal fisheries. The Commission provides a forum for 
interstate cooperation on fisheries that cross state borders and thus 
cannot be adequately managed by a single state. Congress authorized the 
Commission in 1942; and granted us increased management authority in 
1984 with the Atlantic Striped Bass Conservation Act, and again in 1993 
with the Atlantic Coastal Fisheries Cooperative Management Act.
    Since 1984, the Commission has restored many Atlantic coastal 
species and initiated the dialogue to address the emerging 
opportunities and ongoing challenges that exist for improved 
stewardship. As the Committee undertakes the task of reauthorizing the 
Magnuson-Stevens Act, it can do so with the confidence that its 
leadership on this and other legislation has given the states and the 
Federal agencies the tools and determination to continue working toward 
fishery resource conservation successes.
    Since its enactment in 1976, each reauthorization of the Magnuson-
Stevens Act has built upon past successes and altered programs to 
address emerging issues when necessary. Roughly six and a half years 
after the 2007 Magnuson-Stevens Reauthorization Act was implemented we 
have another opportunity to clearly observe the new fishery management 
structure and how it is working in the real world. The Commission 
believes the framework established by the Magnuson-Stevens Act and its 
subsequent reauthorizations is fundamentally sound, but, as with most 
major laws, could benefit from some minor updates. The issues of 
highest interest to the Commission are federal-state partnerships and 
data collection and management. With the Commission's unique role and 
history in fisheries management, we are well-equipped to provide the 
Committee with valuable input into the reauthorization of the Magnuson-
Stevens Act. I hope the Commission can continue to be a resource to the 
Committee as it reauthorizes the Magnuson-Stevens Act.
Federal-state Partnerships
    In the regulation of fisheries, jurisdictional boundaries divide 
state and Federal management authority. However, a great number of 
fisheries exist under shared federal-state management due to their 
migratory nature. In the same way that no one state can effectively 
manage its nearshore fisheries alone, the Commission recognizes Federal 
and state fishery management authorities must also work together to 
make management decisions for species that traverse state and Federal 
waters. Our primary Federal partners include NOAA Fisheries, the three 
Atlantic Coast Fishery Management Councils, and the U.S. Fish and 
Wildlife Service. Further, we have strong relationships with our sister 
Commissions in the Gulf of Mexico and Pacific. Our fisheries management 
and stock assessment processes include regional and Federal partners at 
all levels, from our technical committees to our management boards, 
ensuring consistent management across the species range. The Commission 
cooperatively manages seven species with our Federal partners, and 
together we have successfully rebuilt many Atlantic species such as 
summer flounder, spiny dogfish, bluefish, scup, and Spanish mackerel. 
Successful partnerships must involve the states, Federal agencies, and 
Congress. If any of these entities are not fully engaged and supportive 
of the process, we will not be able to build on our past successes.
    Federal-state partnerships form the cornerstone for many successful 
fishery restoration stories. However, there are still opportunities for 
improvement. Our member states feel communication between NOAA 
Fisheries and the states can be improved. The Commission has urged NOAA 
Fisheries to involve us as partners throughout the management process 
rather than treating us as a stakeholder group, with involvement 
limited to public comment periods. The states are confident that 
greater collaboration will lead NOAA Fisheries to more informed 
decisions that have greater public engagement and, consequently, 
acceptance. The states understand there are currently some legal 
constraints on pre-decisional discussions, however, the states can play 
a critical role in contributing fisheries science and data and 
providing stakeholder input for consideration as decisions are 
finalized. States have been conducting fishery-independent research 
consistently for decades and can serve as a valuable resource to 
enhance the available science.
    The listing of Atlantic sturgeon as threatened/endangered under the 
Endangered Species Act is a highly visible example of a missed 
opportunity for greater collaboration. The states could have provided 
additional information and insight on the population status and biology 
of Atlantic sturgeon. While this collaboration may not have changed the 
listing decision, there would have been greater confidence among the 
stakeholders that NOAA Fisheries was fully informed during the process. 
The states also request greater transparency and collaboration, 
including data sharing during the development of response plans. It 
should be noted that since that listing, the Commission and the states 
have seen substantial progress in NOAA Fisheries coordinating more 
closely with the states, particularly with regards to its consideration 
of the river herring listing. It is our hope this increased 
coordination will continue.
    There is also an opportunity for federal-state cooperation to be 
improved in NOAA Fisheries Highly Migratory Species (HMS) Division. The 
Commission is concerned about the limited opportunity for input and 
collaboration on fishery management plans (FMPs) developed by HMS. For 
example, at NOAA Fisheries' request, the Commission adopted an 
Interstate FMP for Atlantic Coastal Sharks to complement Federal 
management actions and increase protection of pregnant females and 
juveniles in inshore nursery areas. Following the approval of the 
Interstate FMP, HMS made a number of changes to the Federal management 
program with limited opportunity for state input and collaboration. The 
states' primary input opportunity has been through the HMS Advisory 
Panel process, where states are again treated as stakeholders. The HMS 
public comment opportunities frequently do not overlap with a 
Commission meeting to allow for the development a unified coastwide 
position. Given that the states are co-partners in management, the 
Commission would like additional opportunities for input to be provided 
and required for HMS activities.
    On a positive note, the 2007 Magnuson-Stevens Act Reauthorization 
established a cooperative research program to support partnerships 
between the Regional Fishery Management Councils, scientific community, 
fishing industry participants, educational institutions, and the 
states. The resulting regional cooperative research, monitoring 
programs, ecosystem studies, and law enforcement initiatives have 
proved successful, and further cooperation will continue to increase 
efficiency, transparency, and, ultimately, the success of jointly 
managed fisheries. It is our hope that the Magnuson-Stevens Act 
Reauthorization will provide additional opportunities to build upon 
successful partnerships in the interjurisdictional management of 
Atlantic coast species.
Data Collection
    Ensuring collection and access to comprehensive fisheries data is a 
top concern of the Commission as the Committee reauthorizes the 
Magnuson-Stevens Act. Data provide the foundation for marine fisheries 
management, and the Commission supports a myriad of fishery-dependent 
and independent surveys to support our 25 FMPs. Fisheries management 
decisions are only as good as the data supporting them, and the 
ultimate success of FMPs in terms of sustainable management and 
stakeholder confidence lies in the accuracy, reliability, and 
timeliness of the data we use to inform our stock assessments and 
decision making.
    Fisheries data collection is often resource intensive. In an era of 
constrained budgets, the Commission strives to ensure each dollar is 
used wisely and goes as far as it can to supply accurate fisheries 
data. The Commission hopes the next reauthorization of the Magnuson-
Stevens Act will ensure sufficient resources for fisheries surveys and 
data collection programs. FMPs based on insufficient data are likely to 
result in more conservative management measures to address uncertainty 
in landings and population estimates. The result is lower than optimal 
catch quotas and erosion of public confidence in fishery management 
decisions. Given that Atlantic coastal fishery resources generate 
billions of dollars of economic activity and hundreds of thousands of 
jobs, it is essential that we continue to invest in the collection and 
management of high quality and timely data.
    The Commission's Science Program coordinates the two primary 
Atlantic coast fishery-independent data collection programs--the South 
Atlantic component of the Southeast Area Monitoring and Assessment 
Program (SEAMAP) and the Northeast Area Monitoring and Assessment 
Program (NEAMAP), as well as species-specific surveys for northern 
shrimp, horseshoe crab, red drum, and American lobster. The Commission 
and its member states also participate in three fishery-dependent data 
collection programs: the Atlantic Coastal Cooperative Statistics 
Program (ACCSP), NOAA Fisheries Commercial Fisheries Statistics, and 
the Marine Recreational Information Program (MRIP). A detailed summary 
of the data collection programs the Commission participates in is 
attached.
    It is important to reiterate that good data supports sound science 
and informed decisions. We will never fully understand every detail of 
the complex marine environment; however, we can improve our 
understanding to ensure the responsible stewardship of the shared 
Atlantic coast fisheries resources.
    Thank you, Mr. Chairman and all the members of your Committee for 
your continued support and leadership in fisheries management, and for 
this opportunity to comment on fisheries management issues.

CC:
Jay Rockefeller, Chair, Senate Commerce, Science, and Transportation 
Committee Committee

John Thune, Ranking Member, Senate Commerce, Science, and 
Transportation Committee
                                 ______
                                 
   Prepared Statement of Matthew McKenzie, University of Connecticut 
                           History Department
    Mr. Chairman, Mr. Ranking Member, Senator Blumenthal, members of 
the Subcommittee:

    Thank you for the opportunity to address issues pertaining to the 
reauthorization of the Magnuson-Steven Fisheries Conservation Act. As 
an Associate Professor of environmental history at the University of 
Connecticut, a lifelong resident of coastal New England, and as the 
Connecticut Obligatory Member to the New England Fisheries Management 
Council, I see a reauthorized Magnuson Act potentially offering 
important tools to solve my region's endemic failure to manage the 
region's groundfish species. While my comments emerge from my work and 
experience as a researcher, resident, and resource manager, these 
positions are mine alone and do not necessarily reflect those of the 
University of Connecticut nor the New England Fisheries Management 
Council.
    The only true and sustainable source of a nation's wealth is its 
sustainably managed natural resources. Magnuson has done much to 
provide that foundation in other regions. Unlike Alaska and the Pacific 
Northwest, however, where Magnuson has led to the successful management 
of the Nation's marine fisheries resources, its legacy in New England 
stands less clear. There have been successes, to be sure. The New 
England scallop industry, most prominently, turned around from facing 
ruin twenty-five years ago. Under Magnuson, scallopers engaged the 
management process to ensure the industry's long-term sustainability 
over short-term gains. Through the active and constructive engagement 
with the Magnuson process, the New England scallop fleet consistently 
ranks as one of the Nation's top fisheries.
    Other fisheries have also used the processes provided for in 
Magnuson to end overfishing and restore other fish stocks. Atlantic 
herring, monkfish, and Arcadian Redfish, as examples, while still 
facing particular challenges, present further instances of New 
England's successes. In addition, Magnuson provides the New England 
recreational fishing interests a continued and active engagement in the 
process, one which promises great ecological and economic benefit as 
that sector's influence grows in the future.
    Despite these successes, however, New England's commercial 
groundfish fishery has fared poorly under Magnuson. In fact, since 
Magnuson's passage, the New Englander groundfish fleet has done a 
better job of undermining one of the Nation's most important strategic 
protein reserves than our Cold War rivals did before 1976. And, after a 
forty years of sustained of scientific research, governmental financial 
support, and focused regulatory attention, stocks of those species most 
associated with New England's oft-invoked fishing tradition--cod, Gulf 
of Maine haddock, and yellowtail flounder, among others--have continued 
to plummet to historic lows. As a New Englander and a student of its 
history, I find the irony of this situation both shocking and 
humiliating.
    As those resources continue to decline, I believe that this 
depleted state of the region's key fish stocks will exacerbate the 
effects of the climate changes we currently see. The human consequences 
are even more ominous. As stocks decline, the competitive market for 
fish--the economic climate that we as a nation believe to be the best 
for citizens, business owners, and entrepreneurs alike--will likely 
devolve into a business environment marked by fear, defensiveness, and 
predatory competition. Such a climate makes it difficult for fishermen 
to think in more than just the short term--a problem that bodes ill for 
any meaningful sustainable management regime. Such a climate also 
stifles the innovation, creativity, and adaptability that, while less 
celebrated than its ``fishing tradition,'' has marked New England 
fishing since its inception.
    I see many of the troubles facing New England groundfish stocks 
easing should a reauthorized Magnuson Act address the following four 
points. While I doubt these will solve all of New England's problems, I 
believe these will help. As we learned with the crisis in the striped 
bass fishery, restoring a fish stock requires actions across a wide 
spectrum. I feel these points begin to address the most important 
problems we currently face.

  1.  A nationally mandated adoption of ecosystem based fisheries 
        management regimes that include more effective habitat 
        protection measures and a more comprehensive understanding of 
        the ecosystem role of forage species. Such a management regime 
        must be developed and implemented at a national level with 
        input from regional science centers, academic researchers, and 
        industry partners. Furthermore, it is essential that all 
        information utilized in such a process be made--in its raw 
        form--transparent and readily accessible for unfettered public 
        review. As the National Research Council \1\ has stated, such 
        transparency represents an essential element in determining 
        information's scientific merit.
---------------------------------------------------------------------------
    \1\ National Research Council of the National Academies, Improving 
the Use of the ``Best Scientific Information Available'' Standard in 
Fisheries Management (Washington, DC: The National Academies Press, 
2004).

  2.  Related to the first: Maximum Sustainable Yield (MSY) theory, as 
        the foundation for national fisheries policy, must be 
        critically and carefully reconsidered by a blue-ribbon 
        committee of scientists best suited to review and perhaps 
        replace MSY theory with another management precept better 
        suited to current fisheries conditions. As Carmel Finley has 
        recently argued,\2\ MSY theory never enjoyed a majority of 
        scientific support in the U.S. before 1976. More importantly, 
        Sidney Holt--who, along with Ray Breverton developed the 
        concept of MSY in the mid-1950s at Lowestoft, England--has 
        openly critiqued how MSY theory has been implemented around the 
        globe, and questioned its continued utility in managing 
        overfished stocks, such ours in New England.\3\
---------------------------------------------------------------------------
    \2\ Carmel Finley, All the Fish in the Sea: Maximum Sustainable 
Yield and the Failure of Fisheries Management (Chicago: University of 
Chicago Press, 2011).
    \3\ Sidney Holt, ``The Some Good and Mostly Bad about Maximum 
Sustainable Yield as a Management Target,'' presented at the 
International Council for the Exploration of the Seas Annual Science 
Conference, Bergen, Norway, 17-21 September, 2012.

  3.  Magnuson reauthorization must clarify Congress' intentions as to 
        when the Act's mandates for stock rebuilding must take 
        precedent over industry practicability concerns. In my view, 
        the council process, and perhaps the courts too, have tended to 
        put practicability and conservation on an equal footing even as 
        the preamble to the 2007 reauthorized Act clearly states 
        Congress' desire to rebuild overfished stocks. Providing clear 
        guidance as to when rebuilding must be accomplished regardless 
        of its inconvenience to industry will ensure, in New England at 
        least, a more effective management regime. That said, it is 
        also essential that timelines for rebuilding overfished stocks 
        must be based on ecosystem-based scientific understandings, and 
        not on political compromise. If we find instances when industry 
        must take a secondary role to recovery, it is only rational 
        that the duration of such a situation be based on the best 
---------------------------------------------------------------------------
        scientific information available.

  4.  Council members need to be more extensively trained in the 
        ecological, operational, economic, scientific, legal, and 
        regulatory contexts within which fishing exists. Most 
        importantly, however, council members must also be trained in, 
        and councils as a whole must be held accountable to, the 
        ethical mandates that accompany the power they wield in the 
        public's name. Using council membership to advance the 
        particular interests of one group or another--be they NGO's or 
        industry associations--defies the oath councilors take. The 
        history of New England's groundfish fishery since the passage 
        of the Magnuson Act in 1976 offers a sad testimony as to how 
        competing short-term self-interests in the council have left 
        the long-term interest of the public sadly ignored.

    Thank you for the opportunity to provide some input into the issues 
which Magnuson reauthorization could address.
            Respectfully Submitted,
                                          Matthew McKenzie,
                                               Assistant Professor,
                          University of Connecticut History Department,
                                      American Studies Coordinator,
                                                    Avery Point Campus.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Mark Begich to 
                            John K. Bullard
Follow up on Touchstone Report on New England Fishery Management
    Question 1. NOAA completed an independent assessment and review of 
New England Fishery management, conducted by Touchstone Consulting 
Group, ``A Review of the New England Fishery Management Process''. The 
report primarily drew from stakeholder input and examined the 
effectiveness of the New England Fishery Management Council, the 
Northeast Fishery Science Center, and the Northeast Regional Management 
Office. The recommendations made by the report include the need to 
simplify, streamline, and eliminate many redundant management practices 
that are seen by stakeholders as cumbersome and capricious, and the 
formulation of a strategic vision and a balance between conservation 
and service to the industry. In addition, the report noted the need for 
improved quality and timeliness of data. Following the release of the 
report, NOAA announced that it would adopt a series of immediate 
actions and near-term plans to incorporate the report's 
recommendations.
    As I requested at the hearing, please provide the Committee with 
the implementation status of the Touchstone report's various 
recommended improvements for the New England Fishery Management 
Process.
    Answer. NOAA has made significant progress addressing the issues 
identified by the independent assessment and review of the fishery 
management process in New England. The Report identified several 
priority areas in need of improvement: improving our data management 
systems; collaborating more effectively with our partners on science, 
cooperative research, and reviews of our science programs; exploring 
new approaches to communicating with fishermen about regulatory actions 
and the science behind those actions; and identifying ways for the New 
England Fishery Management Council (Council), the Northeast Regional 
Office (Region) and the Northeast Fisheries Science Center (Center) to 
work together effectively to make these improvements.
    Recommendations made in the report were broken down into four broad 
categories: (1) simplify governance; (2) simplify communications; (3) 
improve science collaboration; and (4) maximize collaboration. NOAA has 
developed an action plan in response to the recommendations:

  (1)  Simplify Governance. The report states that the fishery 
        management process can be difficult and that in some cases 
        regulations have become overly complicated and redundant. To 
        address these concerns, we developed memorandums of 
        understanding between NOAA and both the New England (memorandum 
        is nearly finalized) and Mid-Atlantic (final) Fishery 
        Management Councils. These memorandums of understanding will 
        strengthen collaboration between NOAA and the Councils, 
        simplify the governance structure and process, and highlight 
        additional opportunities for public input. We also convened a 
        team of Council, Region, and Center staff to develop and 
        implement best practices and recommendations for improving the 
        efficiency, collaboration, and effectiveness of the fishery 
        management process.

      Regional data management systems were also cited as being 
            redundant and in need of better integration between the 
            Region and Center. To address this concern, a working group 
            of Center and Region staff performed an intensive review 
            and analysis of data gathered from the fisheries and how 
            those data are managed and delivered. The group, charged 
            with addressing current concerns as well as with developing 
            a long-term vision for the future, has identified near-term 
            improvements to the existing data collections and 
            management systems and longer-term activity that will 
            recommend a redesign of these systems. NOAA has also 
            developed a standardized peer-review process to evaluate 
            each aspect of its science programs that is currently 
            focused on the collection, management, and quality of data 
            used for stock assessments.

      We have made advances in how we collect much of our data. One key 
            improvement will be to move from paper to electronic 
            reporting of individual fishing trips. We expect to be able 
            to accept electronic vessel trip reports in a majority of 
            fisheries by the end of the year. Further, we have improved 
            the collection, processing, and availability of the data 
            collected by our fishery observers and for delivering 
            biological data collected from scientific surveys by the 
            implementation of a web-based data entry system. Use of 
            barcoding to tag samples has saved time and reduced error 
            rates at every step from collection through auditing and 
            data delivery.

  (2)  Simplify Communications. NOAA has made improving our 
        communications and relations with industry a priority. We are 
        committed to continuing the effort and are actively seeking 
        ways to develop a more consistent and focused message. We have 
        taken several measures including the formation of a 
        Communications Team and updating our communications plan that 
        supports all Regional Office program staff that work with 
        industry and the public, and that promotes outreach 
        collaboration between the Regional Office, Center, Council, and 
        the Office of Law Enforcement. We have also made the 
        information distributed to fishermen more streamlined and 
        accessible, and are using clear, more concise language in our 
        communication materials.

  (3)  Improve Science Collaboration. This category covers topics as 
        wide as cooperative research, stock assessments, social 
        sciences and economics. In response to this challenge, NOAA has 
        worked with our stakeholders to ensure that our Cooperative 
        Research Program is responsive to industry, management, and 
        scientific priorities. Ten public meetings were held to review 
        progress and the focus of the program. This resulted in putting 
        more emphasis on projects to reduce the scientific uncertainty 
        in analyses important to setting annual catch limits, and to 
        characterize bycatch and discards. To address the communication 
        and transparency concerns raised in the report, the program 
        website was redesigned, making more information available and 
        easily accessible.

      To improve the stock assessments, an Assessment Oversight Panel 
            (Panel) was established and includes the chairs of the 
            Councils' Scientific and Statistical Committees and a 
            senior Center assessment scientist. The Panel meets 
            annually to review assessment plans before work begins on 
            new stock assessments. Stock assessments selected for 
            completion through the Panel are now integrated, such that 
            Scientific and Statistical Committee members responsible 
            for the stock under review are part of the review panel. 
            The New England Fishery Management Council's procedures 
            have been revised so that its Scientific and Statistical 
            Committee does not further peer review stock assessments--
            consistent with the Mid-Atlantic Council's procedures.

      NOAA is ensuring that socioeconomic analyses are more visible and 
            meaningful in the Northeast fisheries management process. 
            Since 2011, we have developed social and economic surveys 
            to gather information needed to improve analysis of how 
            fishery regulations affect fishing businesses, communities, 
            and local economies. We have developed fisheries 
            performance measures to track the relationship between 
            fisheries regulations and sustainable outcomes and are now 
            publishing an annual report specifically focused on the 
            performance of the New England groundfish fishery.

  (4)  Maximize Collaboration (Council Lead). The Council has taken 
        responsibility for findings in the report applicable to their 
        process. Issues tackled by the Council include redesigning 
        Council meetings to be a more open and collaborative process 
        and creating a performance management system to track the 
        progress of Council decisions and capture lessons learned.
Challenges in New England Fisheries Management
    Question 2. New England's fisheries have faced more challenging 
management issues than other regions. For example, New England has 
eight stocks ``subject to overfishing'', and 13 categorized as 
``overfished,'' including a number of historically and commercially 
important species such as cod. By contrast, the mid-Atlantic has none. 
What is the agency doing to address the historical overfishing of 
iconic groundfish, such as Atlantic cod, and the resulting hardship to 
New England fishermen?
    Answer. After decades of intense fishing by both international and 
domestic fleets, many Northeast groundfish stocks reached record low 
levels in the early 1990s, particularly cod, haddock, and yellowtail 
flounder. Despite fishermen's adherence to annual catch limits in 
recent years, several key fish stocks in the Northeast are not 
rebuilding as expected. Slower growth rates, delayed maturation, lower 
average recruitment, and increased natural mortality impede recovery.
    We believe that changing ocean conditions (i.e., warmer water, 
changing prey species and abundance) in the Northwest Atlantic may be a 
contributing factor. Last year (2012) was the warmest year on record in 
the Gulf of Maine, Georges Bank, and Southern New England, and a 
changing climate and ecosystem are affecting fish stocks. This is an 
active area of research and NOAA requested an additional $10 million to 
support research on the impacts of climate on fish stocks, with a focus 
on the Northeast groundfish region in the FY 2014 President's Budget 
request. Additionally, in the fall of 2013, NOAA is conducting a 
climate vulnerability assessment for all managed fishery species in the 
Northeast region.
    For the 2013 fishing year that started May 1, NOAA implemented 
catch limits for some stocks that are substantial reductions from 2012. 
For example, fishing year 2013 catch limits for Gulf of Maine and 
Georges Bank cod are 77 percent and 61 percent lower than the fishing 
year 2012 catch limits, respectively. It is worth noting that although 
the situation is worse concerning cod and yellowtail flounder, other 
New England groundfish stocks such as Georges Bank haddock, Pollock, 
and redfish are not currently overfished or subject to overfishing.
    NOAA has taken several steps in 2013 to mitigate the economic 
impacts of the low catch limits for some stocks:

  <bullet> NOAA has worked with the New England Fishery Management 
        Council to offset expected losses by providing greater access 
        to other healthy fish stocks, such as redfish, winter flounder, 
        spiny dogfish, and white hake.

  <bullet> NOAA is allowing fishermen to continue to carryover, with no 
        pound for pound payback, up to 10 percent of their 2012 
        uncaught quota into the 2013 fishing year for all stocks except 
        Gulf of Maine cod, for which, to prevent overfishing, the 
        carryover is 1.85 percent.

  <bullet> NOAA eliminated the dockside monitoring program.

  <bullet> In addition, we are currently paying for at-sea monitoring 
        costs for the remainder of fishing year 2013--costs that were 
        scheduled to be transferred in part to industry this year. We 
        are exploring options for establishing a cost-sharing 
        arrangement with the fishing industry to potentially help off-
        set the costs of at-sea monitoring in the future, subject to 
        future appropriations.

    NOAA is working with industry and other agencies to generate an 
initiative to support fishermen during these difficult times. These 
ideas are outlined in a `living document' entitled Fishing Through 
Tough Times: A Working Document on Resources to Support the Northeast 
Groundfish Industry. The draft initiative includes measures such as 
identifying Federal loan programs that can help fishermen and improve 
marketing to increase prices paid to fishermen. Several meetings have 
been held with stakeholders in the region to identify and pursue such 
options. A number of meetings have also been held with Congressional 
members from New England to ensure that the plan helps to address 
concerns they are hearing from their constituents.
    From these initial meetings, a Northeast Groundfish Economic 
Coordinating Committee has been established that includes members from 
NOAA, other Federal agencies, state and local government, and the 
fishing industry. The purpose of this Coordinating Committee is to keep 
the ideas in the resource document moving forward, and to foster a 
coordinated approach for this important issue. We are also working 
closely with the Groundfish Task Force established by Governor Deval 
Patrick, and have nearly weekly calls with representatives from the 
Commonwealth of Massachusetts to discuss our respective efforts to help 
the fishing industry.
    NOAA is sponsoring a presentation and webinar on December 2 by the 
U.S. Small Business Administration and the U.S. Department of 
Agriculture on their programs that can provide support to the fishing 
industry during these challenging times. Commercial fishing is 
considered a type of harvesting so is suitable for these forms of 
assistance, and the fishermen, dealers, and others in the industry can 
find out whether they are eligible for the various kinds of assistance 
offered by these agencies, and if so, how to apply.

    Question 3. Do you think the emergency we face in the New England 
groundfish fishery results from strict timetables in the MSA or the 
biological situation in the water?
    Answer. The groundfish fishery in New England is made up of 20 
managed stocks, and the biological characteristics of those stocks vary 
considerably. While some of the stocks are in good condition and have 
responded well to management, such as Georges Bank haddock, pollock, 
and Acadian redfish; others, such as the cod stocks and Georges Bank 
yellowtail flounder, have not. Because of the different stock 
conditions and life histories of the overfished stocks, some had 
rebuilding periods of 10 years or less, while others had longer 
rebuilding periods. But, in spite of best efforts to set appropriate 
and scientifically based annual catch limits and other measures to 
rebuild these stocks, regardless of the length of their rebuilding 
periods, some have not responded as expected. This has necessitated 
repeated and sometimes large cuts to the catch limits to try to get the 
stocks back on their rebuilding timelines. It does appear that 
environmental factors are hampering the rebuilding efforts, as 
evidenced by many years of poor reproduction, survival, and growth in 
some stocks. The overall difficult conditions in this fishery are 
likely the result of factors other than MSA timetables that we are 
still trying to understand.

    Question 4. What steps are needed to ensure we don't end up with a 
fishery collapse similar to the one that occurred in Newfoundland, 
Canada, in the 1990s?
    Answer. The Magnuson-Stevens Act provides the tools and processes 
necessary to manage the groundfish fishery, consistent with the stock 
assessment advice, such that fishery collapses can be avoided. The New 
England Fishery Management Council and NOAA have been using those tools 
to rebuild stocks and to keep overfishing from occurring. However, 
while many stocks in New England and elsewhere in the country have 
responded as expected to this type of management and have rebuilt, a 
few, such as several of the New England groundfish stocks, have not. 
There is growing concern that there may be environmental changes 
occurring, such as warming waters and possible changes in distribution 
of prey that we do not yet fully understand, and that may be thwarting 
our management efforts. The best managers can do is use the available 
tools, based on the best scientific information, to control fishing 
mortality until conditions are right to produce better reproduction, 
survival, and growth of the stocks. Without improvements in those 
factors, managers cannot guarantee successful outcomes over the long 
term.

    Question 5. New England has been plagued with stock management 
issues more so than other regions, including the nearby mid-Atlantic. 
Why has New England had so many problems? Do you believe that it's 
primarily a management or a biological issue?
    Answer. We believe that rebuilding Northeast multispecies 
(groundfish) stocks is more challenging than managing most stocks due 
to both biological reasons and past management choices.
    Most of the fisheries in both the Mid-Atlantic and New England are 
healthy, productive, and have responded well to management under the 
Magnuson-Stevens Act. In New England, the scallop fishery is the most 
valuable fishery in the Nation, and others such as monkfish, skates, 
red crab, and herring are in good shape. It is really only the 
groundfish fishery that continues to have some serious issues, despite 
all efforts to rebuild these stocks. That fishery has 20 managed 
stocks, some of which are in good condition that can support 
substantial fishing effort. However, there are several, such as cod, 
yellowtail flounder, and Gulf of Maine haddock, that are at low levels 
causing considerable concern. The reasons for the sharp declines in 
these stocks are not completely understood, but they constrain the 
fishery as a whole, because the quotas for these stocks are necessarily 
low based on their current low abundance. The complexity of this 
fishery in terms of the fish stocks, and its diversity in terms of gear 
types, vessel sizes, historical participation and other factors, has 
made this a very challenging fishery to manage for a long time. No 
fishery in the Mid-Atlantic, and few elsewhere in the country, is as 
complex as the New England groundfish fishery.
    The second key difference involves the fishery management measures 
that have been used to control fishery removals. For New England 
stocks, past fisheries management relied largely on indirect management 
measures including effort control to achieve target Total Allowable 
Catches. As a result, these target TACs were frequently exceeded 
resulting in overfishing and declining stock conditions. For Mid-
Atlantic stocks, fisheries management established quotas much earlier 
than in New England. As a result, overfishing was eliminated earlier 
and stocks were rebuilt more rapidly.
Impacts of 2006 Magnuson-Stevens Act Amendments
    Question 6. The 2006 reauthorization of MSA added significant 
provisions that were groundbreaking in several respects. Congress 
amended the Act to require for the first time the use of annual catch 
limits and accountability measures to end overfishing, provided for 
innovative new fishery management systems, mandated the creation of a 
national saltwater angler registry for the purpose of quantifying, for 
the first time, nationwide recreational fishing effort, and called for 
ecosystem-based management and increased international cooperation on 
fisheries management issues.
    What role have the 2006 amendments to the Magnuson-Stevens Act, 
specifically changes to require the fishery management councils to 
follow the advice of scientists and to establish accountability 
measures when setting annual catch limits, played in helping end 
overfishing, rebuilding depleted fish populations, and moving America's 
fisheries on a path toward sustainability?
    Answer. The Magnuson-Steven Act ensures that fishery managers use 
the best scientific information available to prevent overfishing, 
actively rebuild depleted stocks, and minimize bycatch and impacts to 
habitat. This dynamic, highly participatory, and science-based 
management process, based on 10 National Standards of sustainability, 
has helped the United States become a global leader in sustainable 
fisheries and seafood. The last reauthorization of the Magnuson-Stevens 
Act included provisions to establish annual catch limits and 
accountability measures, and promote the use of science in setting 
those limits. While we recognize that implementing annual catch limits 
has not been without cost and challenge, they have been effective at 
ending and preventing overfishing.

  <bullet> By 2012, all Federal fisheries for which annual catch limits 
        were required were operating under annual catch limits. As of 
        June 30, 2013, assessments demonstrated that overfishing ended 
        for 58 percent of the domestic stocks that were subject to 
        overfishing as of March 31, 2007, when the requirement to 
        implement annual catch limits was added to the Magnuson-Stevens 
        Act.

  <bullet> Each year, we prepare a report to Congress on the Status of 
        U.S. Fisheries. In our 2012 report, we determined that 10 
        stocks were no longer subject to overfishing, four stocks were 
        no longer overfished, and six stocks managed under rebuilding 
        plans were rebuilt to their target levels. Since release of the 
        Report to Congress, one additional stock was determined to be 
        no longer subject to overfishing and one additional stock has 
        rebuilt, bringing the total number of rebuilt stocks to 33 
        since 2000.

    As additional stock assessments are completed, we expect the number 
of stocks on the overfishing list--now at an all-time low--to decrease 
further as a result of management under annual catch limits.

    Question 7. What benefits have New England and Mid-Atlantic 
fishermen and their communities enjoyed from ending overfishing and 
rebuilding fishery stocks?
    Answer. Summer flounder and scallops are two cases in the Northeast 
in which rebuilding efforts were successful. The simplest way to 
provide an indication of benefits to New England and Mid-Atlantic 
fishermen of the increase in these stocks is through a comparison of 
current ex-vessel revenues to revenues before rebuilding took place. 
For example, in 1998 before rebuilding sea scallop ex-vessel revenue 
was valued at only just over $75 million ($121 million in inflation-
adjusted 2011 dollars). In comparison, in 2011 dockside landings of 
Atlantic sea scallops were $581 million, and due to scallops, New 
Bedford, MA was the most lucrative fishing port in the Nation.
    Similarly, summer flounder ex-vessel revenues were $16 million in 
1997 and $31.7 million in 2011 after the rebuilding program. Summer 
flounder is also one of the most sought after species by recreational 
fishermen. In 2006, anglers spent an estimated $234.1 million fishing 
for summer flounder along the Atlantic coast. Many of these anglers 
would switch to alternative species if summer flounder encounter rates 
declined, but supporting businesses would be impacted if anglers 
reduced their effort in response to the declines.
    Beyond the gross revenues, other indicators of the financial and 
social benefits of rebuilding of these species are not immediately 
available. However, the amount of revenue involved makes it easy to 
imagine the broader direct and indirect economic impact of these two 
species in terms of jobs, value-added revenue from wholesalers, 
processors, retailers, and others. If overfishing had not been 
controlled, most of this revenue would likely have been lost. 
Furthermore, if summer flounder and scallops were allowed to decline, 
losses may have been further compounded by increased overfishing in 
other fisheries resulting from the shift of summer flounder and scallop 
fishermen into other fisheries.
    Although these are two stories of successful rebuilding plans, it 
is important to point out that rebuilding is a complex process and 
results may not be known for several years.

    Question 8. How can we better support fishermen struggling to make 
ends meet as depleted stocks rebuild?
    Answer. NOAA is working with industry and other agencies to 
generate an initiative to support fishermen and help the industry 
maintain its viability through these challenging times. These ideas are 
outlined in a `living document' titled Fishing Through Tough Times: A 
Working Document on Resources to Support the Northeast Groundfish 
Industry,\1\ and includes an array of information and ideas. In 
particular, the document (1) makes fishermen and support businesses 
aware of the various forms of assistance available to them, (2) 
identifies the key agencies and entities that can provide that support, 
(3) facilitates interaction with our partners to address current and 
emerging issues, and (4) enables agencies to recognize and undertake 
the actions that fall within their purview. Currently, there are thirty 
items that suggest both regulatory and financial forms of assistance.
---------------------------------------------------------------------------
    \1\ http://nero.noaa.gov/fish/resources/index.html
---------------------------------------------------------------------------
    A Northeast Groundfish Economic Coordinating Committee has been 
established. The Coordinating Committee, which I chair, is composed of 
the lead contacts for each of the actions outlined in this evolving 
resource document, and the purpose is to keep the ideas in the resource 
document moving forward, and to foster a coordinated approach for this 
important issue.
    We are also working closely with the Groundfish Task Force 
established by the Governor of Massachusetts, and have nearly weekly 
calls with representatives from the Commonwealth to discuss our 
respective efforts to help the fishing industry.
    NOAA is sponsoring a presentation and webinar on December 2 by the 
U.S. Small Business Administration and the U.S. Department of 
Agriculture on their programs that can provide support to the fishing 
industry during these challenging times. Commercial fishing is 
considered a type of harvesting so is suitable for these forms of 
assistance, and the fishermen, dealers, and others in the industry can 
find out whether they are eligible for the various kinds of assistance 
offered by these agencies, and if so, how to apply.
Cooperative Management
    Question 9. Section 318 of the Magnuson-Stevens Act requires the 
Secretary of Commerce to establish a cooperative research and 
management program to support the conservation and management 
objectives of the Act; however, cooperative management strategies have 
yet to be extensively incorporated into Federal fisheries management.
    MSA authorizes the use of cooperative management strategies in 
Federal fisheries management. Do you see a benefit to cooperative 
management strategies?
    Answer. Yes, cooperative research and management are very 
important. The Magnuson-Stevens Act's fishery management council 
processes are by nature cooperative. Regarding research, NOAA has 
established a cooperative research program that has effectively engaged 
and benefited from collaborations with a broad range of external 
stakeholders including: State and Tribal managers and scientists 
(including interstate fishery commissions); fishing industry 
participants (including commercial and recreational fishermen); and 
educational institutions.
    Program results include: increased quantity and quality of data; 
inclusion of stakeholders' knowledge in science and management; 
improved relevance of research to fisheries management; and reduced 
costs of science. Additionally, this program has promoted and continues 
to promote a shared understanding of science and support for management 
decisions by stakeholders and improved relationships with constituents.
    The NOAA Cooperative Research program is a critical component of 
our approach to management and has resulted in significant improvements 
in our scientific understanding of our fisheries and fish stocks. This 
program provides a means for commercial and recreational fishermen to 
become involved in the collection of fundamental fisheries information 
to support the development and evaluation of management options.
    FY 2013 highlights across the country of the agency's cooperative 
research program include:

        Northeast Fisheries Science Center's Spiny Dogfish Tagging 
        Study: This is a cooperative initiative to tag spiny dogfish 
        (Squalus acanthias) in the Gulf of Maine, Southern New England, 
        and Georges Bank. The aim of this project is to answer long-
        standing questions about stock structure, movement patterns, 
        and life history of the species in order to update and improve 
        dogfish stock assessments.

        Southeast Fisheries Science Center's Pilot Study on the Use of 
        a Video Electronic Monitoring System and Archival Satellite 
        Pop-off Tags to Estimate Endangered Species Act-Listed 
        Smalltooth Sawfish Bycatch Mortality in Shrimp Trawl Fisheries 
        in the Gulf of Mexico: The results of this cooperative study 
        will provide information on the applicability of monitoring the 
        take of large marine animals in shrimp trawls. While objectives 
        in this study are specific to sawfish due to the need to 
        further evaluate their effect on their population recovery, 
        bycatch of dolphin, sturgeon, sharks, and sea turtles have been 
        reported in shrimp trawls. Therefore, the results could be used 
        to evaluate the potential to monitor bycatch of these large 
        marine animals in other trawl fisheries across the Nation.

        Northwest Fisheries Science Center's Southern California Hook 
        and Line Survey: This collaborative effort with the sport 
        fishing industry allows NOAA to monitor untrawlable habitats of 
        many structure-associated species that are commercially and 
        recreationally important and in some cases are designated as 
        overfished. The resulting data is essential for the assessment 
        of several key shelf rockfish species.

        Southwest Fisheries Science Center's Southern California 
        Nursery Area Longline Survey for Pre-recruit Common Thresher 
        Sharks: This cooperative survey in the Southern California 
        Bight is focused on defining the core nursery areas of young-
        of-the-year common thresher shark pups and obtaining a fishery-
        independent estimate of recruitment. The resulting data have 
        already been used to demonstrate increasing trends in abundance 
        of threshers in California waters.

        Alaska Fisheries Science Center's Fishing Technology and 
        Conservation Engineering to Reduce Bycatch Studies: This is a 
        cooperative effort with Alaska fishing groups to improve 
        fishing gear and methods to achieve bycatch reduction, measure 
        mortalities from all kinds of bycatch and address the effects 
        of fishing gear on seafloor habitats. This effort combines its 
        scientific techniques and direct observation tools with the 
        gear and fishing expertise of industry partners to design and 
        test solutions to these issues.

        Pacific Islands Fisheries Science Center's Pilot Survey for 
        Bottomfish in the Waters Around Oahu, Maui, Hawaii, and Guam: 
        The goal of this pilot survey is to assess spatial connectivity 
        of local bottomfish populations and provide crucial population 
        level abundance indices for bottomfish. The resulting data will 
        support improved bottomfish stock assessments.

    In sum, NOAA's cooperative research programs provide valuable data 
and products used to support Federal and State fishery management 
programs involving a broad spectrum of stakeholders.
    NOAA also supports the Bycatch Reduction Engineering Program, which 
provides an external grant program to develop technological solutions 
and investigate changes in fishing practices to minimize bycatch of 
fish and protected species (including marine mammals, seabirds, and sea 
turtles), and for those animals that are caught as bycatch, to minimize 
injury and mortality. In September 2013, NOAA awarded 16 grants 
totaling nearly $2.4 million under its Bycatch Reduction Engineering 
Program.

    Question 10. Why hasn't the agency embraced these approaches 
extensively? What do you see as the barriers?
    Answer. The Magnuson-Stevens Act is specifically designed to 
develop cooperative solutions to our fishery management challenges. The 
primary designers of fishery management actions are fishery 
constituents, who work through the highly public and participatory 
regional fishery management council process to design management that 
both meets the standards of the Act, as well as the unique regional 
needs of the fishing industry and fishing communities. Voting Council 
members are comprised of fishermen, academics, and other interested 
citizens, state representatives, and the NOAA Regional Administrator, 
to develop management approaches to achieve the goals set forth in the 
Magnuson-Stevens Act. Taken together, the U.S. approach to fishery 
management and specific cooperative management programs result in a 
robust and cooperative process that has improved the sustainability of 
the Nation's fishery resources.
                                 ______
                                 
 Response to Written Questions Submitted by Hon. Richard Blumenthal to 
                            John K. Bullard
Aquaculture and Essential Fish Habitat
    Question 1. One of the issues that I hear about from shellfish 
farmers in Connecticut is that certain environmental regulations can 
pose challenges for shellfish permitting, which is a big industry in my 
state. For instance, eelgrass is protected as ``essential fish 
habitat'' under the Magnusson-Stevens Act. Yet, I hear from scientists 
that shellfish aquaculture provides many of the same ecosystem benefits 
that eelgrass provides including improvements in habitat and water 
quality. Should we move away from a policy that mandates ``no net loss 
of eelgrass''--to one that says ``no net loss of ecosystem function''?
    Answer. NOAA does not have a formal ``no net loss of eelgrass'' 
policy; however, the value of eelgrass and its susceptibility to 
degradation make it a priority for habitat protection through NOAA's 
multiple consultation mandates. NOAA recognizes the valuable role of 
the shellfish aquaculture industry to provide sustainable seafood and 
ecosystem services, restore habitats, and create jobs in coastal 
communities nationally, including those in New England. As described in 
our 2011 Aquaculture Policy, NOAA supports a regulatory approach that 
provides opportunity for the aquaculture industry as well as protects 
high priority habitats that are essential to fisheries. In 2011, we 
launched the National Shellfish Initiative specifically to increase 
populations of shellfish in our Nation's coastal waters through both 
commercial production and conservation activities.
    Eelgrass is important habitat for many NOAA trust resource species. 
Pursuant to the Magnuson-Stevens Act, eelgrass has been identified as 
``essential fish habitat'' along much of the Atlantic coast due to its 
importance in the productivity of fisheries such as summer flounder, 
cod, and winter flounder. Other non-Magnuson-Stevens Act species such 
as bay scallops also depend on eelgrass, which provides food and 
shelter as individuals grow to maturity. In much of its Atlantic and 
Pacific range, eelgrass has been designated as a Habitat Area of 
Particular Concern (a special subset of Essential Fish Habitat) by the 
regional fishery management council. For example, the Mid-Atlantic 
Fishery Management Council designated eelgrass as Essential Fish 
Habitat and a Habitat Area of Particular Concern due to its importance 
for survival of various life stages of summer flounder throughout its 
range. In addition to the importance of eelgrass for fish production, 
it is also a valuable component of the marine ecosystem contributing to 
the greater diversity of bottom dwelling animals. Eelgrass also 
improves water quality by trapping suspended sediments and absorbing 
nutrients. It helps to stabilize bottom sediments and has been shown to 
protect coastal properties from storm damage by absorbing waves and 
reducing erosion.
    Other agencies recognized eelgrass values under their mandates. For 
example, the U.S. Army Corps of Engineers (Corps) and the Environmental 
Protection Agency (EPA) have designated eelgrass as a ``special aquatic 
site'' pursuant to Section 404 of the Clean Water Act. Currently, the 
New England District of the Corps and the State of Connecticut 
implement a general permit for the installation and operation of 
aquaculture facilities. One permit condition is that gear may not be 
located over or within submerged aquatic vegetation such as eelgrass. 
This restriction reflects the critical role eelgrass plays within the 
marine ecosystem. Despite the restriction in eelgrass habitat, and 
largely because eelgrass is not found in most coastal waters in 
Connecticut and other states, it is important to note that permits such 
as the one for Connecticut have helped to nurture shellfish aquaculture 
for many years.
    NOAA recognizes that habitat protections for eelgrass and other 
special habitats can pose challenges to shellfish aquaculture 
permitting in discrete areas, and is willing to work with industry, 
environmental, state, and Federal partners to examine the issue. 
Eelgrass and shellfish are valued components of distressed marine 
ecosystems. NOAA's laboratory in Milford, Connecticut conducts research 
demonstrating the ecosystem services of shellfish aquaculture, 
including nutrient extraction from coastal waters and nursery habitat 
for commercial and recreational species. Research in the Chesapeake Bay 
and elsewhere has revealed a co-dependence between eelgrass and filter-
feeding shellfish, especially oysters. For example, both wild and 
cultured oysters filter water allowing light to penetrate to sediments 
where eelgrass grows. Eelgrass, in turn, stabilizes sediments, 
lessening the chance that shellfish will be buried from tidal and storm 
erosion. This indicates that strategic placement of shellfish 
aquaculture near sites where eelgrass grows can help maintain eelgrass, 
rather than leading to net losses.
    While habitat provided by wild and cultured shellfish is valuable, 
it differs from the ecosystem functions provided by eelgrass. Since 
NOAA's mandates require that it conserve aquatic vegetation and 
shellfish and foster sustainable aquaculture, NOAA will work with its 
partners to seek ways to fully consider the ecosystem services of 
shellfish aquaculture in the permitting process.

    Question 2. Is there a way for us to preserve biodiversity and 
ecosystem services while creating new jobs and providing sustainable 
seafood as well?
    Answer. Providing sustainable seafood and creating jobs is 
important. In addition to striving to bring the Nation's wild fish 
stocks back to healthy and sustainable levels, NOAA invests in 
initiatives that support aquaculture as an important component of how 
the agency can reach this goal. There is a perception among some 
stakeholders of intrinsic conflict in balancing the goals of preserving 
biodiversity and ecosystem services and creating new jobs and providing 
domestic safe sustainable seafood for the Nation. However, case studies 
from the United States and around the world demonstrate that seafood 
can be caught and cultured sustainably. NOAA believes that increasing 
and diversifying our domestic seafood supply through expansion of 
sustainable marine aquaculture can be accomplished through careful 
regulation informed by sound science, and technology development and 
transfer to U.S. seafood growers.
    In 2011, NOAA and the Department of Commerce issued new aquaculture 
policies that support both jobs and the environment. Shellfish culture 
will constitute a large part of meeting the goals and objectives of 
these policies. With the release of the 2011 policies, NOAA announced, 
and is now implementing, a National Shellfish Initiative to address a 
priority in our policy to increase the culture and enhancement of 
shellfish throughout the country. Successful aquaculture requires a 
healthy ecosystem and both provide direct and indirect economic 
benefits.
    Using shellfish aquaculture as an example, markets for locally-
produced seafood are growing nationwide, including demand for oysters, 
clams, mussels, and scallops in the populous northeast. Shellfish 
aquaculture infrastructure, whether simple bottom plantings or 
suspension or cage culture, provides habitat for invertebrate prey and 
young stages of fishes, thereby promoting biodiversity, while providing 
sustainable seafood and jobs for farmers, harvesters, and the marketing 
chain to seafood consumers. Diversification and growth in the shellfish 
aquaculture sector are being driven by market forces; domestic oyster 
culture is presently about a $100 million per year industry nationwide 
and growing. Research at NOAA labs and partner institutions plays a 
critical role by informing management decisions to enable continued 
economic growth in a manner that is environmentally beneficial.
Ensuring Choke Stocks Do Not Limit Harvests of Healthy Fisheries
    Question 3. Strict new rebuilding requirements, coupled with the 
annual catch limit mandate, create problems achieving sustainable yield 
for healthy stocks co-harvested in fisheries where some catch of 
rebuilding species is inevitable. In such instances, rebuilding stocks 
become ``choke'' species, preventing full harvest of healthy stocks and 
creating allocation battles. The problems Georges Bank yellowtail 
flounder are causing for New England haddock and scallop fisherman 
illustrate the situation. For instance, even though Georges Bank 
haddock is highly abundant, only a small fraction of its annual catch 
limit can be harvested. Likewise, yellowtail by-catch limits are 
driving scallop management decisions. Indeed, increasingly small 
yellowtail flounder allocations to the scallop fishery associated 
accountability measures risk closing the scallop fishery in highly 
productive areas on Georges Bank. Conservation is important to our 
fishing communities, but so is the need for abundant stocks to be 
harvested.
    What steps are NOAA Fishery management councils taking to help 
ensure that fishermen have access to abundant resources, such as 
scallops and haddock?
    Answer. NOAA has worked quickly with the Councils to increase catch 
limits when stock assessments have shown that a stock is in good 
condition and additional fishing opportunity is possible. For example, 
we worked with the New England Fishery Management Council to increase 
the catch limit for Gulf of Maine winter flounder when a new stock 
assessment was completed and showed that the stock was no longer 
subject to overfishing. We also moved quickly to increase quotas for 
redfish, white hake, and pollock, as new scientific advice became 
available.
    We have also looked for flexibility to provide additional fishing 
opportunities to harvest healthy fish stocks. For example, we created 
new exempted fishery programs to enable greater harvests of spiny 
dogfish, skates, and redfish, and removed possession limits on monkfish 
for certain trips.
    In the Northeast, in collaboration with the New England Fishery 
Management Council, we will continue to look for flexibility in Federal 
laws and ways to provide additional fishing opportunities to harvest 
healthy fish stocks. For example:

  <bullet> We covered at-sea monitoring costs in 2013 for the 
        groundfish fishery;

  <bullet> We are exploring options to allow sectors access to portions 
        of areas that were closed to address groundfish fishing 
        mortality while maintaining closures in areas needed to protect 
        habitat, vulnerable groundfish stocks, spawning stocks, and 
        protected species;

  <bullet> We are converting discards into landings that provide 
        additional revenues for groundfish vessels;

  <bullet> We eliminated the dockside monitoring program, and are 
        considering reductions to minimum fish sizes and allowing 
        landing of Southern New England/Mid-Atlantic winter flounder, 
        which has been prohibited since 2010; and,

  <bullet> The New England Council has reduced minimum fish sizes for 
        many groundfish stocks, such as haddock, to reduce discards and 
        allow more fish to be landed, and has provided special access 
        programs for vessels using selective gear, so that the 
        healthier stocks can be targeted with less catch of the less 
        abundant stocks.

  <bullet> We are continuing, with fishermen's help, to improve 
        fisheries and marine ecosystem science and the way we 
        communicate that science through cooperative research.

    Question 4. What flexibility can be added to the Magnusson-Stevens 
Act to better balance conservation with access to abundant resources, 
such as scallops and haddock?
    Answer. The Magnuson-Stevens Act currently requires the Councils to 
balance conservation with access to fishery resources, and provide 
tools to give Councils wide discretion to determine the best way to 
meet conservation goals while still providing fishing opportunities. 
The National Standard 1 guidelines address ending overfishing, 
including the requirements for annual catch limits and accountability 
measures, and stock rebuilding. We solicited public comment on ideas 
for revisions to the guidelines, and are continuing to analyze the 
issues raised by the Councils and the public. NOAA is exploring 
potential areas where guidelines may be able to provide more 
flexibility for the Councils and fishermen, while still meeting the 
requirements of the Magnuson-Stevens Act.
Fleet Overcapitalization
    Question 5. We have been successfully reducing over-capacity issues 
in our fishing fleets for nearly two decades. Are we nearly where we 
need to be in terms of matching the fleet's capacity with sustainable 
harvest levels or are further cuts going to be required?
    Answer. The number of federally permitted fishing vessels in the 
Northeast U.S has fallen from a peak of almost 6,400 in 2005 to just 
over 5,000 in 2012. The median length and horsepower of permitted 
vessels has increased approximately 5 percent (for both length and 
horsepower) over that time period. NOAA had undertaken several studies 
to better understand the relationship between existing fishing capacity 
and fleet-optimal capacity. The results of these studies tend to 
indicate that over-capacity exists, but the degree of estimated over-
capacity is affected to a large degree by the estimation method--
several exist and there is no consensus as to the best measure. It is 
impossible to say to what degree existing fishing capacity is in line 
with potential long-term fishery yields.
    The larger point is that fishing capacity is neither an advisable 
fishery management tool nor goal. Rather, it is best thought of as a 
result of a confluence of fishery management decisions and 
environmental/biological conditions. Capacity estimates may be used to 
assess how well--or poorly--fisherman are able to adjust their capital 
inputs in the face of ever-changing regulatory and environmental/
biological conditions.
    Fishery managers strive to reduce regulatory inefficiencies that 
prevent fisherman from ``right-sizing'' their businesses. In a fluid, 
dynamic fishery with sufficient flexibilities and, ideally, sufficient 
profit, fisherman will naturally adjust capacity to conditions.

    Question 6. Are there other sectors where we could be putting 
displaced fishermen to work? When there was a net ban in Florida, 
training programs ushered in millions of dollars of new clam fishing 
production.
    Answer. NOAA is supporting programs in two sectors that provide 
opportunities for displaced fishermen, either as a source of 
supplemental income or an alternative career path: aquaculture and 
shellfish restoration. In both of these sectors, fishermen are able to 
continue working on the water using the fishing vessels, skills, and 
much of the equipment they already possess. It is an attractive and 
viable option for many fishermen that also supports fishing communities 
and contributes to the preservation of working waterfronts.
    Several programs have been implemented in the northeast to test 
retraining of fishermen to be sea farmers. These programs have had 
variable success, and are mainly dependent upon opportunities for 
prospective farmers to realize an immediate income. Among the successes 
are lobster fishermen who were among the first to invest in open ocean 
mussel farming in New England, dividing their time between fishing 
activities and tending and harvesting mussels from submerged longlines. 
Others have completed training through a NOAA-supported ``cod academy'' 
and are pursuing new careers as finfish farmers.
    Aquaculture provides permanent long-term private industry jobs not 
dependent on government funding. Currently, aquaculture production is 
the third most valuable fisheries product landed in the Northeast 
region (from Virginia to Maine) only behind scallops and lobster. This 
economic engine is helping many rural communities maintain their 
working waterfront and the jobs associated with them. However, overall 
aquaculture production in the United States is very low relative to 
many other countries and to our potential production, and we import 
over 90 percent of our seafood, about half of which comes from 
aquaculture. There is significant room for expansion of sustainable 
aquaculture in the United States, which economic studies indicate could 
create tens of thousands of jobs. NOAA is working to increase the areas 
available to aquaculture by supporting efforts to streamline permitting 
in state waters and to develop projects and permitting systems in 
Federal waters. For example, in New England, we are working with local 
fishermen to permit a mussel farm in Federal waters.
    Municipalities in New England that are historical fishing ports are 
actively developing waterfront infrastructure (e.g., piers in Plymouth, 
MA) to attract shellfish aquaculturists as groundfish landings become 
less able to support local economies. Research quantifying the 
ecosystem interactions of expanded shellfish aquaculture in New England 
coastal ecosystems is needed to inform management decisions enabling 
expansion of this seafood sector in an environmentally responsible way. 
We are currently working with fishermen and academic partners to 
establish a small number of projects in New England to develop 
appropriate techniques, and to better understand potential 
environmental impacts.
    A related sector is shellfish restoration. Shellfish farmers across 
the Nation (including New England) are often employed in shellfish 
restoration activities supported by Federal, State, local, and/or 
private funding. The goals of most restoration efforts are to increase 
biodiversity and ecosystem services. Additionally, habitat restoration 
jobs may also pay economic dividends twice over: first in creating 
immediate, local jobs; and then, through healthy habitats that support 
fisheries, tourism, and coastal resiliency for years to come. Several 
recent peer-reviewed studies \2\ have confirmed NOAA's own data that 
habitat restoration, including shellfish restoration, creates, on 
average, 17-33 jobs for every $1 million investment--a strong rate of 
job creation. According to an Ecotrust study \3\ on the U.S. west 
coast, an average of $0.80 of every $1.00 spent on a restoration 
project stays in the county where the project is located, and $0.90 
stays in the state.
---------------------------------------------------------------------------
    \2\ Edwards PET, AE Sutton-Grier, and GE Coyle. 2013. Investing in 
nature: Restoring coastal habitat blue infrastructure and green job 
creation. Marine Policy 38: 65-71.
    Heinz J, et al., 2009. How Infrastructure Investments Support the 
U.S. Economy: Employment, Productivity, and Growth. Political Economy 
Research Institute Hibbard M and S Lurie. 2006. Some Community Socio-
Economic Benefits of Watershed Councils: A Case Study From Oregon. 
Journal of Environmental Planning and Management 49: 891-908.
    U.S. Department of the Interior Report. 2009. Economic impact of 
the Department of Interior's Programs and Activities.
    Nielsen-Pincus M and C Mosely. 2010. Economic and Employment 
Impacts of Forest and Watershed Restoration in Oregon.
    University of Oregon, Ecosystem Workforce Program, Working Paper 
No. 24.
    Nature Conservancy. Benefits of Restoration for People and Nature.
    \3\ In Oregon's Restoration Economy. Available at: http://
www.ecotrust.org/wwri/downloads/WWRI_OR_brochure.pdf

    Question 7. Should we be retraining fishermen to grow mussels or 
seaweed? What can NOAA do to streamline permitting for mussel farms in 
Federal waters? We impact millions of dollars of mussels from Canada.
    Answer. NOAA is exploring additional ways we can help those 
fishermen who want to learn how to grow mussels, seaweed, and other 
products in the marine environment. A major new initiative at NOAA's 
Northeast Fisheries Science Center is actively addressing the potential 
for local mussel aquaculture. We are using new technologies to identify 
sites with high potential for mussel aquaculture production, as well as 
quantifying the ecosystem benefits of shellfish culture such as the 
amount of nitrogen or carbon that can be removed from coastal 
environments.
    NOAA is using pilot projects to identify and resolve permitting 
issues with development of offshore mussel farming--for example, the 
coexistence of mussel farms and endangered marine mammals and turtles 
that are protected under U.S. laws. We are looking at how other 
countries (New Zealand, Canada, northern Europe) have been able to 
successfully expand mussel culture using methods that are protective of 
their large populations of whales and turtles. These mature and proven 
technologies can be used here to create jobs and to provide sustainable 
seafood to our Nation as well. Similar issues arise with respect to 
seaweed farming--as with mussel farming, we can look to the experience 
in countries with established industries for useful information about 
potential impacts and available technologies, methods and management 
approaches to address adverse impacts.
    Finally, under directives in the President's National Ocean Policy 
Implementation Plan, we are working with our partners in other agencies 
to coordinate and improve the process for authorizing marine 
aquaculture operations under multiple statutes. A major contribution 
for NOAA is our understanding of how aquaculture interacts with the 
marine environment and how marine aquaculture operations can be 
designed, sited, and operated in a way that is compatible with our 
marine stewardship obligations.

    Question 8. NOAA has determined that the Magnuson-Stevens Act gives 
it authority to regulate shellfish aquaculture activities in Federal 
waters. Are there any shellfish aquaculture experts or representatives 
on the Regional Councils? Should the Regional Fisheries Management 
Councils have any regulatory authority over shellfish aquaculture 
permitting?
    Answer. NOAA's position is that the definition of ``fishing'' in 
the Magnuson-Stevens Act includes the harvesting of cultured fish and 
shellfish. So if a species is included in a fishery management plan, a 
grower must obtain an exempted fishing permit or other authorization 
from NOAA. Although this requirement does not apply to species not 
covered by a fishery management plan, we expect Fishery Management 
Councils in regions where interest in offshore aquaculture is expanding 
to consider developing aquaculture-specific fishery management plans in 
the future. The Gulf of Mexico Fishery Management Council took such an 
approach when it developed its aquaculture-specific fishery management 
plan. Although the Gulf aquaculture fishery management plan does not 
include any shellfish species, it nevertheless provides a good example 
of how a Council can take a regional approach to managing species that 
are likely to be considered for commercial aquaculture production in 
their region. NOAA is interested in working with Congress to explore 
alternative approaches that could provide the necessary regulatory 
clarity for aquaculture to develop in Federal waters.
    The makeup of each fishery management council reflects the 
expertise and interests of the states in that region. So in regions 
where interest in offshore shellfish aquaculture is expanding, we 
expect to see a corresponding increase in the number of shellfish 
aquaculture experts nominated to serve on that region's fishery 
management council. Meanwhile, such experts may already serve on, and 
increasingly apply to fill future vacancies on, Council Advisory Panels 
and the Science and Statistical Committee and influence the future 
development of aquaculture fishery management plans.
    While we have not specifically asked the governors to nominate 
shellfish aquaculture experts to serve on regional fishery management 
councils, it is likely that some members who represent commercial 
fishing, seafood businesses, academia, tribes, and state and Federal 
agencies do have relevant expertise in shellfish aquaculture.
Observer Data
    Question 9. Information collected by fisheries observers represents 
an important source of data for fishery conservation and management. 
For instance, observer data is used in many fisheries to track a 
fishing fleet's level of by-catch against its overall by-catch limits. 
Certain fishermen, such as scallop industry participants, are required 
to pay for their own observers, and that can be very expensive. I 
understand it can take many months for NOAA Fisheries to be able to 
compile and analyze data obtained from observers so these data can be 
used to estimate by-catch levels. As a result, fishermen can end up 
``flying blind'' during the fishing season in terms of knowing where 
their catches are in relation to by-catch limits. What more can NOAA 
Fisheries do to ensure observer information is accurate?
    Answer. Observer data is critical to our scientific and management 
needs. NOAA has developed important processes and procedures, described 
in more detail below, to ensure observer information is accurate. Our 
thorough quality assurance/quality control process can take time and we 
are continuing to explore and invest in ways to increase the efficiency 
of our data collection efforts, such as through the use of electronic 
reporting. Currently, observer data does not take an excessive amount 
of time to process, but the synchronization of additional data streams, 
such as electronic reporting of catch by fishermen, video monitoring to 
track catch, recording of landings by dealers, and other data 
collection mechanisms allow managers to track catch during the fishing 
season to prevent overfishing or exceeding catch limits, and can be 
used to increase the accuracy and availability of data to managers.
    NOAA has developed national minimum eligibility standards for 
observers.\4\ These requirements are designed to ensure that observers 
are fully qualified and have the appropriate background and education 
needed to perform the necessary duties of an observer and to collect 
timely and accurate information. For example, observers are required to 
have a bachelor's degree from an accredited college or university with 
a major in one of the natural sciences and a minimum number of course 
credits in the biological sciences and math or statistics. This policy 
may also have the benefit of improving retention of observers through 
selection of high quality individuals, thereby reducing training costs, 
providing greater continuity in operations, and improving data quality. 
All observers are required to pass a rigorous 3-week training program 
with a minimum score of 80 percent on written or oral tests developed 
by the program. Some programs, such as the Northeast Fisheries Observer 
Program, require a passing score of 85 percent. The National Observer 
Program Advisory Team, comprised of observer program managers from 
across the country including NOAA staff, routinely reviews the national 
standards to determine if improvements are needed.
---------------------------------------------------------------------------
    \4\ http://www.st.nmfs.noaa.gov/Assets/Observer-Program/pdf/
Eligibility_Procedural_
Directive.pdf
---------------------------------------------------------------------------
    In addition to these requirements, all data collected by observers 
must go through a thorough quality assurance/quality control process. 
This is achieved through a debriefing process in which senior staff, 
referred to as debriefers or data editors, review the data submitted by 
the observer following each observed trip. The Northeast Fisheries 
Observer Program recently implemented a new policy requiring a minimum 
of two annual debriefings to occur in person at the NOAA observer 
program facility.\5\ This policy is intended to improve communication 
and feedback between the observers and debriefers and to improve 
observer retention and data quality.
---------------------------------------------------------------------------
    \5\ http://www.nefsc.noaa.gov/program_review/backgroundpapers/
FSBportfolio.pdf
---------------------------------------------------------------------------
    Fostering an environment for collaboration and support of the 
observer program can lead to better communication, higher data quality, 
more efficient vessel placements, better representation of true fishing 
activity, and shared understanding of prioritizing assignments and data 
collection to best inform fisheries management and scientific research. 
Work is also underway to streamline the interconnectedness of fishery-
dependent data collections, such as Vessel Trip Reports and Dealer 
Reports, which would hasten the data processing and analysis and 
improve quality of results.

    Question 10. What more can NOAA Fisheries do to ensure that 
observer information is available in time to be useful to the fishermen 
who are paying for it?
    Answer. As described above, all data collected by observers must go 
through a quality assurance/quality control process to ensure the 
accuracy of the data. While timeliness is important, observer programs 
strive to provide accurate data as quickly as possible, and would not 
want to sacrifice accuracy for the sake of timeliness. In the 
Northeast, observers submit electronic data, paper logs and worksheets, 
biological samples, and digital photographs within timelines specific 
to each program and trip type. For trips targeting groundfish 
(including all At-Sea Monitor trips), Atlantic herring or mackerel, or 
Atlantic squid, observers must electronically enter and upload haul and 
species information within 48 hours of the trip landing. For other trip 
types, a shorter trip summary of critical elements must be uploaded 
within 48 hours. Paper logs from all At-Sea Monitor and Northeast 
Fisheries Observer Program trips must be received by the Fisheries 
Sampling Branch within 5 calendar days by priority and tracking 
shipment.
    Electronically recorded data are reviewed (edited) and observers 
debriefed (if necessary) the same day data are received. After this 
preliminary review, data are made available to end-users with approved 
access, sector managers (for groundfish data), and permit holders, via 
an inter-relational Oracle database and user-friendly website. Once the 
paper logs arrive, the editor reviews all data, compares it to the 
electronic data uploads for correctness, and debriefs the observer as 
necessary. If there are questionable data based on electronic data or 
other feedback, the paper logs would be reviewed as soon as they 
arrive. The data turnaround time is monitored and evaluated to ensure 
that all is being done efficiently while meeting multiple mandates and 
monitoring goals within an expected standard. As an example, for the 
Northeast Fisheries Observer Program, from January to April of 2013, 
groundfish trip edits were fully loaded and audited within 15 days of 
trip landing (average from 626 trips), and non-groundfish trips were 
completed within 29 days of trip landing (average from 404 trips).
    The Northeast Fisheries Observer Program and other observer 
programs are looking into additional ways to collect and submit data 
electronically in order to make information available more quickly to 
fishermen. For example, the Northeast Fisheries Observer Program and 
other observer programs across the country have begun incorporating 
handheld devices such as rugged iPads and toughbook computers to record 
and submit observer data electronically through wireless networks and 
satellite. Data confidentiality, IT security, and manageable costs are 
also taken under consideration.
    From a national perspective, NOAA recently approved a policy 
regarding the adoption of electronic technology solutions in fishery-
dependent data collection programs. This policy states:

        ``It is the policy of the National Oceanic & Atmospheric 
        Administration's (NOAA's) National Marine Fisheries Service 
        (NOAA Fisheries) to encourage the consideration of electronic 
        technologies to complement and/or improve existing fishery-
        dependent data collection programs to achieve the most cost-
        effective and sustainable approach that ensures alignment of 
        management goals, funding sources and regulations.''

    The NOAA policy requires each region to evaluate the adoption of 
electronic technologies for the fisheries in their areas of 
responsibility. The core principle is a regionally-driven focus to 
promote shared information and improve coordination across regions to 
improve overall Agency data collection efficiency and effectiveness. 
The goal is to obtain the appropriate amount and quality of data at the 
least cost in time and money over the long term.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Edward Markey to 
                            John K. Bullard
Rebuilding Timeframe Flexibility
    Question 1. Concerns are often raised about the 10 year rebuilding 
time-frame for overfished stocks, but the law appears to provide 
flexibility for determining these timeframes. The law states that a 
time period for rebuilding the fishery shall ``not exceed 10 years, 
except in cases where the biology of the stock of fish, other 
environmental conditions, or management measures under an international 
agreement in which the United States participates dictate otherwise.''
    In developing rebuilding plans for fish stocks in the Northeast, 
has NOAA used this flexibility to set rebuilding times periods that are 
longer than 10 years?
    Answer. Yes, we have used that flexibility many times in the 
Northeast to set rebuilding time periods that are longer than 10 years 
for the following stocks:

  1.  Atlantic cod--Georges Bank cod, 22 years;

  2.  Atlantic halibut--Northwestern Atlantic Coast, 52 years;

  3.  Yellowtail flounder--Cape Cod/Gulf of Maine, 19 years;

  4.  Yellowtail flounder--Georges Bank, 26 years;

  5.  Thorny skate--Gulf of Maine, 25 years; and

  6.  Acadian redfish (which rebuilt in 8 years but was scheduled for 
        over 10 years).
Climate Impacts on Fisheries
    Question 2. In your written testimony you indicate that the 
President's Budget request for Fiscal Year 2014 includes a $10 million 
increase for NOAA to fund research on the impacts of climate on 
fisheries, with a focus on Northeast groundfish. What does NOAA hope to 
accomplish by undertaking this research and how could that help improve 
stock assessments and ultimately benefit fishermen?
    Answer. Dramatic changes in environmental conditions have been 
observed on the Northeast U.S. Continental Shelf over the last several 
decades. In 2012, the highest water temperature levels in over 150 
years of continuous observation were recorded. This temperature pattern 
extended to the subarctic region and has been linked to broad-scale 
climate change. NOAA's Northeast Fisheries Science Center has been 
monitoring changes in environmental and climate conditions and related 
ecological trends over the last several decades.\6\ Changes in the 
distribution patterns of fish and shellfish populations in relation to 
these changes and other anthropogenic factors have been documented. 
Earlier analyses at the Northeast Fisheries Science Center demonstrated 
that up to two thirds of fish populations tracked by research vessel 
surveys moved further north, to deeper water, or both. A paper just 
released in the journal Science \7\ has confirmed and extended these 
results for the northeast and examined patterns throughout North 
America based on surveys conducted by NOAA and the Department of 
Fisheries and Oceans Canada. This work shows that local climate 
conditions, described by the rate and direction of change in 
temperature, can explain a significant part of the observed changes in 
distribution. These local climate conditions differ in different 
regions of the coast and, combined with constraints imposed by 
coastlines and other topographic features, control the direction of 
change. It is important to note, however, that not all species are 
changing distribution, not all changes are northward/poleward, and that 
factors other than climate are contributing to shifting distributions.
---------------------------------------------------------------------------
    \6\ See http://www.nefsc.noaa.gov/ecosys
    \7\ M. L. Pinsky et al., Marine Taxa Track Local Climate Velocities 
Science 341-6151:1239-1242 (2013).
---------------------------------------------------------------------------
    These observations hold important implications for our fishing 
communities. It is critically important for NOAA to work closely with 
stakeholder groups to learn from their observations, to share 
scientific information on observed changes, to attempt to provide 
projections of future change and their consequences for both ecological 
communities and human communities dependent on living marine resources. 
Anticipating and planning for change will be critically important in 
the ability of fishing communities to adapt to these changes in 
fisheries. We are strongly committed to working to make this possible 
and the funding levels provided for assessing the effects of climate 
change on fishery ecosystems (including humans) reflects the urgency 
and importance of this need. We can anticipate that if climate 
projections hold, fishing communities will encounter altered ecosystems 
in the Northeast, with an increasing dominance of species that prefer 
warmer waters. The impacts of ocean acidification will potentially be 
no less important. Good fishermen are good naturalists--they know the 
behavior and ecology of the species they catch. In a climate-changing 
world, the necessary adaptations by fishers will include learning the 
behavior and ecology of a new suite of species. Management systems will 
also have to adapt to the different mix of species encountered in the 
fisheries and issues related to allocation.
    Including climate information in stock assessments will be 
critically important in understanding the synergistic effects of 
fishing and climate change and their implications for setting 
management targets that can account for these changes. Among the 
exploited species in a region, we can anticipate `winners' and `losers' 
with some species becoming more vulnerable to the joint effects of 
fishing and climate while others are expected to increase in abundance. 
Stock assessments that effectively incorporate the role of climate 
change on the basic biology, ecology, and fishery characteristics of 
shifting fish communities will be essential. Ultimately this will 
benefit fishing communities by providing better forecasts of fish stock 
sizes that can be achieved under changed ocean regimes.
    The requested funding in the FY 2014 President's Budget is a 
competitive grant program allowing a concerted effort by academic 
scientists, government researchers, stakeholder groups, and others 
working together to address an increasingly pressing need. The research 
will advance the understanding and projection of the impacts of climate 
variability and change on fishery stocks, their prey availability and 
habitats, and the communities and economies that depend on them and 
enhance the use and application of climate-related data and information 
in fisheries management and decision-making. The rich scientific 
resources in the Northeast will allow substantial progress to be made 
on these fronts. To take the next steps in preparing for change we can 
build on previous climate research and ecosystem programs in the region 
such as the NOAA-NSF GLOBEC and CAMEO Programs and on recent climate-
fisheries modeling conducted with Atlantic cod, Atlantic croaker, and 
cusk. Understanding the nature of expected changes and planning for 
these changes will directly benefit fishing communities. The time 
horizon for planning and adaptation is short given the changes already 
observed but it is potentially feasible.
                                 ______
                                 
     Response to Written Question Submitted by Hon. Marco Rubio to 
                            John K. Bullard
    Question. Should all fisheries managed under the Magnuson-Stevens 
Act be considered sustainable fisheries or should a third-party 
certification be required for a fishery to be deemed ``sustainable?''
    Answer. Federal fishery management under the Magnuson-Stevens Act 
is recognized as one of the strongest fishery management systems in the 
world, and it results in sustainable fisheries. In 2008, the Fisheries 
Centre at the University of British Columbia conducted an extensive 
analysis of the most active fishing countries in the world.\8\ They 
evaluated adherence to the United Nation's Food and Agriculture 
Organization's Code of Conduct for Responsible Fisheries, which covers 
fisheries management, and ranked the U.S. number 2 overall out of 53 
countries, second only to Norway, which has far fewer number and 
diversity of fisheries to manage. U.S. seafood is responsibly harvested 
under a collaborative, science-based management program that works to 
both ensure sustainable fish populations and viable commercial, 
recreational, and subsistence fishing activities. In the U.S., fishery 
managers use the best scientific information available to prevent 
overfishing, actively rebuild depleted stocks, and minimize bycatch and 
impacts to habitat. Our process, based on 10 National Standards of 
sustainability, is designed for continuous improvement, and has helped 
the U.S. become a global leader in sustainable fisheries and seafood.
---------------------------------------------------------------------------
    \8\ Pitcher, T.J., Pramod, G., Kalikoski, D. and Short, K. 2008. 
Safe Conduct? Twelve Years Fishing under the. UN Code. WWF, Gland, 
Switzerland. 66 pp.
---------------------------------------------------------------------------
    In the U.S., our fishermen's commitment to and investment in 
stewardship and sustainable resources has not come without sacrifice. 
We need to build on their commitment and ensure these successes are 
rewarded in the market place. Seafood wholesalers, retailers, vendors, 
and consumers may be unaware of the sustainability of U.S. fisheries. 
NOAA is taking a proactive role in telling the story of the success of 
U.S. fisheries using a variety of approaches to highlight the value, 
quality, and sustainability of U.S. harvested and farmed seafood.
    FishWatch is the Internet-based informational platform the agency 
uses to educate consumers on the responsible management of U.S. 
fisheries under the Magnuson-Stevens Act and the dynamic, science-based 
process behind sustainability. FishWatch delivers neutral, regularly 
updated information on seafood harvested in the United States. This 
tool provides factual information about the biological and ecological 
status of a fishery and lets users draw their own conclusions relative 
to satisfying a purchasing standard, based on science provided by NOAA. 
We continue to improve the content of FishWatch and explore 
opportunities for expanding its reach. To assist sellers, NOAA, at its 
discretion, issues declarative public statements in the form of letters 
in response to requests from harvest sector groups on whether a 
particular fishery is ``sustainably managed'' based on the Magnuson-
Stevens Act National Standards. In those letters, we highlight the fact 
that, in the United States, we have virtually eliminated overfishing 
and are rebuilding overfished stocks to sustainable levels in all 
federally-managed fisheries.
    In response to growing questions and concerns from our constituents 
about third-party certification, last year, we asked our Marine 
Fisheries Federal Advisory Committee (MAFAC) to conduct a policy study 
of what role they believe NOAA should play in seafood certification. 
The Committee is evaluating the pros and cons of an expanded agency 
role, up to and including initiating some form of a consumer-facing 
NOAA ecolabel for U.S. wild-caught and aquaculture products. MAFAC has 
been seeking input from buyers and sellers of seafood and gathering 
information from existing certification organizations to see what an 
appropriate role for NOAA would be. MAFAC was scheduled to meet in 
October 2013 to discuss its policy study, but that meeting was 
postponed due to the government shutdown. MAFAC has not yet rescheduled 
its meeting, and we do not expect a final report of the Committee's 
work until after it is able to meet.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Mark Begich to 
                      C.M. ``Rip'' Cunningham, Jr.
Challenges in New England Fisheries Management
    Question 1. New England's fisheries have faced more challenging 
management issues than other regions.
    For example, New England has eight stocks ``subject to 
overfishing'', and 13 categorized as ``overfished,'' including a number 
of historically and commercially important species such as cod. By 
contrast, the mid-Atlantic has none. What is the Council doing to 
address the historical overfishing of iconic groundfish, such as 
Atlantic cod and the resulting hardship to New England fishermen?
    Answer. The Council has developed measures to eliminate overfishing 
of cod and any other stocks with overfishing including reducing catch 
limits to scientifically recommended levels. In terms of reducing 
hardship to New England fishermen, please see the answer to the next 
question below.
    Ending overfishing on cod stocks has proven exceptionally 
difficult. In part, this has been because of assessment uncertainty but 
an additional factor is that the productivity of our cod stocks has 
declined, perhaps due to warming ocean temperatures. As a result the 
stocks have been slow to recover from years of excessive catches in the 
late 1980s through the 1990s.

    Question 2. Do you feel the Council has done as much as it can to 
help fishermen in New England without undercutting the recovery of the 
fishery?
    Answer. Yes, the Council explored the legally available strategies 
for gradually reducing fishing, improving flexibility and reducing 
costs to fishermen by exploring increased access to closed areas, 
allowing vessels to land smaller fish to reduce the amount of dead 
discarded fish, increasing trip limits for alternative species within 
responsible limits and other ways to give fishermen more flexibility to 
respond to changing circumstances. Many of these recommendations 
required approval by the National Marine Fisheries Service, and not all 
have been implemented in the manner requested by the Council.

    Question 3. What additional steps are needed to ensure we don't end 
up with a fishery collapse similar to the one that occurred in 
Newfoundland, Canada, in the 1990s?
    Answer. Although perhaps not the main cause, scientific error or 
errors in interpreting the science contributed to the collapse of the 
northern cod stocks. In 2010 and 2011, Gulf of Maine cod catch limits 
were based on a stock assessment that greatly overestimated small cod 
entering the population due to a sampling problem. Also a review of 
fish growth rate data revealed that earlier information about growth 
rates used in projections of stock sizes and landings had been 
systematically overestimated. Finally many recent stock assessments 
have overestimated stock size and underestimated fishing mortality 
(known as retrospective error). This also was a problem with 
assessments for the Canadian Northern cod stock before its collapse. 
The causes of retrospective error can include unaccounted for natural 
mortality, fishing mortality or a change in catchability of fish in 
scientific surveys. The amount of the error is virtually impossible to 
predict, and the best that can be done is to adjust projections by the 
level of historic retrospective error, which may be inadequate. The 
Council relies on its Scientific and Statistical Committee, several of 
whom have had experience with similar fisheries science and management 
problems in Canada and other countries, to make catch level 
recommendations taking into consideration such scientific 
uncertainties.
    The Council also is working with the Northeast Fisheries Science 
Center to provide more timely stock assessment advice to inform catch 
limits set by the Council. The Council needs more frequent assessments 
of these critical stocks to make sure that appropriate catch limits are 
set.

    Question 4. New England has been plagued with stock management 
issues more so than other regions, including the nearby mid-Atlantic. 
Why has New England had so many problems? Do you believe that it's 
primarily a management or a biological issue?
    Answer. There are many reasons for the problems with the management 
of some groundfish stocks, but others have responded well to management 
efforts: redfish, Georges Bank haddock, Georges Bank winter flounder, 
Atlantic sea scallops, monkfish, sea herring, whiting or Mid-Atlantic 
species. Many New England groundfish stocks were subject to overfishing 
long before the MSA was adopted. In some cases, overfishing and 
depletion began in the 19th century and while others began with the 
arrival of large foreign fleets in the 1960s. Other factors included 
fishermen's resistance to scientific advice when fishing level 
reductions were recommended, the failure of quota management in the 
early 1980s because of the lack of adequate monitoring and a resistance 
to economic rationalization despite high levels of excess capacity. 
Adding to these problems have been environmental stress on inshore 
stocks caused by development, increased natural mortality on some 
species from protected predators and possible environmental stressors 
such as warming ocean temperatures because Northeast multispecies 
groundfish stocks are at the southern end of their geographical range.
    As a result, I do not believe that the failure to rebuild some 
groundfish stocks can be attributed solely to biology or management. 
The two are inextricably linked. While I agree that some past decisions 
have been faulty, over the last ten years most management decisions 
were consistent with the scientific advice presented to the managers 
and yet stocks have not responded as expected.
Follow-up on Touchstone Report on New England Fishery Management
    Question 5. NOAA completed an independent assessment and review of 
New England fishery management, conducted by the Touchstone Consulting 
Group, ``A Review of the New England Fishery Management Process''. The 
report primarily drew from stakeholder input and examined the 
effectiveness of the New England Fishery Management Council, the 
Northeast Fishery Science Center, and the Northeast Regional Management 
Office. The recommendations made by the report include the need to 
simplify, streamline, and eliminate many redundant management practices 
that are seen by stakeholders as cumbersome and capricious, and the 
formulation of a strategic vision and a balance between conservation 
and service to the industry. In addition, the report noted the need for 
improved quality and timeliness of data. Following the release of the 
report, NOAA announced that it would adopt a series of immediate 
actions and near-term plans to incorporate the report's 
recommendations.
    Chairman Cunningham, your predecessor, John Pappalardo, requested 
that NOAA conduct a comprehensive review of the region's fishery 
management process. In the two years since that report was issued, do 
you feel the agency has taken adequate action on its findings? In your 
view, have any needed reforms fallen through the cracks?
    Answer. Although there has been progress on many of the 
recommendations in the report and new NOAA/NMFS leadership in the 
region is committed to improving collaboration with the Council, 
progress on some important recommendations is slow. These include 
reducing the redundancy created by NEPA and the MSA and improving early 
guidance from the NMFS regional office on the development of management 
actions by the Council. On the positive side, NOAA/NMFS and the Council 
recognize the importance of these issues and continue working 
diligently to make progress on them. In terms of involving 
stakeholders, the Council has taken steps to improve participation by 
and transparency for stakeholders by formally including participation 
of advisory panel chairs in committee meetings, convening a workshop 
with all advisors and the SSC on ABC control rules, initiating a 
project to improve our website for all stakeholders and the public, and 
holding collaborative meetings at the Committee level to tackle 
problematic issues.
Improvements to Scientific-Based Management
    Question 6. The MSRA added significant provisions that were 
groundbreaking, elevating the role science plays in the fishery 
management process. The resulting data and modeling needs were known to 
be costly, and following enactment, Congress provided additional 
funding to NMFS to implement these new requirements. Since that time, 
however, funding for NMFS has steadily decreased, and the President's 
request for NMFS in FY 2014 would continue that trend. It is an open 
question whether current funding levels for NMFS are sufficient to 
achieve the management goals envisioned by the MSRA.
    How is the New England Fishery Management Council working with 
scientists to strengthen fisheries science and how will that help the 
Council establish accurate and timely catch limits and accountability 
measures with buy-in from the industry?
    Answer. Following the 2006 reauthorization of the MSA, the Council 
has implemented annual catch limits (ACLs) for all managed stocks in 
compliance with the acceptable biological catch (ABC) levels 
recommended by its Scientific and Statistical Committee. Additionally 
ACLs for all stocks must meet the approval NOAA/NMFS. Also as mentioned 
in response to question 3, the Council also is working with the 
Northeast Fisheries Science Center to provide more timely stock 
assessment advice to inform catch limits set by the Council.
    The most important step that can be taken to achieve industry buy-
in is to identify catch limits that actually meet mortality targets. 
For many groundfish stocks this has proven elusive. Industry loses 
confidence in the science when catches remain below quotas but 
overfishing continues. We are working with the Northeast Fisheries 
Science Center to address this problem.

    Question 7. How can additional cooperative research successfully 
support science-based fisheries management?
    Answer. There are many areas in which cooperative research is 
needed to support science-based fisheries management. Cooperative 
research is essential for supplementing or providing information on 
fish stock distribution under changing environmental conditions, 
bycatch minimization and more detailed abundance information than can 
be provided by current fishery-independent scientific sampling. 
Finally, industry-based surveys can supplement our understanding of 
population trends and build confidence in government surveys.

    Question 8. Current funding levels only allow the Northeast 
Fisheries Science Center to conduct annual updates for about ten to 
twelve stocks, resulting in individual assessments that are often 
separated by four or five years. How critical is it that we dedicate 
more resources for data collection and improved and more frequent stock 
assessments, particularly in the context of addressing the groundfish 
fishery challenges in the medium term?
    Answer. It is extremely important to have more frequent stock 
assessments. The Council's Groundfish Plan Development Team and SSC 
have evaluated the performance of groundfish stock projections and have 
found them to be unreliable for setting catch limits if based on stock 
assessments more than about two years old. If recent assessments are 
not available, projections tend to rely heavily on models to predict 
new recruitment and natural mortality rather than actual observations. 
As a result they may include a lot of ``paper fish''--fish that are 
projected to be available based on assumptions--instead of fish that 
have been observed in the catch or through scientific sampling. 
Additionally, it is virtually impossible to predict changes in natural 
mortality due to predation and other causes.
                                 ______
                                 
 Response to Written Questions Submitted by Hon. Richard Blumenthal to 
                      C.M. ``Rip'' Cunningham, Jr.
Northern Edge, Georges Bank Closed Area II
    Question 1. The ``Northern Edge'' of Georges Bank Closed Area II is 
home to tens of millions of pounds of scallops, but it has been closed 
to scallop fishing for nearly twenty years. Georges Bank haddock are 
fully rebuilt and highly abundant along the ``Northern Edge.'' Scallops 
and haddock can be harvested in this area with less potential for by-
catch of rebuilding species such as Georges Bank yellowtail flounder. 
High catch rates of target species, such as scallops and haddock, also 
allow fisherman to spend less time with their fishing gear deployed on 
the ocean bottom. What progress is the New England Council making to 
open the ``Northern Edge'' to controlled fishing for abundant species 
such as haddock and scallops?
    Answer. The Council is developing an amendment to update essential 
fish habitat (EFH) designations, EFH protection areas and dedicated 
habitat research areas for all of its fishery management plans and 
expects to approve a draft amendment in late 2013 or very early in 
2014. The amendment will consider allowing more access for controlled 
fishing for abundant species such as haddock and scallops on the 
Northern Edge of Georges Bank while still protecting EFH. The need for 
increased access will be balanced against the statutory requirement to 
minimize the adverse effects of fishing on essential fish habitat.

    Question 2. What changes can be made in the law to help fishery 
management be able to react more quickly to changing resource 
conditions?
    Answer. The Council needs more frequent stock assessments to 
support changes in specifications. Despite using multi-year 
specification cycles, routine assessments often are not available to 
support these actions. The result can be reliance on outdated 
information or infrequent adjustments under changing stock conditions.
    Also, the MSA should exempt routine adjustments in FMP 
specifications (overfishing levels, ABCs, ACLs, annual catch targets 
and other routine measures) from extensive NEPA analysis and provide 
for a streamlined regulatory review process for these actions.

    Question 3. What actions is the Council taking to shift towards 
fishery management that is grounded in ecosystem considerations like 
habitat, the role of forage fish, and changing ocean conditions due to 
climate change and pollution?
    Answer. The Council has been taking into account ecosystems 
considerations in several ways. When stock assessments incorporate 
information about ecosystems considerations, the information affects 
the choice of reference points such as F<INF>MSY</INF>, ABCs, OFLs and 
ACLs. This was the case for a recent assessment for Atlantic sea 
herring, which is an important forage fish for many other fish and 
marine mammals. Secondly, the Council has designated EFH protection 
areas chosen based on their importance to various life stages for a 
variety of fish species. The Council also provides input to the 
Northeast Regional Ocean Council on regional ocean planning issues.
    Additionally, the Council has explored a more formal approach to 
ecosystem based management. Progress has been slow because of several 
high priority challenges that needed to be addressed--such as the 
recent efforts to end overfishing on cod stocks. The Council will 
participate in a climate-change seminar with our neighbors, the Mid-
Atlantic Fishery Management Council, in the spring of 2014.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Edward Markey to 
                      C.M. ``Rip'' Cunningham, Jr.
Ecosystem-Based Management
    Question 1. In your written testimony, you indicate that there are 
some provisions of the Magnuson-Stevens Act that limit the ability to 
manage fisheries using an ecosystems approach. Please provide the 
specific provisions you think hinder ecosystem management and your 
suggestions of how to improve them.
    Answer. National Standard 1 requires each stock to be managed to 
achieve a biomass level (B<INF>MSY</INF>) of providing maximum 
sustainable yield (MSY) on a long-term average basis and that if any 
stock falls below \1/2\ the biomass target (B<INF>MSY</INF>) it must be 
rebuilt within the 10-year time-frame if possible. Scientists have 
informed the Council that this focus on single species management will 
make it very difficult to manage stocks as a group and that it is 
virtually impossible for all managed stocks to be at their target 
levels simultaneously, particularly if there are predator-prey 
interactions between stocks. For example, spiny dogfish may compete 
with cod for food and marine mammals that depend on cod and herring as 
major components of their diet.
    There are also issues with who has the management authority. Under 
EBFM, management should take into consideration large marine ecosystems 
(LME's) as the management areas. Currently, jurisdiction is set up 
under arbitrary regions. If true ecosystems based fisheries management 
is to be put in place, management authority and process issues will 
have to be addressed.
Building Trust in Fisheries Management
    Question 2. Your written testimony also indicates that there has 
been ``an erosion of trust in both the scientific advice and the 
management system'' in recent years and the need for more stock 
assessment advice. How can additional resources for science help the 
New England Fishery Management Council work with scientists to 
strengthen fisheries science and how will that help the Council 
establish accurate and timely catch limits and accountability measures 
with buy-in from the industry?
    Answer. As mentioned above, the Council needs more frequent stock 
assessments to support changes in specifications. Despite using multi-
year specification cycles, routine assessments often are not available 
to support these actions. The result can be reliance on outdated 
information or infrequent adjustments under changing stock conditions.
    Also funding for cooperative research can improve buy-in from 
industry. Industry-based surveys can supplement our understanding of 
population trends and build confidence in government surveys and the 
effectiveness of management measures
Seafood Sustainability Certification
    Question 3. In your written testimony, you discussed the 
possibility of creating a certificate of sustainability through the 
Magnuson-Stevens Act. Is there something that prevents that from 
happening under the current law?
    Answer. Although there is nothing that prevents the creation of a 
certificate of sustainability by NOAA/NMFS under the current law, 
competing demands for scarce resources can prevent this from being a 
priority without more explicit guidance from Congress.
Data Confidentiality
    Question 4. In your written testimony, you indicate that there are 
some data confidentiality provisions of the Magnuson-Stevens Act that 
limit the ability managers and the public to understand the effects of 
management decisions. Can you please provide the specific problematic 
provisions and your suggestion of how to improve them?
    Answer. SEC. 402. (b)(1) (Information Collection; Confidentiality 
of Information) states that ``Any information submitted to the 
Secretary, a State fishery management agency, or a marine fisheries 
commission by any person in compliance with the requirements of this 
Act shall be confidential and shall not be disclosed'' with several 
exceptions including the following:

  (E)   when such information is used by State, Council, or Marine 
        Fisheries Commission employees to verify catch under a limited 
        access program, but only to the extent that such use is 
        consistent with subparagraph (B);

  (F)   when the Secretary has obtained written authorization from the 
        person submitting such information to release such information 
        to persons for reasons not otherwise provided for in this 
        subsection, and such release does not violate other 
        requirements of this Act;

  (G)  when such information is required to be submitted to the 
        Secretary for any determination under a limited access program; 
        . . .

    However, there are no exceptions for making this information public 
when the Council is developing limited access or catch share programs. 
Because catch history is often used to allocate resources in catch 
share systems, permit holders need to know the catches attributed to 
their permits. It is often impossible for current permit holders to 
obtain releases of information from individuals who may have had the 
same permit in the past but who cannot be located by the current permit 
holder. Therefore this provision makes it difficult for the Council to 
develop limited access or catch share management programs or for permit 
holders to support such programs because they cannot determine how 
management alternatives might affect their quota allocations.
    Suggestions that would eliminate this problem are: (1) allow all 
previous catch history information associated with a current permit to 
be released to the current permit holder(s); and (2) allow councils to 
use this information in the development of management programs as long 
as the information is not explicitly identified with a specific 
individual, entity or permit.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Marco Rubio to 
                      C.M. ``Rip'' Cunningham, Jr.
    Correcting Comment by Mr. Cunningham: Senator Rubio asked me a 
question at the hearing about flexibility and I somewhat misspoke in my 
response. The NEFMC does not have a Council position on flexibility. I 
was trying to give the sense of the Council. Flexibility is one of 
those things that means different things to different participants in 
the process. It was the Council sense that focusing on ending 
overfishing was the most important and controllable aspect of the 
management process. My own feeling on the flexibility issue is a little 
more precautionary. Also, I applaud the creative way that the MAFMC was 
able to find flexibility within the current MSA.

    Question 1. As you know, it has become common practice for the 
Administration to divert in their annual budget the Saltonstall-Kennedy 
funds received by NOAA away from the authorized uses and into the 
agency's Operations and Research fund. Do you agree with this diversion 
or do you feel these funds should be used for their intended purposes 
and in addition to the funds appropriated by Congress to NOAA for 
fisheries research?
    Answer. From my perspective and I believe the sentiment of the 
Council, that research support and enhancement is at the top of the 
list to maintain and improve the Council process. With that in mind, it 
would be a real benefit if funding could be found to support the 
regional science centers in their effort to support the Council's 
requirements for real time science to support the mandated Annual Catch 
Limits and Accountability Measures. I realize that we are in a fiscally 
constrained time, so using S-K funding, which has research as one of 
its objectives, seems to me to be reasonable.

    Question 2. How would you prioritize National Standard 1 and 
National Standard 8 against each other? Should one standard have higher 
prioritization?
    Answer. Again, from my perspective, the top priority of the Council 
process should be to rebuild sustainable fisheries resources. Strong 
resources will float all boats (pun intended). On the other hand if the 
Council process fails to maintain sustainable resources, then every 
fishing community will suffer. I would prioritize NS1 at the top.

    Question 3. What policy changes are necessary to provide clarity on 
how the National Environmental Policy Act and the Magnuson-Stevens Act 
align?
    Answer. The eight fishery management councils have tried to work 
with the National Marine Fisheries Service (NMFS) to reduce the overlap 
and differences between the National Environmental Policy Act (NEPA) 
and the Magnuson-Stevens Act (M-S Act) with little success. Management 
actions must be drafted with both laws in mind, and most fishery 
management actions are accompanied by a NEPA document. As one 
illustration of an inconsistency between the two laws, under the M-S 
Act the NMFS can only approve, partially approve, or disapprove a 
management measure submitted by the Council. But to comply with NEPA--
which is as an agency responsibility--NMFS is supposed to consider all 
alternatives in the NEPA document, and is prohibited from making a 
decision before the public process is completed. So NMFS publishes a 
NEPA document that pretends any alternative can be selected when the 
reality is that the agency's choices are constrained by the M-S Act 
language and the Council's choice of a proposed action. There are also 
different requirements for public input between the two laws that can 
cause confusion. The M-S Act should also exempt minor regulatory 
actions from the need for NEPA analyses. Finally, it should be 
clarified that the NMFS cannot add alternatives to a document (under 
the excuse that NEPA requires additional alternatives) that have not 
been developed by the Council.

    Question 4. Should all fisheries managed under the Magnuson-Stevens 
Act be considered sustainable fisheries or should a third-party 
certification be required for a fishery to be deemed ``sustainable?''
    Answer. As outlined in my testimony, the NEFMC does not see any 
need for third-party certification. MSA has the most stringent 
management protocols of any country. A certification process should be 
set up under NOAA that would put all U.S. fisheries on an equal 
footing.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Mark Begich to 
                           Richard B. Robins
    Question 1. What role have the 2006 amendments to the Magnuson-
Stevens Act, specifically changes to require the fishery management 
councils to follow the advice of scientists and to establish 
accountability measures when setting annual catch limits, played in 
helping end overfishing, rebuilding depleted fish populations, and 
moving America's fisheries on a path toward sustainability?
    Answer. On a national level, the 2006 reauthorization of the 
Magnuson-Stevens Act (MSA) has contributed to significant progress 
toward ending overfishing and rebuilding depleted stocks. The Mid-
Atlantic Council has long considered scientific advice to be the 
cornerstone of effective fisheries management. The requirements of the 
2006 Amendment required significant changes for some of the regional 
councils, particularly those that had been using input controls as 
their primary form of management. In contrast, the Mid-Atlantic Council 
had already implemented science-based catch level recommendations 
through enforcement of hard quotas (which effectively controlled 
fishing mortality) in response to the requirement of the 1996 
Sustainable Fisheries Act (SFA) to rebuild overfished fisheries.
    By the time the 2006 MSA reauthorization was approved by Congress, 
the Mid-Atlantic Council had already ended overfishing and established 
rebuilding plans for all of its fisheries prior to the 2006 
reauthorization. As a result, bringing MAFMC FMPs into compliance with 
the 2006 MSA reauthorization required only minimal changes with respect 
to implementing Annual Catch Limits (ACLs) and (AMs) in Mid-Atlantic 
fisheries. The Mid-Atlantic Council became the first regional fishery 
management Council in the Nation to approve measures to comply with the 
MSRA through adoption of its Omnibus ACL/AM Amendment in August 2010. 
This amendment codified a framework for the specification of ACLs and 
AMs and established a policy which provides guidance on the 
specification of annual catch limits with regard to the risk of 
overfishing.
    It is important to note that rebuilding successes since 2006 should 
not all be attributed to the stricter requirements of the 2006 
reauthorization (just as failures since 2006 should not be attributed 
to failure to comply with the requirements of the Amendment). Like the 
Mid-Atlantic, a number of Councils began working to rebuild overfished 
stocks following the passage of the 1996 Sustainable Fisheries Act, and 
rebuilding was already well underway for many U.S. fisheries. However, 
many of our Nation's fisheries had already become severely depleted by 
that point, and rebuilding can be a slow process that has been 
confounded in some U.S. fisheries by environmental conditions and other 
anthropogenic factors that councils are unable to control.

    Question 2. What benefits have Mid-Atlantic fishermen and their 
communities enjoyed from ending overfishing and rebuilding fishery 
stocks?
    Answer. The benefits of ending overfishing and rebuilding 
overfished stocks are generally manifested as greater stock 
productivity and increased sustainable harvests, which typically result 
in greater economic productivity and social stability in fishing 
communities. For example, summer flounder stock rebuilding has allowed 
for increases in allowable catches with attendant social and economic 
benefits being accrued by the commercial sector. Likewise, the 
recreational sector of this fishery has enjoyed greater access to the 
resource via higher bag limits, greater retention of their catch 
through size limit adjustments and longer fishing seasons.
    In addition to the obvious social and economic benefits of 
increased quotas when stocks are rebuilt, there are other more subtle 
benefits to rebuilding fish stocks. First, fully rebuilt stocks are 
generally comprised of a greater proportion of larger, older fish 
relative to an overfished stock. This tends to increase the 
reproductive capacity of the stock and also contributes to greater 
stock stability since healthy stocks are less dependent on incoming 
annual recruitment events to sustain harvests.
    Second, healthy fisheries tend to be more resilient to the stresses 
of temporary overfishing and environmental changes. This means that a 
healthy stock is less likely to be significantly altered if the annual 
catch limit (ACL) is set too high during a given year due to an 
inaccurate estimation of stock size. The resilience of our fisheries to 
environmental stressors will become increasingly important as we face 
new challenges related to global climate change, such as ocean warming 
and acidification.

    Question 3. How can we better support fishermen struggling to make 
ends meet as depleted stocks rebuild?
    Answer. By nature of reducing total catch, all rebuilding plans 
contribute to negative short-term economic impacts. The councils 
recognize that a reasonably short rebuilding time is desirable because 
healthy stocks provide higher catch levels than stocks that are 
overfished, thus providing greater long-term socio-economic benefits. 
However, there are always tradeoffs between biological, social, and 
economic outcomes, and the councils need flexibility to evaluate the 
tradeoffs associated with a wider range of timelines. However, the 
councils are optimally positioned to develop strategies that will 
rebuild depleted fisheries while minimizing adverse economic impacts. 
Several modifications to the Magnuson-Stevens Act would help the 
councils to support fishing communities more effectively:

  1.  Establish less prescriptive rebuilding timeline requirements. 
        Giving the councils slightly more flexibility in the 
        development of rebuilding plans would enable more thorough 
        evaluations of the social, economic, and biological tradeoffs 
        associated with a range of rebuilding plans and timelines. The 
        10-year rebuilding timeline often precludes any meaningful 
        evaluation of social and economic consequences associated with 
        an appropriate range of rebuilding timelines, and results in an 
        inconsistency in the treatment of species that can be rebuild 
        in less than 10 years relative to those that cannot be rebuilt 
        within that period. This inconsistency should be resolved by 
        establishing the maximum rebuilding timeline as 
        T<INF>MIN </INF>plus one mean generation time. Additionally, 
        councils should have additional flexibility in revising 
        rebuilding rates and dates when environmental conditions or 
        biological performance (e.g., recruitment) impede a stock's 
        rebuilding trajectory. These measures could potentially allow 
        the councils to mitigate some of the social and economic 
        consequences of rebuilding without jeopardizing the ability of 
        a stock to rebuild to its biomass target.

      Successful management of U.S. fisheries should not be defined 
        narrowly in biological metrics. On the contrary, our fisheries 
        should be managed for biological, ecological, social, and 
        economic success. This could be enhanced during stock 
        rebuilding by providing carefully targeted flexibility and by 
        more effectively incorporating social and economic objectives 
        in stock rebuilding plans. Successful rebuilding in biological 
        terms does not guarantee successful social or economic outcomes 
        at the end of a rebuilding plan, particularly if that 
        rebuilding plan does not address the economic problems that are 
        often attendant at the outset of a rebuilding plan when a stock 
        is depleted.

  2.  Promote regulatory stability. For U.S. fisheries to be 
        productive, commercial and recreational fishing operations need 
        to be managed for enhanced stability and predictability to the 
        extent practicable. Frequent changes in regulations create 
        significant challenges, and often result in economic losses, 
        for commercial and for-hire fishermen in the Mid-Atlantic 
        region. Quotas must ultimately be aligned with stock 
        assessments, so some adverse outcomes are unavoidable in 
        certain fisheries that may have experienced chronic overfishing 
        and overcapacity. However, limited flexibility to eliminate 
        overfishing under certain circumstances over a multi-year 
        period would allow the councils to substantially mitigate 
        short-term social and economic dislocation in our managed 
        fisheries. This could be particularly important when a stock 
        assessment changes dramatically. Examples of stocks that were 
        rebuilt prior under these types of approaches prior to the 2006 
        reauthorization include King mackerel and Spanish mackerel in 
        the South Atlantic, which were rebuilt within a generation time 
        and still allowed a viable fishery to operate.

  3.  Establish and fund a national seafood certification for U.S. 
        fisheries managed under MSA. The U.S. has one of the strongest 
        fishery management programs in the world, and several councils 
        have voted to support establishing a U.S. fisheries 
        sustainability certification in the next reauthorization. In a 
        market transformed by globalization, the sustainability of U.S. 
        fisheries needs to be affirmed, and U.S. fishermen and 
        processors should be able to identify and label their products 
        as fish that were harvested responsibly and sustainably under 
        the gold standards of the Magnuson-Stevens Act. A public 
        affirmation of the core strengths of the U.S. management system 
        would be an important step to facilitate education, awareness, 
        and marketing for the benefit of U.S. fisheries.

    Question 4. How is the Mid-Atlantic Council working with scientists 
to strengthen fisheries science and how will that help the Council 
establish accurate and timely catch limits and accountability measures 
with buy-in from the industry?
    Answer. The MAFMC works closely with scientists at the Northeast 
Fisheries Science Center (NEFSC) to continually improve the stock 
assessments which form the basis for setting catch limits for Council 
managed fisheries. This process begins with the identification of 
research needs and data gaps during the specification of ABC by the SSC 
and the subsequent specification of catch limits and accountability 
measures by the Council. The Council then works with the SSC to 
prioritize research needs to identify the most critical research needs 
across our portfolio of managed species within the Councils five year 
research plan. These research needs are then forwarded to the NEFSC for 
consideration within the Center's research prioritization and planning 
process. In many cases, research and analytical questions are 
incorporated into the terms of reference for stock assessments and are 
addressed directly when stock assessments are being conducted by the 
appropriate assessment working groups.
    In addition to working with NEFSC scientists, the Council 
implemented an innovative Research Set Aside (RSA) Program in 2002 
whereby the Council sets aside up to 3 percent of the annual quota for 
each species to fund scientific research. The intent of the RSA program 
is to conduct research projects cooperatively with the fishing industry 
which directly address the research needs identified within the 
Councils' five year research plan. Since its inception, the Council has 
funded in excess of 10 million dollars in research which addressed a 
wide range of research topics pertinent to Council related assessment 
and management needs. The program has recently focused on funding the 
Northeast Assessment and Monitoring Program (NEAMAP) which is a fishery 
independent trawl survey designed to provide information on abundance 
and distribution of fish stocks in the inshore waters of the Mid-
Atlantic not covered by the NEFSC trawl survey program. While the 
NEAMAP time series is relatively short compared to other long term 
surveys, the Council expects the NEAMAP data to be fully incorporated 
into most of the stock assessments for Mid-Atlantic species. The 
information from this survey has already been incorporated into several 
stock assessment analyses and was utilized in assessing the status of 
the Atlantic sturgeon population along the Atlantic Coast.
    The NEAMAP survey is unique within the Mid-Atlantic since it is 
conducted on a commercial fishing vessel operated by a commercial 
fishing captain and crew. The onboard team of scientists from the 
Virginia Institute of Marine Science (VIMS) monitor and collect the 
survey data. This example of collaborative survey work enjoys an 
exceptionally high degree of confidence from the fishing industry and 
should serve as a model for cooperative research that should be 
expanded strategically in the Northeast region of the U.S.
    In addition, the Council has directly funded a Management Strategy 
Evaluation study of ABC control rule performance which was conducted by 
several SSC members through the University of Maryland. This work 
evaluated the performance of a range of ABC control rules using 
simulations of known or ``meta populations'' for both data ``rich'' and 
data ``poor'' species. Additional funding to continue this work was 
recently procured though the NMFS Office of S&T under the National 
Stock Assessment Improvement Program. The expected benefits of this 
research include an evaluation of the performance of various ABC 
control rules under a range of stock conditions and information levels 
which will directly inform the Councils current ACL/AM process recently 
implemented to comply with the 2006 reauthorization of MSA.

    Question 5. How can additional cooperative research successfully 
support science-based fisheries management?
    Answer. Cooperative research programs provide a means to improve 
the accuracy of stock assessments while engaging stakeholders in the 
research process. Despite the importance of these programs, many of 
them face inadequate or uncertain funding from year to year. The 
Northeast Cooperative Research Program should be expanded to include 
additional funds for more research projects pertinent to the assessment 
and management of Mid-Atlantic fish stocks.
    The Mid-Atlantic Council has funded the Northeast Area Monitoring 
and Assessment Program (NEAMAP) through its Research Set-Aside (RSA) 
program for the past 6 years, but the allocation of these funds solely 
to NEAMAP prevents us from funding other projects that address our 
annual research priorities. NEAMAP has become a core monitoring program 
in the Mid-Atlantic, and procuring dedicated, long-term funding from 
Federal sources to ensure that the NEAMAP Program continues into the 
future is the Council's top priority in terms of funding scientific 
research. Saltonstall-Kennedy funds should be dedicated to permanently 
secure the future of the NEAMAP survey and to expand cooperative 
surveys and research strategically in the Mid-Atlantic. If long-term 
dedicated funding is secured for the NEAMAP sampling program, 
additional RSA funds could be made available to conduct fishery 
research in other topic areas identified in the Council's five year 
research plan and in many stock assessments for Mid-Atlantic species 
Increased funding of existing cooperative research would help to 
address important practical research and management questions 
identified in our FMPs.

    Question 6. Current funding levels result in individual assessments 
that are often separated by four or five years. The status of a number 
of Mid-Atlantic species cannot be determined because out outdated 
information. How critical is it we dedicate more resources for data 
collection and improved and more frequent stock assessments?
    Answer. Analytical stock assessments form the foundation for the 
proper specification of ACLs and ultimately determine the success or 
failure of our Federal fishery conservation and management system. 
Setting appropriate ACLs and AMs is challenging, if not impossible, 
without adequate data, yet many federally managed fisheries continue to 
be defined as ``data-poor.'' Improvement of stock assessments, 
particularly for data-poor stocks, should be the highest research 
priority of the National Marine Fisheries Service in both the Northeast 
and throughout the U.S.
    The new ACL/AM requirements have placed a major burden on the NEFSC 
to provide the data and analysis needed to set appropriate catch levels 
and track the performance of fisheries through time as required under 
MSRA. In the Northeast region, the demands for stock assessments have 
exceeded the NEFSC's ability to provide high-quality stock assessments 
at the frequency needed to manage our fisheries as required under the 
current mandates of the Magnuson-Stevens Act.
    As noted earlier, the Council implemented a risk policy with 
respect to the implementation of its Acceptable Biological Catch (ABC) 
control rules. The risk policy provides a probabilistic framework to 
set ABC levels, and ultimately ACLs, relative to both the status of the 
stock and the level of scientific uncertainty associated with an 
assessment. Under this policy, the Council adopts more conservative 
harvest levels if stock levels decline and/or if scientific uncertainty 
increases. Allowable harvest levels--and hence, benefits to society--
could be set at higher levels if the stocks we manage were assessed 
with a higher degree of frequency and certainty. Unfortunately, the 
information and assessment levels of roughly half of the stocks are 
insufficient for management under this probabilistic framework, meaning 
that the SSC and Council must use ad hoc methods of setting ABCs for 
those species, which is likely resulting in lost yield. Quotas set 
under these ad hoc methods for data-poor stocks are also less 
predictable and have resulted in a loss of stability and yield in some 
of our most important fisheries. Major improvements in the assessment 
of Mid-Atlantic stocks could be accomplished through increased funding 
for data collection and analysis to support better and more frequent 
stock assessments by the NEFSC.
    Another critical issue relative to stock assessments is the lack of 
public trust in the scientific data used to support management 
decisions. Stakeholder engagement is a critical element of effective 
fishery management, and improving the overall scientific foundation of 
our management system will require that particular attention be paid to 
addressing the lack of public trust in stock assessments through 
clearer communication, greater transparency, and an increased 
stakeholder involvement in data collection.

    Question 7. Can you describe the Mid-Atlantic Fishery Management 
Council's plan to adopt ``ecosystem approaches'' to fishery management?
    Answer. For nearly a decade the Council has been steadily moving 
toward a more ecosystem-based approach to managing Mid-Atlantic 
fisheries. The Council developed its first single-species fishery 
management plan for Atlantic surfclams in 1977. In the following years, 
11 more species were added to the Mid-Atlantic Council's authority. 
Through periodic amendments, several of the Council's FMPs have evolved 
to become multi-species plans. The Council currently manages its 12 
species under 6 management plans. Although the multi-species plans 
allow the Council to take into account similarities and interactions 
among closely related fisheries, the Council also faces an array of 
broad ecosystem level issues that require a more integrated, 
comprehensive management approach. This issue has been expressed as a 
top priority among all stakeholder groups, including environmental 
groups and commercial and recreational fishermen.
    In October 2011, the Council hosted the Fourth National Scientific 
and Statistical Committee Workshop, which examined the various 
approaches being taken by the Councils nationwide relative to ecosystem 
considerations in fisheries management. Following the workshop, the 
Council voted to move forward with development of an Ecosystem-Approach 
to Fisheries Management (EAFM) Guidance Document. This approach--which 
the Council has described as evolutionary rather than revolutionary--
recognizes the biological, economic, social, and physical interactions 
among the components of ecosystems and attempts to manage fisheries to 
achieve optimum yield taking those interactions into account.
    The purpose of the EAFM guidance document is to enhance the 
Council's species-specific management programs with more ecosystem 
science, broader ecosystem considerations, and coordination of 
management across FMPs and the relevant ecosystems. The EAFM guidance 
document will focus on four key areas relative to ecosystem 
considerations:

  1.  Biological and ecological interactions, including management of 
        prey species and food web dynamics;

  2.  Ecosystem level habitat considerations-taking an ecosystem 
        approach to essential fish habitat designation/protection and 
        quantitatively linking habitat science and conservation to 
        fishery outcomes;

  3.  Systematic oceanographic change-identification of key factors 
        affecting the Mid-Atlantic Bight ecosystem including warming, 
        acidification, circulation patterns, etc.; and

  4.  Social and economic considerations--integration of social and 
        economic analyses into OY specifications.

    The EAFM guidance document will provide a framework for considering 
policy choices and trade-offs as they affect FMP species and the 
broader ecosystems. Rather than drastically change the Council's 
management approach, the final product will serve as a non-regulatory 
umbrella document to guide policy decisions as the Council transitions 
from single-species management toward an ecosystem-based approach 
(i.e., the Council envisions a practical roadmap to ecosystem 
approaches to fishery management).

    Question 8. What is the Mid-Atlantic Fishery Management Council 
doing to protect critical fish habitats like deep sea corals and what 
more should be done to protect fish habitat?
    Answer. Habitat conservation is an important component of the 
Council's Ecosystem and Ocean Planning program. Healthy fish habitat is 
essential to sustainable, productive fisheries. Marine fish depend on 
healthy habitats for survival, and many species require specific types 
of habitats for spawning, breeding, feeding, and growth. The 1996 
reauthorization of the Magnuson-Stevens Fishery Conservation and 
Management Act (MSA) set forth new provisions which allowed for greater 
involvement of the regional fishery management councils in the 
identification and protection of important fish habitats. In 
particular, it required the Councils to designate Essential Fish 
Habitat (EFH) for all managed species and gave the Council authority to 
designate Habitat Areas of Particular Concerns (HAPCs) for each 
species.
    In addition to identifying critical fish habitats for protection, 
the Council is also responsible for ensuring that management measures 
minimize, to the extent practicable, any adverse impacts to essential 
fish habitat by fishing gears. The Mid-Atlantic Council has used a 
variety of management measures effectively to minimize the impacts of 
fishing activities. These measures include restrictive harvest limits, 
gear-restricted areas for small-mesh fisheries, and closed areas in 
selected canyons.
Deep Sea Corals
    The Council is currently developing an amendment to protect deep-
sea corals from damage by bottom-tending fishing gear. Deep-sea corals 
provide habitat for many commercially and recreationally important 
species in the Mid-Atlantic. Generally fragile and slow-growing, deep 
sea corals are particularly vulnerable to physical disturbances. 
Several management measures are already in place to protect deep sea 
corals, including Tilefish Gear-Restricted Areas (GRAs) in four canyons 
(Lydonia, Oceanographer, Veatch, and Norfolk) and closures of two 
canyons (Lydonia and Oceanographer Canyons) to the squid, mackerel, and 
butterfish fishery.
    In August 2012 the Council initiated Amendment 16 to the Atlantic 
Mackerel, Squid, and Butterfish Fishery Management Plan to provide 
further protection to deep sea corals from fishing gear. The amendment 
will consider management measures to protect areas that are known or 
highly likely to contain deep-sea corals. Areas being considered for 
protection were initially identified during the development of the New 
England Fishery Management Council's Omnibus Essential Fish Habitat 
(EFH) Amendment. The draft amendment currently contains three groups of 
alternatives, including options for spatial designations of deep sea 
coral zones, options for management measures to be applied to such 
zones, and options for potential modifications to these management 
measures. In addition, a Memorandum of Understanding (MOU) was 
developed between the Mid-Atlantic, New England, and South Atlantic 
Fishery Management Councils regarding areas of jurisdiction and broad-
scale coordination of management measures for deep sea corals.
Integration with Ecosystem-Approach to Fisheries Management
    Since ecosystem based management involves the adoption of ``place-
based'' management strategies, habitat science will play a key role in 
the Council's ecosystem based management program. The Council will 
continue to pursue traditional approaches to addressing habitat issues, 
including spatial/temporal mapping of habitat to inform the definition 
of ecological production units for management consideration. The 
Council has also endorsed the development of habitat assessments as 
part of the development of an overall assessment of the state of Mid-
Atlantic ecosystems. In addition, the Council is pursing the 
incorporation of regional habitat assessments into contemporary stock 
assessments, both at the single-species and ecosystem levels.
    Habitat considerations will also be important throughout the 
anticipated future offshore wind energy development in the Mid-
Atlantic, which is expected to overlap significantly with the region's 
fisheries. The Council has actively engaged with MARCO, the Mid-
Atlantic Regional Planning Body, and BOEM, and has consistently 
supported the incorporation of fisheries resources, uses, and habitats 
in the offshore planning process. The Council anticipates that it will 
continue to play an active role on the issue of ensuring the future 
protection and health of fisheries habitat relative to offshore ocean 
planning.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Marco Rubio to 
                           Richard B. Robins
    Question 1. As you know, it has become common practice for the 
Administration to divert in their annual budget the Saltonstall-Kennedy 
funds received by NOAA away from the authorized uses and into the 
agency's Operations and Research fund. Do you agree with this diversion 
or do you feel these funds should be used for their intended purposes 
and in addition to the funds appropriated by Congress to NOAA for 
fisheries research?
    Answer. I am strongly supportive of the current objective of the 
Saltonstall-Kennedy Act, which is to address the needs of fishing 
communities in optimizing economic benefits within the context of 
rebuilding and maintaining sustainable fisheries and dealing with the 
impacts of conservation and management measures.
    In the Mid-Atlantic region, the need for this program is evidenced 
by the large number of fishing communities struggling to regain 
stability well after stocks have been rebuilt and quotas have increased 
substantially. Successful, sustainable fisheries management under the 
current science-based requirements of the Magnuson-Stevens Act depends 
on having adequate surveys and stock assessments. The S-K Program can 
effectively address these types of challenges by involving stakeholders 
in fisheries research and development projects. In addition to enabling 
stakeholders to make valuable scientific contributions to fisheries 
management, S-K funded projects also have potential to strengthen 
relationships between the industry, scientists, and managers.
    Unfortunately, a large portion of S-K funds have not been dispersed 
for their intended purpose, and despite several amendments to the S-K 
Act, the program has not achieved its potential. While I am not in a 
position to speak to the utility of the specific operational and 
research activities being funded at NOAA with S-K funds, diverting 
money from S-K to fund NOAA operations lacks transparency and may 
prevent the S-K Program from providing support to the communities that 
need it the most. Steps should be taken to increase accountability and 
ensure that S-K funds are used for their intended purpose.
    In addition to addressing administrative issues within the S-K 
Program, I also recommend that Congress consider designating a portion 
of the S-K funds for the Regional Fishery Management Councils to direct 
towards cooperative research projects to address the Councils' research 
priorities. In the Mid-Atlantic region, the Northeast Assessment and 
Monitoring Program (NEAMAP) would be an ideal candidate for long-term 
S-K funding. NEAMAP is a fishery independent trawl survey designed to 
provide information on abundance and distribution of fish stocks in the 
inshore waters of the Mid-Atlantic not covered by the NEFSC trawl 
survey program. The information from this survey has already been 
incorporated into several stock assessment analyses and has become a 
core component of our fisheries monitoring programs in the Northeast 
region.
    The NEAMAP survey is unique within the Mid-Atlantic because it is 
conducted on a commercial fishing vessel operated by a commercial 
fishing captain and crew. The onboard team of scientists from the 
Virginia Institute of Marine Science (VIMS) monitor and collect the 
survey data. This example of collaborative survey work enjoys an 
exceptionally high degree of confidence from the fishing industry and 
should be used as a model for cooperative research throughout the 
entire Northeast region of the U.S. Unfortunately, funding has been a 
major constraint for NEAMAP. For the six years since NEAMAP was 
established, the Council's Research Set-Aside (RSA) program has been 
the program's sole source of funding. The Council established the RSA 
program in 2002 to fund research projects cooperatively with the 
fishing industry which directly address the science needs identified 
within the Councils' five year research plan. The Council's commitment 
to funding NEAMAP has prevented us from funding other, potentially 
valuable, research projects.
    In order to ensure the continued operation of NEAMAP, and to enable 
the Council to continue funding other research projects, I strongly 
encourage members of Congress to consider either (a) amending the S-K 
Act to designate a portion of funds for long-term research projects 
with proven potential, or (b) amending the Magnuson-Stevens Act to 
establish guaranteed funding sources for long-term collaborative and 
cooperative research projects.

    Question 2. Would you please elaborate on the Council's harvest 
control rule and associated risk policy? What is the benefit of 
harmonizing this policy across all federally managed fisheries under 
the jurisdiction of the Council?
    Answer. In 2012, the Council adopted a formalized harvest control 
rule and associated risk policy to guide the specification of 
Acceptable Biological Catch (ABC) limits for Mid-Atlantic stocks. The 
MAFMC regards its risk policy as way to specify the Council's tolerance 
for overfishing. The determination of P* is a policy decision to be 
made by the Council and informed by the SSC. The SSC applies the 
Council's risk policy and associated harvest control rules when making 
ABC recommendations to the Council.
    The risk policy and associated harvest control rules are expressed 
in terms of P*, which represents the probability of overfishing as a 
function of stock health in relation to relative biomass (i.e., current 
biomass/biomass target) (reference Figure 1.) The policy enables the 
Council to set quotas at higher levels of risk when stocks are at or 
above their biomass targets and progressively limits risk as stocks 
decline below their biomass targets.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Figure 1. MAFMC Risk Policy and Harvest Control Rule

    Implementation of the risk policy and harvest control rule is a 
two-step process. First the SSC assigns each stock assessment to one of 
four levels. The stock assessment levels are summarized as follows:

        Level 1--``Ideal assessment'': ABC is based on the distribution 
        of the OFL as provided from the assessment model; P* is based 
        on the Council's risk policy.

        Level 2--``Preferred assessment'': uses an OFL distribution 
        proxy provided from the assessment workgroup; P* is based on 
        the Council's risk policy.

        Level 3--``Acceptable assessment'': does not reliably 
        incorporate scientific uncertainty; uses an OFL distribution 
        proxy (with a proxy CV), P* is based on the Council's risk 
        policy or a default value of 75 percent of FMSY to set ABC.

        Level 4--``Unreliable assessment'': lacks data on absolute 
        abundance and fishing mortality rates; no reliable OFL proxy 
        available; ABC set based on ad hoc, alternative approaches 
        (e.g., adjustment to long-term catch history or survey index 
        values).

    In Levels 1 through 3, the SSC applies the Council's P* (risk 
policy/harvest control rule) to the distribution of the overfishing 
limit (OFL) to identify the acceptable biological catch (ABC.) This 
process works well for assessments that have biological reference 
points. The policy strikes an effective balance between maximizing 
yields in fisheries while accounting for the uncertainty that is 
inherent in fisheries stock assessments. For example, in Level 3 stocks 
that are at or above their biomass targets, quotas are set at 81 
percent of the overfishing limit.
    The levels are designed to incentivize improvements in data quality 
and stock assessments. The distribution in a level 3 stock is typically 
based on a lognormal distribution of the OFL, using a coefficient of 
variation (CV) of 100 percent. This results in a relatively wide 
distribution of the OFL value, whereas a Level 1 stock assessment would 
be expected to have a tighter distribution of the OFL, resulting in a 
smaller buffer between OFL and ABC. All of the Council's stocks are 
currently classified as Level 3 or Level 4 assessments.
    In Levels 1 through 3, the ABC's are derived directly from the 
Council's P* as it is applied to the stock assessment's estimate of 
stock biomass. This results in a transparent, consistent, and 
predictable approach to accounting for risk and scientific uncertainty. 
By contrast, in Level 4 stocks, the ABC recommendations have been less 
consistent and have destabilized some fisheries.
    Developing and implementing a risk policy has been a challenging 
process for the Council, but it has also yielded a number of positive 
outcomes. Most notably, the risk policy has enabled the Council to 
manage fisheries with greater consistency, which ultimately results in 
greater stability for fishing communities.
    Having a clearly defined risk policy has also provided us with a 
better means of communicating our needs to the science center. The fact 
that we have no Level 1 or Level 2 stocks should be a clear indicator 
of our desire for better data. As part of our recently approved 
strategic plan, we intend to begin working with the science center in 
2014 to develop a path for improving Mid-Atlantic stock assessments.

    Question 3. Should all fisheries managed under the Magnuson-Stevens 
Act be considered sustainable fisheries or should a third-party 
certification be required for a fishery to be deemed ``sustainable?''
    Answer. Yes--all fish and shellfish harvested legally from U.S. 
fisheries managed under the MSA should be considered sustainable. The 
Magnuson-Stevens Act is touted as one of the most effective fishery 
management laws in the world. One of the greatest strengths of the law 
is that it establishes a common standard of sustainability which is 
applied consistently across all U.S. fisheries, and over the last 37 
years, managers, scientists, and fishermen have worked tirelessly to 
bring all U.S. fisheries up to this high standard. Despite our success, 
the social and economic outcomes of rebuilding marine fisheries have 
not been entirely positive for our region's fishing communities. Many 
members of the commercial fishing industry struggle to regain their 
footing in U.S. and international markets even as quotas increase. 
There is also a lingering and sometimes demoralizing sense that U.S. 
fisheries and fishermen are still negatively associated with 
overfishing, despite the high standards that they are already held to 
under the existing requirements of the MSA.
    These problems deserve to be addressed--U.S. fishermen fishing 
under today's Magnuson Act should be standing tall among their 
international peers. In a market transformed by globalization, the 
sustainability of U.S. fisheries needs to be affirmed, and U.S. 
fishermen and processors should be able to identify and label their 
products as fish that were harvested responsibly and sustainably under 
the gold standards of the Magnuson-Stevens Act.
    A U.S. fisherman catching fish in a fishery managed under the MSA 
should not have to make a hefty investment in a third-party 
certification in order to sell his fish to U.S. consumers, much less to 
the vendors of the U.S. Park Service. Within the global market, there 
will always be a need and a role for third-party certifiers for 
sustainability and food safety, but within the U.S. this role should 
largely be filled by the MSA.
    I would be very concerned about shouldering NMFS with an unfunded, 
complicated certification program. Rather, I think the focus should be 
kept simple and should give the agency the authority to confirm that 
fisheries subject to Federal management are sustainably managed, 
consistent with the legal requirements of the Magnuson-Stevens Act. 
This would allow fishermen and processors to label and market their 
product accordingly. Such a designation may or may not satisfy a 
European retail chain, but a public affirmation of the core strengths 
of the U.S. management would be an important step toward better 
marketing of U.S. fisheries products.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Mark Begich to 
                           Captain Nick Muto
    Question 1. Mr. Muto, could you tell us how fishermen participating 
in electronic monitoring pilot programs have responded to the 
technology? How has it impacted their business and interactions with 
enforcement officers?
    Answer. Local fishermen see value in electronic monitoring. It is a 
cost-effective, safe, and unbiased way to implement a comprehensive 
monitoring program.
    Electronic monitoring offers significant cost-savings compared to 
human at-sea monitors in the event that the fleet is required to cover 
this cost. In past years, NOAA has identified money to fund existing 
observer coverage requirements, and they recently announced the 
availability of funds to cover the 2014 fishing year as well. This 
support is appreciated by commercial fishermen who, given the 
disastrous state of the fishery, would be unable to afford to pay for 
observers at an estimated cost of $1,200 per day. However, NOAA's 
ability to fund this program has been decided on an ad-hoc basis, and a 
lack of funds in the future could tie the fleet to the dock.
    Electronic monitoring also addresses the liability and safety 
concerns associated with carrying a human observer on fishing vessels. 
Observers' level of comfort and know-how on boats varies from person to 
person, and an inexperienced observer in rough weather is dangerous to 
himself as well as the captain and crew. This type of situation leaves 
the door open for inconsistent sampling and human error; conversely, 
cameras can be positioned in several locations on a boat to collect 
complete, unbiased catch information without interfering with fishing 
operations.
    For these reasons, the fleet has always supported electronic 
monitoring. Several local fishermen participated in a pilot program 
with NOAA to advance this technology, but we are no closer to 
implementing electronic monitoring than we were when the program began 
a decade ago. This lack of progress has been frustrating for program 
participants and other local fishermen, but we are still hopeful that 
an electronic monitoring program will be put in place in the near 
future.

    Question 2. How would electronic monitoring impact your bottom line 
in needing to balance the ledger?
    Answer. This is a tough time to be a fisherman in New England. 
Groundfish stocks are at an all-time low and fishermen are struggling 
to keep their businesses afloat. Every penny counts. A requirement for 
the fleet to fund observer coverage at roughly $1,200 per day could 
mean the difference between staying afloat and going under for many 
fishing businesses in New England.
    Given the high cost of observer coverage and the uncertainty 
regarding the availability of government funds each year, it is 
important that we pursue an affordable solution that holds the fleet 
accountable. Electronic monitoring could be that solution--it would 
allow for the collection of comprehensive, unbiased data while 
dramatically decreasing costs. This would allow fishermen to fish 
profitably.

    Question 3. Needless to say, New England fishermen have had at 
times strained relationships with enforcement, particularly in the wake 
of revelations of enforcement abuse. How do you think electronic 
monitoring could help repair these relationships?
    Answer. We need effective enforcement. Otherwise, our regulations 
are useless. Comprehensive monitoring, catch accountability, and 
enforcement are all necessary parts of a management system that works 
to rebuild fish stocks and support profitable fisheries. Electronic 
monitoring wouldn't replace enforcement, but it would facilitate 
accountability and streamline what is currently an overcomplicated and 
slow-to-adapt system. This would result in improved relationships 
between fishermen and enforcement, which is in the best interest of the 
fishery.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Mark Begich to 
                         Captain John McMurray
    Question 1. How do the Magnuson-Stevens Act's conservation 
requirements, including the 10-year rebuilding timeline, annual catch 
limits, and accountability measures, benefit industry in the region? 
What is your perception of the Sustainable Fisheries Act?
    Answer. As I made clear in my written and oral testimony, I believe 
the MSA's conservation requirements embodied in the 1996 SFA and 
solidified the 2006 reauthorization, have been, overall, beneficial to 
the fishing industry. The 10 year rebuilding timelines really did force 
the Mid Atlantic Council to bite the bullet, implement sometimes very 
restrictive measures despite political pressure to allow unsustainable 
fishing, and as a result, species like summer flounder have recovered 
to levels we haven't seen in decades. This is particularly beneficial 
to the recreational fishing industry. Because we use the least 
efficient gear and have the least range, we depend on such abundance. 
``If you build it, they will come''. And so when reports of abundant 
stocks and good catches begin to get out there, people want in on the 
action. They book charter and party-boat trips. Or they fuel their 
boats, buy bait, tackle etc. This is not just perception, it is fact. 
As I mentioned in my testimony:

        ``In the Mid-Atlantic, according to the National Marine 
        Fisheries Service, recreational fishermen caught some 2.7 
        million summer flounder in 1989. In 2011, after rebuilding, 
        that number jumped to more than 21 million fish. That's a 700 
        percent increase! NOAA fisheries service's numbers show angler 
        trips over the last decade along the Atlantic Coast up 41 
        percent from the 1980s. In the Mid-Atlantic alone, according to 
        the fisheries service, by the mid 2000s, that has brought in an 
        additional $1.4 billion in economic activity and supported 
        18,660 jobs. On the commercial side, the success story is 
        similar. Gross commercial revenues for summer flounder are up 
        more than 60 percent since 2000, when the rebuilding plan was 
        put in place. And, in total, all of the rebuilt fish stocks 
        brought in, on average, $585 million in gross commercial 
        revenues every year from 2008-2010.''

    Question 2. What lessons have you taken from observing the 
rebuilding of fisheries like striped bass, bluefish, and summer 
flounder? What lessons can be taken from the mid-Atlantic region and 
translated for New England?
    Answer. Striped bass is interesting as, when ASMFC finally clamped 
down and put the moratorium in place, there was a lot of debate on what 
the causes for such a decline were. Managers simply couldn't pinpoint 
them. Fishing mortality was really the only thing they could control, 
so that is what they controlled. . .and it worked! The stock did indeed 
come back. So the old but recurring argument from fishermen that we 
don't have enough data to determine the cause of the decline is a 
precarious one. Likewise, the argument that declines are due to 
environmental factors rather than fishing, so they should be able 
continue to fish hard on a declining stock, make little sense. The fact 
of the matter is that natural mortality, plus fishing mortality equals 
total mortality, and it's total mortality that matters. So if higher 
levels of natural mortality are occurring, it means that it is even 
more important to reduce fishing mortality not only because of its own 
impact on the stock, but to compensate for higher levels of natural 
mortality as well. Fishing mortality becomes a greater, not a lesser, 
problem given an increase in natural mortality. The recovery of striped 
bass, and the decision to take action in the face of uncertainly, 
illustrates this well.
    Yet striped bass now remains ASMFC's only notable ``success'', even 
though the real success took place 18 years ago after things got so bad 
that they had to do something. Striped bass was recovered under a 
management plan that protected 95 percent of the spawning stock. Yet, 
the current outlook for striped bass is not good. There are very few 
serious striped bass anglers left who don't agree the striped bass 
population has declined precipitously. That view has been validated by 
the 2013 Benchmark stock assessment, which was just peer-reviewed. That 
assessment shows just such a decline since 2004, says that without any 
reduction in fishing mortality, overfishing is a virtual certainty in 
2014, and notes there is an increased chance of an overfished stock by 
2015/2016. The Commission initiated an action, but only after voting 
down, by a large margin, a motion to take immediate action for the 2014 
season, to avoid overfishing. The point is that ASMFC tends to kick the 
can down the road. They rarely take immediate action to avert a crisis. 
Unconstrained by Federal law, it generally waits until stocks are on or 
beyond the threshold of disaster before action is taken.
    In regards to the New England Council., Summer flounder, and the 
other fisheries managed by the Mid Atlantic Council, provide a good 
example of how the Mid Atlantic Council took the right approach to 
management. They set hard catch limits and enforced them, despite the 
political pressure brought by some narrow economic interests. The New 
England Fishery Management Council, on the other hand, relied on input 
controls such as trip limits, days at sea, etc. because that's what the 
fishermen wanted in order to avoid setting hard poundage limits/quotas, 
which likely would have meant less fishing. And so they never were able 
to effectively reduce harvest. Now truly painful measures are needed.
    I think the point here is that we need to have a strong law that 
requires managers to make the hard but necessary decisions, set the 
required hard quotas despite the short term pain they will likely 
cause, and manage fisheries with the future of sustainable fishing 
communities in mind, instead of just dictating fisheries management in 
light of to narrow economic interests that want to harvest as many fish 
as they can now.
Improving Science-Based Management
    Question 3. From your experience, how important is it that regional 
fishery management councils set annual catch limits based on the 
scientific advice of their Scientific and Statistical Committees?
    Answer. I think that it's critical to have SSC's set Acceptable 
Biological Catch (ABC). Allowing scientists to make such a 
determination effectively takes the politics out of the decision-making 
process in the beginning, thereby ensuring we have an objective 
estimation, taking into account scientific uncertainty, of how many 
fish we can take out of a stock while allowing it to be healthy an 
flourish. Having been a manager for five years, I know that there is a 
tremendous amount of political pressure/pressure from constituents to 
allow fishing at unsustainable levels. History is pretty clear that 
when we gave Councils such leverage they failed to manager 
sustainability. We really need scientists making that initial 
determination.

    Question 4. What is your perspective on the current level of 
investment in fisheries research? Where should additional investments 
be directed in order to improve fisheries management?
    Answer. Everyone agrees we need better science, to reduce the 
scientific and management uncertainty and to give us better, real-time 
estimates of fish stocks so we can react appropriately. Where 
specifically investments to improve such science should go, I don't 
know. That would be a question for the NMFS Fisheries Science Center 
and the Council SSCs.

    Question 5. Current funding levels result in individual assessments 
that are often separated by four or five years. The status of a number 
of Mid-Atlantic species cannot be determined because of outdated 
information. How critical is it we dedicate more resources for data 
collection and improved and more frequent stock assessments?
    Answer. Hugely critical . . .
                                 ______
                                 
     Response to Written Question Submitted by Hon. Marco Rubio to 
                         Captain John McMurray
    Question. Please elaborate on the need for statutory language 
requiring a periodic review of the allocation between sectors for 
federally managed fisheries.
    Answer. Councils are generally loath to look at reallocation 
between sectors (e.g., between recreational and commercial) as the 
dynamics of a fishery change. For example, more recreational 
participants, less commercial . . . or, such as in the case with scup 
in the Mid-Atlantic the economics of a fishery change. Currently, in 
the scup fishery there are times of the year where the price of scup is 
so low it doesn't pay to fish for them. Meanwhile, anglers and 
particularly charter/partyboats have to fish under increasingly small 
quotas. In such cases Councils should look at/do a full analysis of 
potential reallocation between sectors. In the case of scup that's 
precisely what we are doing, however in general, because such 
reallocation discussions are often contentious, the Councils tend to 
shy away from such discussions. Statutory language would require the 
councils to look at such allocations on regular basis (every 5 years of 
so) to make sure such allocations provide the greatest overall benefit 
to the Nation. My constituency, the recreational fishing community, has 
been asking for this for a very long time.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Mark Begich to 
                            Patrick Paquette
Recreational Fisheries Management Under Magnuson-Stevens
    Question 1. What are the biggest challenges to recreational 
fisheries management and can these challenges be addressed under the 
current Magnuson-Stevens Act?
    Answer. Although recreational fisheries management poses several 
big challenges, these challenges can be met and addressed through the 
existing MSA requirements. The root of the management challenge lies in 
the simple fact that millions of people engage in recreational fishing 
every year, and access is generally open with some limited 
restrictions. The challenge is not only in managing behavior of 
independent anglers, but also in overcoming the difficult task of 
collecting real-time, accurate data in order to inform timely 
management decisions.
    The 2006 MSA reauthorization established the Marine Recreational 
Information Program (MRIP) to improve recreational fisheries data 
collection. MRIP includes vast improvements over the previous system, 
though its implementation has been delayed and wrought with problems. 
Although there are major challenges with MRIP, especially the data it 
produces for management, we do not need to amend the MSA to solve the 
problem. Rather, we need a redoubled effort to fully implement and 
improve MRIP by expanding the types of data that can be incorporated 
into the system, improving data collection methodologies and ensuring 
that data is analyzed and incorporated into management decisions in a 
timely manner. The National Marine Fisheries Service (NMFS) must 
prioritize and ensure strong stakeholder engagement from the 
recreational fishing community for MRIP to be successful. In addition, 
Congress must ensure a robust and steady funding stream for 
recreational data collection, monitoring and stock assessment. The 
number of jobs and the both direct and indirect economic contribution 
of recreational angling demands this commitment to significant 
investment in data collection.
    The health and viability of recreational fish populations, and the 
economies that depend on those resources, will not be sustainable over 
the long-term unless we adhere to science-based management. The MSA 
requires managers to end and prevent overfishing based on the best 
available science, including the establishment of annual catch limits 
and accountability measures. These science-based requirements provide 
the critical legal structure that is needed to maintain sustainable 
recreational fisheries, and should not be weakened as Congress 
considers reauthorization. However, as noted previously, getting more 
reliable and timely data on recreational fish populations is the key to 
making the system function smoothly and will encourage buy-in by 
stakeholders. As we look to the next reauthorization, we must build 
upon the existing requirements of the MSA and consider additional 
factors, such as by catch and forage fish protection that have 
historically been a lower priority for commercial fisheries, but can 
have major implications for not only recreational, but for commercial 
species populations as well. The best science demands a holistic look 
at the entire ecosystem and that is where a reauthorized MSA must 
focus.

    Question 2. How do the Magnuson-Stevens Act's conservation 
requirements, including the 10-year rebuilding timeline, annual catch 
limits, and accountability measures, benefit businesses in the region, 
and can you give examples?
    Answer. The MSA's conservation requirements are necessary to end 
and prevent overfishing, and history has shown that short-term economic 
interests will prevail if hard rebuilding deadlines, accountability 
measures and catch limits are not required by law. Business interests 
can, and will benefit as stocks recover and are managed at healthy 
levels. Look no further than NOAA's research that predicted that 
rebuilding all federally-managed stocks would result in an additional 
$31 billion in sales activity and 500,000 new jobs. Businesses want 
certainty or at least predictability so they can plan for the future. 
Weakening the MSA requirements may yield short-term gains for a few 
individuals or fisheries, but it will only further destabilize coastal 
communities that will suffer when the resource is depleted and can only 
support limited and/or single species dependent economic activity. 
Improvements in fisheries science should translate into more certainty 
for Councils as they evaluate different management alternatives, and 
ultimately this will provide more certainty/predictability for 
businesses. Some examples follow:

  <bullet> CAPT. JOHN MCMURRAY discusses summer flounder as a success 
        in his testimony. ``In the Mid-Atlantic, according to the 
        National Marine Fisheries Service, recreational fishermen 
        caught some 2.7 million summer flounder in 1989. In 2011, after 
        rebuilding, that number jumped to more than 21 million fish.''

  <bullet> Recreational fishing related businesses spend the off-season 
        making business decisions based on expected supply and demand. 
        With an unstable or low abundance of fish available to catch 
        and without regulations that allow for an expected catch of 
        enough fish to justify cost and effort (whether for sport or 
        harvest) the demand for bait, tackle, lodging and support 
        services will also be low. This translates into less sales of 
        rods, reels, hotel rooms, maintenance supplies and all manner 
        of support services. The trickle out economic effect due to low 
        abundance of fish or lack of predictability of their presence 
        is significant. Only long-term stable & sustainable populations 
        of fish coupled with regulations that allow for reasonable cost 
        benefit considerations will allow recreational fishing business 
        to maintain its contribution to both the local and national 
        economy.

  <bullet> In most cases individuals plan fishing trips based on 
        allotted time for recreational activities. The choice to go 
        recreational fishing is based on cost benefit. Inconsistent 
        availability whether that is by presence of fish in specific 
        locations or availability/opportunity by regulation frequently 
        dictates an anglers decision to fish or not, and this 
        translates into the decision to spend or not. A recent history 
        of low abundance (prior lack of actual fish to catch) coupled 
        with regulations that allow for only a small amount of fish 
        allowed to catch put potential angers in the position of 
        choosing to not go fishing and spending. Long term abundance of 
        fish stocks means more stable stocks which effects 
        predictability and regulation and translates into spending 
        which supports the many businesses that rely on recreational 
        fishing.

    Question 3. What steps should NMFS take to enhance recreational 
fisheries data and management? Specifically, what are the biggest 
challenges to ensure recreational fishery data is collected, analyzed, 
and incorporated into management in a timely fashion?
    Answer. See answer to Sen. Begich Question 1.

  <bullet> In addition to my comments above, I suggest the current NMFS 
        regime may be stuck in a ``this is how we do it'' mentality. 
        The tackle industry uses advanced methods to predict how many 
        rods, reels, line, lures etc. to manufacture. A key part of 
        this manufacturing process is to predict effort, which 
        ultimately is tied to the health of target species. Many 
        millions of dollars are on the line for the industry and I 
        suggest that if the tackle manufacturers can make 
        determinations on effort that have real world monetary 
        consequences, NMFS should be able to use similar methodologies 
        to manage recreational fisheries. If adequately funded and 
        directed via and reauthorized MSA, NMFS should be able to use 
        more modern technology to obtain better data that can be used 
        to better manage the economic engine that is recreational 
        fishing.
                                 ______
                                 
 Response to Written Questions Submitted by Hon. Richard Blumenthal to 
                            Patrick Paquette
    Question 1. Recent actions by the Mid-Atlantic and New England 
Fishery Management Councils have made progress towards protecting 
forage fish. How is the protection of forage fish vital to the recovery 
of fish populations like bluefish, and how does it ensure the health of 
the fishing industry? What more should be done?
    Answer. Forage fish play a critical role as prey for valuable fish 
stocks and in turn increase the availability of targeted predator 
species. This is particularly important for recreational species, 
including bluefish or striped bass that rely on forage fish as a 
primary source of food. We can never expect to rebuild and achieve 
healthy sustainable fisheries, and fishing communities, unless adequate 
protection measures are in place to prevent the decline in forage 
species. This is ecosystem based fishery management at a basic easily 
understood by all fishers of all sectors.
    Under the existing authority of the MSA, some Councils are moving 
forward in developing policies to improve the management of forage 
fish. For example, in June 2012, the New England Fishery Management 
Council (NEFMC) approved Amendment 5 which included important new 
measures to protect river herring, a key forage species for both 
striped bass and bluefish, through increased monitoring and limits on 
by catch. Unfortunately, despite Council efforts to work with the 
National Marine Fisheries Service (NMFS) on implementation and 
overwhelming public support, on July 18th, NMFS rejected several of 
these measures, including requirements for 100 percent observer 
coverage on trawlers and limits on slippage caps. NMFS should not be a 
roadblock to proactive management measures for forage fish, and 
Congress should institute a legal requirement to require that plans are 
in place to protect the role of forage species. Once again this type of 
requirement is an easy to understand step toward (EBFM) where all sides 
agree we need to go with the science of fishery management.
    A reauthorized Magnuson-Stevens Act should recognize the importance 
of forage species by requiring that ecosystem functions be included in 
scientific assessments and fishery management plans. The critical 
ecological role of forage fish and the needs of predators should also 
be accounted for when catch limits are set. One specific way Congress 
can make these ecosystem safeguards a reality, and consistent across 
the country, through the next MSA reauthorization would be by requiring 
that broader fishery ecosystem plans be developed and integrated into 
all individual fishery management plans. Congress should ensure that 
such plans are in place prior to the development or expansion of any 
fishery for forage species.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Edward Markey to 
                            Patrick Paquette
Improving Recreational Fishing Data And Management
    Question 1. What steps should NMFS take to enhance recreational 
fisheries data and management? Specifically, what are the biggest 
challenges to ensure recreational fishery data is collected, analyzed, 
and incorporated into management in a timely fashion?
    Answer. See answer to Sen. Begich Question 1.
Climate Impacts on Fisheries
    Question 2. The President's Budget request for Fiscal Year 2014 
includes a $10 million increase for NOAA to fund research on the 
impacts of climate on fisheries with a focus on Northeast groundfish. 
Do you think it is necessary to have some dedicated funding for 
research to understand the impact of climate change on fish stocks and 
that this research could help improve stock assessments and ultimately 
benefit fishermen?
    Answer. Yes. Over the past fifty years, average water temperatures 
around New England have risen between two and four degrees Fahrenheit, 
and fishermen are witnessing firsthand the impacts on fish populations. 
Species including cod, black sea bass, scup, and others appear to be 
moving north in search of cooler water temperatures, and these changes 
in the ocean also have potential to impact distribution and 
availability of prey. More research is needed to determine how climate 
change is impacting fish stocks and that information should be 
incorporated into stock assessments. Such data and analysis would serve 
as an important step toward accounting for ecosystem considerations in 
our fisheries and optimizing management for the long term. As fish move 
to cooler and deeper waters, new opportunities to catch fish not 
historically found in New England & Mid Atlantic waters may arise. It 
is important to assess populations, then consider and establish 
management measures before fisheries are allowed to commence so we 
avoid creating management problems we will have to address later.
                                 ______
                                 
     Response to Written Question Submitted by Hon. Marco Rubio to 
                            Patrick Paquette
    Question. Would you please elaborate on your idea regarding ``a 
more equitable distribution of stakeholders on councils?''
    Answer. Section 302(b)(2)(B) of the Magnuson-Stevens Fishery 
Conservation and Management Act requires the Secretary of Commerce 
(Secretary) to report annually to Congress on the achievement, to the 
extent practicable, of a ``fair and balanced apportionment, on a 
rotating or other basis, of the active participants (or their 
representatives) in the commercial and recreational fisheries under the 
jurisdiction of [each Regional Fishery Management.
    According to NOAA's own data contained within the publication 
``Fisheries of the United States 2011''; Commercial fisherman in New 
England harvested 353.4 million pounds of finfish in 2011 compared to 
23.9 million pounds of fish caught by recreational anglers. Commercial 
landings of species that matched those of anglers were worth $182.8 
million. Including multiplier effects, this revenue generated $720.8 
million in sales, $258.4 million in income, $360.3 million in value 
added (GDP), and supported over 16,608 jobs.
    Anglers spent over $1.1 billion in 2011. Including multiplier 
effects, these purchases resulted in $1.2 billion in sales, $388.3 
million in income, $602 million in value added (GDP) and supported 
8,723 jobs.
    Although the Mid Atlantic council has achieved a fair and balanced 
apportionment the New England Council has for many years failed to meet 
any standard of fair and balance apportionment as ``suggested'' in MSA.
    The 2012 NMFS Report to congress detailed apportionment on all 
regional councils. That document showed the following for the New 
England Fishery Management Council:

------------------------------------------------------------------------
        Year          Commercial  Recreational   ``other''      Total
------------------------------------------------------------------------
2010                           7             3            2           12
2011                           8             3            1           12
2012                           7             3            2           12
------------------------------------------------------------------------

    (In addition many in the recreational sector have openly questioned 
one of the seats reported as recreational as not being a recreational 
representative and should be included in the ``other'' category. To 
support this claim I offer the following: In 2012 the NMFS North East 
Regional Office co hosted (w/the Rhode Island Salt Water Anglers Assn.) 
a Southern New England Recreational Fishing Symposium in RI. Only two 
members of the NEFMC were invited because only two members are viewed 
as recreational. The member I am referring to holds a seat in RI but 
was not invited because in general and with no disrespect intended that 
member is not considered a recreational member of the NEFMC.
    To make matters worse, in 2013 one of the two members commonly 
recognized as being from the recreational sector reached term limit and 
the 2013 appointee was a former life long NMFS retired employee. There 
are now only two reported and I suggest the reality is that there is 
currently only ONE recreational member out of the 12 seats on the New 
England Council.
    No matter how the number of recreational members is viewed, the 
harvest and economic statistics above dictate that the New England 
Council has been and continues to be outside what can be considered a 
``fair and balanced apportionment''.
    Simply put, I suggest that a reauthorized MSA should have stronger 
language that sets a standard and further defines ``fair and balanced 
apportionment'' of representation.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Mark Begich to 
                            Dr. John Boreman
Science-Based Management Under Magnuson-Stevens
    Question 1. Why do you support the expansion of industry-based 
surveys for stock assessments? How would this improve scientific 
uncertainty and assist sound fishery management?
    Answer. The fishery-independent surveys conducted by NOAA survey 
vessels are valuable sources of data for many of our Nation's stock 
assessments, but certainly not all. Because of the relatively few 
vessels involved, NOAA vessel surveys are limited both spatially and 
temporally, and also by the sampling gear they deploy. We have found in 
the mid-Atlantic region that some of the species managed by the Mid-
Atlantic Fishery Council (MAFMC) may not be adequately sampled by the 
NOAA bottom trawl survey, thus leading to a higher than usual level of 
uncertainty in the survey data. The Scientific and Statistical 
Committee (SSC) believes some of the managed species, such as the 
squids, spiny dogfish, and Atlantic mackerel, venture much further out 
to sea than the offshore limit of the NOAA survey. The ability of the 
NOAA vessel survey to capture other species, such as scup, is dependent 
on the timing of the survey versus the timing of the stock's movement 
patterns. These factors may be the reason we see higher year-to-year 
variability (and thus higher uncertainty) in the stock biomass indices 
generated by the NOAA vessel surveys for these species.
    Use of industry (commercial and recreational) fishing vessels to 
supplement and complement the NOAA vessel surveys allows sampling of a 
much broader expanse of the ocean, and sampling more intensively in 
areas of high concentrations of stock biomass where the NOAA survey 
vessels are incapable of covering because of timing, depth and gear 
limitations, and other factors. If the industry-based surveys are 
conducted in a statistically-robust fashion, the additional data 
gathered by these surveys will help reduce the variance in estimates of 
stock biomass and recruitment (which is directly related to the number 
of representative samples taken), as well as help test for potential 
bias in the sampling being conducted by the NOAA survey vessels by 
providing alternative insights into stock dynamics.
    A limited number of industry-based surveys are already helping to 
reduce the scientific uncertainty in stock assessments. For example, 
the inshore Northeast Area Monitoring and Assessment Program (NEAMAP) 
survey, conducted by a commercial fishing vessel in collaboration with 
the Virginia Institute of Marine Science, is already reducing the 
degree of scientific uncertainty in stock biomass and recruitment 
estimates for species such as summer flounder. An industry-based trap 
survey, conducted in collaboration with the University of Rhode Island, 
is helping to reduce the uncertainty in estimates of the abundance of 
scup in the New England and Mid-Atlantic regions.

    Question 2. How have the 2006 amendments to Magnuson-Stevens, such 
as scientifically based decision making and the establishment of annual 
catch limits, improved fisheries management in the U.S.? And to what 
degree do you believe that inaccurate science and resulting catch 
limits contributed to the New England fishery disaster?
    Answer. From a science perspective, the most significant aspect of 
the 2006 amendments to the Magnuson-Stevens Act (MSA) is the 
recognition that we cannot wait for achievement of 100 percent 
certainty before using scientific advice for managing our nations 
fisheries. Fisheries science can never be 100 percent accurate, 
especially when sampling is conducted in an environment where we cannot 
easily ascertain the presence and movement of targeted species. Recall 
the lyrics from a 1970s song: ``The ocean is a desert with its life 
underground and a perfect disguise above.'' For most of my career my 
experience with marine fisheries management has been one of 
frustration. The frustration grew out of the tendency of fisheries 
managers to push catch limits to the edge, willing to take the risk 
that 50 percent of the time (or even more in some cases) they were 
instituting management measures that would lead to overfishing and slow 
the recovery of overfished stocks. Now, with the requirement added in 
2006 that annual catch limits cannot exceed acceptable biological catch 
levels set by their SSCs, Councils have become more risk-averse in 
their management actions.
    In reference of the New England fisheries, as well as fisheries in 
all the Nation's regions, inaccurate science can lead to unintended 
mismanagement. However, the requirement now contained in the National 
Standard 1 Guidelines that a buffer between the overfishing limit and 
the acceptable biological catch (ABC) level be established that is 
directly proportional to the degree of scientific uncertainty about a 
stock's dynamics greatly reduces the chance of that happening.
    Inaccuracy and imprecision of scientific information are just two 
factors that can lead to unintended mismanagement. There is also the 
uncertainty associated with implementation of management measures, 
termed management uncertainty, which could be an even greater factor 
than scientific inaccuracy and imprecision in causing unintended 
mismanagement. When fishing regulations are established through the 
management process to limit catch levels or fishing mortality rates, a 
level of uncertainty exists between what the regulations are intended 
to do and what they actually cause to happen. Our experience in the 
mid-Atlantic region has been that management measures to limit marine 
recreational catch of some species, like scup and black sea bass, have 
been much less successful than management measures employed on the 
commercial side. In some cases, recreational catch limits have been 
exceeded by more than 100 percent in a given fishing year. The 
existence of management uncertainty has been recognized by all the 
SSCs, and many have supported management strategy evaluations to assist 
them in providing advice to the Councils on how to minimize it.
    In summary, the fishery situation in New England has likely been 
caused by incomplete understanding of the dynamics of the fisheries 
stocks (and the relationship between those population-level dynamics 
and the dynamics of the ecosystems within which they reside), and the 
inability of management measures to totally control how the fisheries 
operate.

    Question 3. A recent study by NOAA scientists found that Atlantic 
cod recovery may be hindered by a decline in their food supply. How can 
fisheries management better incorporate considerations of the broader 
ocean environment, including climate change conditions and complex food 
webs?
    Answer. Incorporating ecosystem considerations into ABC 
determinations was a principal focus of the most recent National SSC 
Workshop, hosted by the MAFMC. One of the conclusions of that workshop 
was that a national investment in ecosystem modeling and a management 
strategy evaluation of approaches used for ecosystem-based fisheries 
management is warranted. Modeling can provide a cost-effective means of 
exploring the structure, function, and variability (scientific 
uncertainty) of ecosystems and the expected range of responses of those 
systems to natural and human-induced perturbations.\1\
---------------------------------------------------------------------------
    \1\ Seagraves, R., and K. Collins (editors). 2012. Fourth National 
Meeting of the Regional Fishery Management Councils' Scientific and 
Statistical Committees. Report of a National SSC Workshop on Scientific 
Advice on Ecosystem and Social Science Considerations in U.S. Federal 
Fishery Management. Mid-Atlantic Fishery Management Council, 
Williamsburg, VA. 94 pp.
---------------------------------------------------------------------------
    Unlike modeling of fisheries stocks, which has a foundation well 
steeped in theory that has evolved over the past 80 years, theory 
supporting ecosystem-level modeling is still in the early stages of 
development. Although not widespread at the moment, ecosystem 
conditions and their impacts on stock dynamics are starting to be 
incorporated into stock assessments--more so on the West Coast. 
Fisheries scientists are using the relationship between oceanographic 
conditions and the distribution of fishery stocks to develop better 
estimates of stock biomass based on survey data. Uncertainty is also 
being reduced in estimates of natural mortality rates that are used in 
stock assessments by using food habits data to refine estimates of 
predation loss. With a better understanding of the effects of 
temperature on the distribution of fishery stocks, their predators, and 
their prey, and how changes in those distribution patterns can affect 
predation-prey interactions and thus fishery stock dynamics, scientists 
will be better able to understand the anticipated effects on climate 
change on our Nation's fisheries and the economies they support. We are 
not there yet, but we are certainly moving in the right direction.

    Question 4. Frequent stock assessments are necessary to make 
accurate annual catch limits, however, they are also costly and 
complex. How many stock assessments are too many? And how should we 
prioritize species for stock assessments?
    Answer. Fisheries scientists currently use two forms of stock 
assessments in the Mid-Atlantic and New England regions. A benchmark 
assessment is one that incorporates new methodologies and new data sets 
that require independent scientific review prior to their use. 
Assessment updates use the same methodology or methodologies and data 
sets that have passed independent peer review in benchmark assessments, 
and simply add the most recent data to the time series--often referred 
to as ``turn-of-the-crank.'' Peer review of assessment updates is not 
as rigorous as it is for benchmark assessments, nor does it need to be, 
and the time period and level of personnel resources needed to complete 
updates are much less. However, even assessment updates can divert 
attention away from competing priorities for assessment scientists, and 
are getting more and more difficult to undertake on an annual basis for 
our managed species. To address the problem of competing demands for 
stock assessments, the MAFMC SSC is currently in the process of 
developing a ``rumble strip'' approach to monitoring stock trends by 
using only a few key and easy-to-obtain measurements to determine if 
stock characteristics are staying within acceptable bounds. This 
approach will require even less effort than assessment updates, and 
will allow assessment scientists to devote more time to developing new 
methodologies and data sets for benchmark assessments.
    Priority for conducting a benchmark assessment should be based on 
the following factors for the stock in question: (1) the likelihood 
that a new methodology or alternative data sets will better represent 
the dynamics of the stock; (2) the amount of time that has elapsed 
since the last benchmark assessment, relative to the mean generation 
time for the species (species with shorter generation times have the 
potential for greater change from year-to-year in their population 
dynamics); (3) indications that trends in the stock are not following 
projections based on the benchmark assessment, suggesting the wrong 
methodology is being used or the representativeness of the data sets 
needs to be re-examined; and (4) the status of the stock--stocks that 
are overfished or still being rebuilt should take priority over stocks 
that are at sustainable levels.

    Question 5. Rebuilding timelines have been called arbitrary by 
some, but don't they have some basis in science? How important are the 
established rebuilding timelines for fishery management? Why are these 
timelines important for sustainable management?
    Answer. Rebuilding timelines are important in that they hold 
fishery managers accountable for restoring fishery stocks to 
sustainable levels. Contrary to what some scientists claim, the 
rebuilding timeline of 10 years that was established by the Sustainable 
Fisheries Act of 1996 is based on science. The timeline is based on the 
recognition that mean generation times for many of our managed fish and 
shellfish range from three to five years (the MSA already provides an 
exemption for long-lived species that may not have sufficient time to 
replenish the spawning stock during a 10-year span). To make the 10-
year timeline more workable, the rebuilding clock should start when the 
rebuilding regulations begin to be implemented, not immediately when 
the Secretary of Commerce approves the rebuilding plan.
    What the established rebuilding timelines fail to take into 
account, however, is the ability of the fishing industry and their 
supported economies to re-adjust their capacity to a timeline based on 
biology, and do it immediately upon implementation of the rebuilding 
plan. If properly constructed, stock-rebuilding plans should allow for 
gradual rebalancing of fishing effort to match the ability of a fishery 
stock to sustain exploitation once the stock is rebuilt. As long as 
stock rebuilding continues along an upward trajectory and is closely 
monitored, the rebuilding timeline should be set to take into account 
not only the biology of the target species, but also the anticipated 
economic and social impacts of stock rebuilding on the commercial and 
non-commercial fishing industries, markets, and fishing-dependent 
communities.

    Question 6. Since the 2006 amendments to Magnuson-Stevens Act, how 
have the conservation requirements to follow scientific advice, 
establish annual catch limits and accountability measures, and end 
overfishing improved fisheries management in the U.S.?
    Answer. Since 2006 fisheries management in the U.S. has become more 
science-based. Managers now have a more formal and consistent way in 
which to apply scientific advice in establishing annual catch limits, 
and must now specify beforehand how much risk of overfishing they are 
willing to assume when they set those limits. The scientific advice, in 
the form of ABC recommendations, is required to have more explicit 
supporting documentation, especially when established control rules 
cannot be followed due to lack of data or an unacceptable stock 
assessment. The process created by the 2006 amendments of establishing 
overfishing limits, acceptable biological catch levels, annual catch 
limits, and accountability measures ensures that the best available 
science plays an integral role in fisheries management decisions.

    Question 7. What more should we be doing to consider the broader 
ocean environment in fisheries management?
    Answer. Expanding the use of oceans for renewable energy and 
aquaculture, along with increasing pressure on the marine environment 
brought about by human population growth and climate change, are 
prominent challenges to conservation of habitats within marine 
ecosystems that support production of marine fisheries resources.
    When we conducted our National SSC Workshop on ecosystem 
considerations (referenced in the answer to question #3), it became 
obvious that each fishery management council is striking out on their 
own path in ecosystem-based fisheries management. One example of the 
problems this causes is the lack of a uniform definition of forage 
species across the councils, which serve as the building blocks of 
marine food webs, and how forage species are being treated in setting 
ABC recommendations by the SSCs. Furthermore, there is a tenuous link 
between habitat conservation, addressed by the essential fish habitat 
(EFH) provisions of the MSA, and ecosystems-based fisheries management 
(EBFM). The MSA encourages the regional fishery management councils to 
pursue EBFM, but the direction given in the MSA offers no clear 
guidance as to how changes to local habitats supporting fisheries 
resources are to be considered in the broader ecosystem context. 
Finally, the MSA does not offer guidance for integrating habitat 
conservation into coastal and marine spatial planning (CMSP), 
essentially leaving it up to the individual fishery management councils 
to figure out how to get the habitat conservation (EFH) foot into the 
slowly-opening CMSP door.
    NOAA Fisheries should be encouraged to develop national guidelines 
for plans addressing EBFM that ensure adherence to the national 
standards contained in the MSA. The guidelines should also contain 
definitions of terms, such as forage species, and provide means to link 
protection of EFH to broader marine ecosystem effects.
    Currently, the MSA requires that fishery management plans developed 
by the regional councils, and ultimately approved by the Secretary of 
Commerce, must adhere to ten national standards. To strengthen the 
habitat conservation requirements of the MSA, Congress should consider 
adding a new, eleventh national standard:
Minimize adverse impacts on essential fish habitat to the extent 
        practicable.
    The implications of this proposed addition are far-reaching. 
Depending on how the associated guidelines are written, it could give 
the Secretary of Commerce regulatory authority (i.e., veto power) over 
federally licensed or permitted projects that may adversely affect EFH. 
This veto power would be akin to the veto power currently held by the 
Administrator of the Environmental Protection Agency over Federal 
projects that could adversely affect water or air quality. The 
guidelines could also require identification and monitoring of 
activities that could potentially negatively impact EFH (or positively, 
for that matter). Finally, NOAA Fisheries and the regional councils 
would be able to move from their current consultative role to a role 
that is more active and cooperative, perhaps even pre-emptive, as they 
work in closer cooperation with other regulatory agencies.
    Is establishment of such a national standard for habitat 
conservation justified? Absolutely. Once approved by the Secretary of 
Commerce, fishery management plans, plan amendments, and framework 
actions, are considered public policy. My experience has been that 
public policy carries a lot of weight in federally approved actions and 
associated judicial rulings. Furthermore, rebuilding fishery stocks and 
maintaining them at sustainable levels involves much more than 
addressing overfishing; habitats must be capable of supporting the 
renewed production of fishery stocks, especially if those stocks are at 
or near their historically highest levels of abundance.
    Finally, strengthening the habitat conservation provisions of the 
Act would provide a greater guarantee that objectives of fishery 
management plans can actually be achieved. Establishing a national 
standard for habitat conservation would elevate the importance of 
identifying EFH, focus habitat-related research and monitoring, 
facilitate operational improvements to the Federal process involved 
with habitat conservation, including closer coordination between and 
among regulatory and resource conservation agencies, and help the 
regional councils refine their habitat conservation objectives for 
fisheries management. Also, the new national standard would give the 
Department of Commerce more clout in reviewing offshore projects that 
are federally licensed or permitted. A habitat conservation national 
standard would facilitate integrating habitat-level assessments into 
EBFM and, on a broader scale, further facilitate CMSP by having a clear 
set of objectives that help define essential ecosystem services in 
support of fisheries management.
    On the negative side, adding a new national standard would very 
likely increase the probability of litigation, as managers try to 
address (and balance) the new standard with the ten existing ones. 
Furthermore, following the guidelines that will be established for the 
new standard may lead to additional delays in approvals of fishery 
management plans and plan amendments. Finally, a stronger and broader 
base of scientific support will also be required, which may be 
difficult in the current era of shrinking budgets for state and Federal 
agencies.
                                 ______
                                 
    Response to Written Question Submitted by Hon. Edward Markey to 
                            Dr. John Boreman
Constraints on Cooperative Research
    Question. In your written testimony, you say that there are 
constraints in the cooperative research grants process that hinders 
collaboration between NOAA fisheries scientists and fishermen at the 
early stages of program development. Can you provide the specifics of 
those constraints and suggestions of how they might be changed to 
improve collaboration?
    Answer. Major constraints affecting collaboration among the fishing 
industry, academia, and state and Federal resource agencies in the 
conduct of cooperative research are: (1) the inability, and in some 
cases unwillingness, of the parties to work closely together during the 
early stages of project development so that data collection and 
analysis are undertaken in a statistically robust and scientifically 
defensible manner; and (2) the current project-by-project and year-to-
year approaches to funding cooperative research at the Federal level 
cause surveys to be piecemeal and not comprehensive in nature, and 
force investigators to re-apply for funding each year.
    To overcome these constraints, region-based and theme-specific 
cooperative agreements for surveys and cooperative data collection 
should be established and funded with multi-year appropriations. A 
model for this type of agreement is the Industry & University 
Cooperative Research Program (I/UCRC) of the National Science 
Foundation (NSF). The I/UCRC program was established to bring 
participants from industry, government, and other organizations in need 
of science-based solutions into contact with academic scientists 
capable of providing that expertise under an organizational structure 
that permits active participation in the science agenda in exchange for 
participant financial support. An I/UCRC program was recently 
instituted through the University of Southern Mississippi and the 
Virginia Institute of Marine Science to address urgent scientific 
problems limiting sustainable fisheries in the Mid-Atlantic region. 
Another model is the theme-based NOAA Cooperative Institute Program, 
which has a five-year funding authorization, and which promotes direct 
participation by multiple universities and industry participation in an 
advisory capacity.
                                 ______
                                 
     Response to Written Question Submitted by Hon. Marco Rubio to 
                            Dr. John Boreman
    Question. What specific policy changes would you recommend to 
achieve an adequate expansion of industry-based cooperative research 
surveys and cooperative data collection programs in all fisheries in 
the United States?
    Answer. Current policy, as expressed through the Magnuson-Stevens 
Act, should be changed from one that encourages cooperation between 
industry and government agencies in the conduct of research on topics 
of mutual interest to one that promotes working partnerships on a much 
broader scale. Although the Magnuson-Stevens Act contains a number of 
provisions that promote cooperative surveys and data collection 
projects, major constraints still exist that inhibit effective 
collaboration among the fishing industry, academia, and state and 
Federal resource agencies in the conduct of cooperative research. These 
constraints are: (1) the inability, and in some cases unwillingness, of 
the parties to work closely together during the early stages of project 
development so that data collection and analysis are undertaken in a 
statistically robust and scientifically defensible manner; and (2) the 
current project-by-project and year-to-year approaches to funding 
cooperative research at the Federal level that cause surveys and 
research projects to be piecemeal and limited in scope, forcing 
cooperative researchers to re-apply for funding each year by using the 
often cumbersome and protracted government grants process.
    To overcome these constraints, region-based and theme-specific 
partnerships for surveys and data collection should be established and 
funded with multi-year appropriations. One model for this type of 
partnership is the Industry & University Cooperative Research Program 
(I/UCRC) of the National Science Foundation (NSF). The I/UCRC program 
was established to bring participants from industry, government, and 
other organizations in need of science-based solutions into contact 
with academic scientists capable of providing that expertise under an 
organizational structure that permits active participation in the 
science agenda in exchange for participant financial support. An I/UCRC 
program was recently instituted through the University of Southern 
Mississippi and the Virginia Institute of Marine Science (Science 
Center for Marine Fisheries, www.scemfis.org) to address urgent 
scientific problems limiting sustainable fisheries in the Mid-Atlantic 
region.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Mark Begich to 
                         Dr. Joshua B. Wiersma
Magnuson-Stevens Act Flexibility
    Question 1. In your testimony, you advocate for additional 
flexibility in rebuilding timelines to end overfishing through a 
gradual ``step down'' approach. The Magnuson-Stevens Act currently 
states that a time period for rebuilding the fishery shall ``not exceed 
10 years, except in cases where the biology of the stock of fish, other 
environmental conditions, or management measures under an international 
agreement in which the United States participates dictate otherwise.'' 
How has this flexibility to set rebuilding periods that are longer than 
10 years been used in developing rebuilding plans for fish stocks in 
the Northeast?''
    Answer. Samuel Rauch III, Acting Assistant Administrator for the 
National Marine Fisheries Service, did a thorough job answering this 
question in his testimony before the Committee of Natural Resources of 
the United States House of Representatives at the hearings about the 
Magnuson-Stevens Act on September 11, 2013.\1\ The following 
information was provided as part of his testimony, but I reference you 
to his full testimony for more detailed information than what is 
provided below.
---------------------------------------------------------------------------
    \1\ www.commerce.gov/sites/default/files/documents/. . ./
rauch091113.pdf
---------------------------------------------------------------------------
    ``Specific Current rebuilding time periods for stocks with active 
rebuilding plans range from four years to more than 100 years. Of the 
43 active rebuilding plans with a target time to rebuild, 23 of them 
(53 percent) are set longer than 10 years due to the biology of the 
stock (slow reproducing, long lived species) or environmental 
conditions. For example, Pacific yellow eye rockfish has a rebuilding 
timeline of 71 years. The remaining 20 rebuilding plans are set for 10 
years or less. Of the 33 stocks rebuilt since 2000, 18 stocks were 
rebuilt within 10 years. Two additional stocks in 10-year plans were 
rebuilt within 12 years.''
    Yes, rebuilding plans can be longer than ten years. That's not the 
problem. The problem arises when the dynamic conditions the dictate 
rebuilding change after the plan is in place. What is lacking is a 
dynamically responding rebuilding plan, so that when science methods 
change (e.g., switching research vessels from the Albatross to the 
Bigelow 8 years into a rebuilding plan for Cod) or when dynamic 
environmental conditions (like global warming) create unpredicted and 
sometimes unprecedented shifts in the ecosystem--rebuilding plans can 
be flexible enough to account for these phenomena.
    What I argued for is a step down approach to drastic cuts in ACL 
from year to year if dynamic conditions in the bio-economic ecosystem 
change after the plans are in place. A step down approach helps to 
hedge the risk that science is wrong, but more importantly, it helps to 
hedge the risk to fishermen and shore-side infrastructure from economic 
losses associate with wild swings in ACL--which is a mandate of 
National Standard 8.
Reducing Requirements on Over Fishing
    Question 2. Over the past year, many New England fishermen have 
been unable to catch even half of their allotted quota of groundfish, 
suggesting that lack of fish, not overly-burdensome quota limits, has 
caused the economic hardship currently faced in New England fisheries. 
With this in mind, how do you propose that reducing requirements on 
overfishing would help ease the burden of the current fishery 
disaster?''
    Answer. Quota limits may or may not be overly burdensome, but there 
needs to be a process for quota limit adjustment that is linked to 
dynamic changes in the bio-economic ecosystem. The bio-economic 
ecosystem would rebuild fish stocks at a rate that is both sustainable 
to the stock, but also to the fishermen and communities that rely on 
those stocks. When quota limits are set in a bio-economic ecosystem, 
they would consider how changes in the level of allowable catch on one 
stock affects fishermen's ability to target other groundfish stocks 
caught in conjunction with that stock. If it is a significant economic 
burden to prosecute healthy stocks given the quota constraint placed on 
a less healthy stock, then the quota limit on the unhealthy stock 
should be raised to alleviate and balance some of the burden to 
fishermen and communities.
    Fishermen fish a fish complex, which is comprised of a portfolio of 
species that have to be selectively managed and fished together. Under 
sector management, we must stop fishing for everything if we run out of 
our allocation of one stock. So science can no longer operate in a 
vacuum based on single stock assessments. Instead, it must look at the 
entire interactive fish ecosystem and develop some overall maximum 
biomass indicator level of health (rather than focusing solely on 
single species biomass maximization). A large reason why fishermen 
can't fully prosecute their quota limits is because they are 
constrained by low quota limits on unhealthy stocks called ``choke 
stocks'' or by very high quota limits set on healthy stocks that affect 
the harvest rate of lower quota stocks, ``limiting stocks''.
    Choke stocks are non-target species that are caught jointly with 
target species that force fishermen to either stop fishing for their 
primary target species too early, or avoid targeting it all together. 
This phenomenon is problematic because fishermen lose money from the 
loss of opportunity to fish the healthy stocks. When quota limits are 
set too high on a stock, other stocks caught in conjunction with that 
stock become ``limiting'' because they are exhausted too quickly in 
conjunction with the primary stock, and fishing effort is unevenly 
distributed throughout the year resulting in ``pulse fishing'' and wild 
fluctuations and unpredictability of market prices. Uneven distribution 
of fishing effort also results in greater competition from imported 
stocks as dealers prefer consistency and predictability of supply. 
Either way, poor science and inflexible quota limits result in 
inefficient portfolio harvest, loss in social welfare, and risks of 
losing domestic markets.
    Therefore, quota limits need to be able to adapt and change based 
on information gathered each year about new science, about behavioral 
changes in fishing effort (e.g., spatial redistribution of effort, more 
or less use of fishing gear, changes in number, type and scale of 
fishing trips), and about abnormal and unexpected swings in quota 
prices. Not only can information about behavioral changes in fishing 
effort and changes in quota prices from year to year help predict 
losses in social welfare as a result of choke or limiting stocks; but 
it can also be used to predict and ground truth estimates of the 
biomass of the stock complex, and the expected change in stock 
abundance and distribution as a result of abnormal changes in 
environmental conditions.
    Along with new scientific information about stock abundance and 
about global temperature changes, information about changes in fishing 
effort and quota prices from year to year can be used to set limits 
from year to year that are better able to direct fishing effort to more 
of a joint bio-economic equilibrium. To facilitate this, not only do 
rebuilding timelines need to be established based on new reference 
points incorporating localized temporal and spatial information about 
changes in water temperature--but they also need to be more flexible, 
even if it means extending a rebuilding timeline previously put in 
place. Ultimately, this means moving away from single stock biomass 
assessments to an ecosystem based indictor that incorporates dynamic 
changes in both environmental conditions and in fishing behavior and 
effort.
Abnormal Environmental Conditions
    Question 3. Can you expand on these ``abnormal'' conditions and 
phenomena? How might these conditions relate to climatic changes taking 
place? How do you think these conditions are complicating the recovery 
of New England fish stocks?''
    Answer. Researchers have shown that fish move in relation to 
temperature changes, and that long term trends of warning waters can 
have lasting impacts on the distribution and location of global fish 
stocks (for good examples, see Pinsky et al., 2013; Fogarty et al., 
2008; Drinkwater 2005). What isn't clear is how dynamic this change is 
(how fast it will occur), and what this change means for the long term 
yields from the fishery.
    Pinsky et al., talk about ``climate velocity'' to explain why as 
many as 60 percent of land and sea species have deviated from the 
expectation that rising global temperatures would drive animals toward 
cooler high latitudes and elevations, or deeper waters, the researchers 
report. Instead, animals follow local temperatures, which over the next 
few decades may warm or cool even as global temperatures overall are 
rising.
    Ocean temperature changes depend on currents, changes in the 
atmosphere, and geological features on the shore and in the ocean. 
Species-preferable water temperatures have tended to move toward the 
poles, but not in a single wave. In some cases, local changes in water 
temperature move away from the poles, or to deeper waters. As a result, 
researchers found that 73 percent of species that moved south; and 75 
percent of species that relocated to shallower waters were following 
discrete, localized water temperature changes.
    This has implications for fisheries management. I believe that 
fisheries managers need to immediately adapt to this information and 
calculate a new set of reference points for the current warm water 
regime. It is widely documented that unfavorable environmental 
conditions reduce productivity, increase mortality, and result in a 
negative impact of cod biomass (Drinkwater 2005, Rothschild 2007, 
Fogarty et al., 2008).
    In fact, a full reassessment of biological reference points on all 
New England stocks should be done based on the expected re-distribution 
of fish as a result of expected local temperature changes--which are 
easier to predict than long term temperature changes. The new ``warm 
water'' reference points should then be used to calculate new 
``acceptable biological catch'' (ABC) and new ``annual catch limits'' 
(ACLs)--with mechanisms in place to ensure flexibility and adaptability 
to dynamic water temperature changes and large changes in social 
welfare as a result of ``choke stocks'' or ``limiting stocks''.
Investment In Collaborative Research
    Question 4. Is our current investment in fisheries data and 
research sufficient to ensure sustainability, and if not, what are your 
recommendations for improvement? How can additional cooperative 
research successfully support fisheries management? How would making 
collaborative fishery management more industry-driven help to achieve 
better science-based decision making outcomes?''
    Answer. The level of investment in collaborative research has been 
both inadequate and inconsistent. The inconsistency of funding is just 
as problematic as the overall level of funding. Fisheries science 
depends upon long term, time series information about the environment, 
about stock biology and abundance, and about the efficiency and 
effectiveness of new gear technology.
    Federal funding for collaborative research has historically been 
constrained to 2 year projects, which severely limits the usefulness of 
the projects as well as the engagement of a broad number of industry 
participants. As a result, data from collaborative research projects is 
very rarely used in fisheries management for stock assessments, and new 
selective and efficient gear technology is rarely transferable industry 
wide.\2\
---------------------------------------------------------------------------
    \2\ The most notable exception to this is the ``ruhle trawl'', also 
known as the ``eliminator trawl'', which allows fishermen to target 
haddock and avoid cod based on a unique net design that takes into 
account the behavior of captured fish. If utilizing this technology, 
fishermen are allowed to fish with a different discard rate than if 
utilizing other gear, and are allowed exemptions to previously closed 
fisheries. More investment in transferable gear technology like this 
will be a critical part of sustaining a healthy bio-economic ecosystem 
moving forward.
---------------------------------------------------------------------------
    The second national standard of the Magnuson-Stevens Fisheries 
Conservation and Management Act (M-S Act) mandates that fishery 
conservation and management be based on the best scientific information 
available (DOC 1976). Although advances in science and technology over 
the last thirty years have significantly improved scientists' ability 
to evaluate and to predict the future performance of fishery resources 
(NRC 2002), current marine science is still riddled with uncertainty.
    The M-S Act (2007) calls for the establishment of regionally based 
cooperative research and management programs to address the needs 
identified under the M-S Act, and to address any other marine resource 
laws enforced by the Secretary of Commerce (DOC 2007). Specific 
cooperative research project priorities were outlined, and are listed 
below:

  (1)  Projects to collect data to improve, supplement, or enhance 
        stock assessments, including the use of fishing vessels or 
        acoustic or other marine technology;

  (2)  Conservation engineering projects designed to reduce by-catch, 
        including avoidance of post-release mortality, reduction of by-
        catch in high seas fisheries, and transfer of such fishing 
        technologies to other nations;

  (3)  Projects for the identification of habitat areas of particular 
        concern and for ecosystem conservation (SEC. 318-319 16 U.S.C. 
        1867, DOC 2007).

    The M-S Act (2007) specifies that these research priorities be 
addressed through cooperative research projects--where fishermen and 
scientists work together in all phases of the project, including the 
research question development, the project design, the performance of 
research, the analysis of the results and the dissemination of study 
findings.
    It should be emphasized, that on this end of the research spectrum 
the scientists are onboard chartered fishing vessels, side by side with 
commercial fishermen. Commercial fishermen act as co-principle 
investigators, who exchange ideas and information with scientist 
partners. Collaborative research gives fishermen a direct voice in the 
science and management process as well as an intimate understanding of 
how and why the data collected will be used by fisheries managers. Much 
of the research aimed at addressing the priority needs of the M-S Act 
(2007), especially in New England, should be collaborative in nature 
(NEFMC 2009).
    Wiersma (2011) looked at the preferences of commercial fishermen to 
supply collaborative research to determine what factors motivate New 
England commercial fishermen to participate, as co-principal 
investigators, in the three types of priority collaborative research 
specified in the M-S Act of 2007 (biology and ecosystem projects, stock 
assessment research, and gear technology projects). The major finding 
of this research is that different commercial fishermen have different 
preferences for the types of collaborative research executed aboard 
their vessel. In general, fishermen prefer stock assessment and 
monitoring projects over both gear conservation and biology/ecosystem/
habitat studies--and would be willing to accept less money to 
participate on their preferred research project.
    Therefore, the efficiency and cost effectiveness of expanded 
cooperative research programs may be improved if policy makers utilize 
knowledge of fishermen's priority for research, and take into account 
their willingness to trade in-kind donations to complete the type of 
research that they feel is valuable. Aligning fishermen's preferences 
for research with a dedicated pool of money for collaborative research 
provides a valuable tool that can subsidize and augment traditional 
scientific data to develop better stock assessment models with a 
greater accuracy of prediction of annual maximum allowable catch.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Edward Markey to 
                         Dr. Joshua B. Wiersma
Annual Catch Clearinghouse
    Question 1. You note in your written testimony that the non-
transparent market for buying, selling and trading annual catch 
entitlements (ACE) has resulted in a marketplace with no central 
clearinghouse that fishermen can go to in order to gather information 
about ACE prices or to lease, sell or trade ACE. Is a clearinghouse 
something the fishing industry can develop on its own or does it 
require regulation or legislative changes?
    Answer. The current regulations for sectors under Amendment 16 say 
that the Federal government allocates ACE to sectors, and that 
accountability measures are to prevent overharvest of ACE by sector 
groups. Therefore, the government only regulates and records trading 
between sectors. However, on the ground level, the fishery operates as 
an individual transferable quota system. Individual fishermen fish or 
trade their ``individual allocations'', which are equal to the amount 
of ACE and individual brings into the sector.
    The sector manager really operates as a broker for ACE transactions 
both within sector and between sectors, and therefore needs access to 
real time information about ACE listings and prices. Currently, 
information about ACE listings and prices is gathered though e-mail 
chains between sector managers. But, this information is often 
outdated, the delivery is inconsistent, and it is insensitive to 
marginal changes in demand or supply.
    A central clearinghouse where sectors could post how much ACE they 
have available and negotiate price through a ``bid''/``ask'' trading 
platform would greatly reduce inefficiency inherent in the current 
market place for ACE transactions and result in greater utilization of 
sector ACE. The reason that this type of trading platform is unlikely 
to develop via private sources is because sectors aren't technically 
considered a limited access privilege program under Amendment 16. 
Therefore, fishermen can't buy and sell ACE on their own. They have to 
act through the Sector manager.
    The National Marine Fisheries Service could develop a type of ACE 
trading clearing house that is driven by fishermen, but operated by 
sector managers. I think this would improve economic efficiency in the 
fishery, and provide a valuable source of information regarding the 
shadow value of the resource that can be used in fishery forecast 
models.
Electronic Vessel Trip Reports
    Question 2. In your written testimony you discuss the development 
of electronic vessel trip reports (E-VTRs). What are the benefits of 
using electronic reporting and what support is needed to expand the use 
of this type of reporting?''
    Answer. As I testified, Electronic Vessel Trip Reports (VTRs) are 
replacing paper VTRs, and fishermen are starting to use real time, 
wireless applications at sea to document by-catch hot spots. In New 
Hampshire, about half of our fishermen now use E-VTR, and we have 
entered into a pilot project with the Gulf of Maine Research Institute 
to test a by-catch reporting hot spot tool for harbor porpoise 
sightings. E-VTR has advantages over traditional paper VTR in regards 
to the efficiency of complying with the requirement to submit a VTR 
after every trip. It minimizes the risk that the VTR is not accounted 
for, and provides cost savings to fishermen because they save on paper 
and postage.
    Investment in overhauling the Fleets hardware, like old computers 
and other electronics would significantly help the broad transition 
towards things like E-VTR. Computer hardware takes a beating at sea, 
and programs that could help recycle old electronics for new ones would 
help greatly. A good example is the Gulf of Maine Research institute 
who has provided a free new lap top to all fishermen who transition to 
E-VTR.
    Real time VTR information also benefits management, marketing and 
value added purposes. Currently, managers, dealers and fishermen are 
disparate entities that don't fluidly communicate with one another. 
What is needed is an integrated and real time network of data flow and 
communication that connects Trip IDs with dealer reported trip landings 
to government and sector records. The sustainability of today's fishing 
communities depends on the move towards this type of ``ecosystem 
approach'' to data collection, management and integration.
    An integrated information management system would channel single-
entry landings information in real-time within an information network 
of software services and devices that enable efficient reporting and 
compliance, improved dealer business management, more efficient ACL 
utilization, improved by-catch avoidance, and enhanced marketing 
capacity by facilitating locally branded, traceable and immediately 
available harvest inventory to community marketing efforts. The system 
should manage the flow of information efficiently so that data can be 
modified and used concurrently by multiple users without disrupting 
existing reporting protocols. This information network would form the 
infrastructure for a multiple interface with existing software 
platforms (e.g., Sector or business management tools).
    In addition, this real time ``ecosystem approach'' to data 
collection and management is a pre-requisite for a robust trading 
platform. First, we need ``real time landings information'' flowed 
continuously to the National Marine Fisheries Service and to the 
commercial fishing industry via sectors. This is a necessary condition 
for a successful ACE trading clearinghouse because in order to execute 
trades in real times, it is necessary for individuals to have knowledge 
of their remaining ACE allocations in real time. Currently, this 
information is 8 days lag. Legislative changes requiring more frequent, 
or preferably, real time dealer reporting would benefit the fishery and 
society in the following three ways:

  (1)  it would create a more efficient ACE trading platform,

  (2)  it would provide better information about the continuous and 
        dynamic shadow value of the resource

  (3)  it would benefit society through greater resource utilization, 
        and the associated value added and multiplier effects of extra 
        fish sales.
References
    Drinkwater, K.F. 2005. The response of Atlantic Cod to future 
climate change. ICES. J. Mar. Sci. 62, 1327-1337.
    Fogarty, M. Incze, L. Hayhoe, K., Mountain, D., Manning, J. 2008. 
Potential climate change impacts on Atlantic cod off the northeastern 
USA. Mitig. Adapt. Glob. Change. 13, 453-466.
    Pinsky, B., Fogarty, M., Sarmiento, H., and Simon A. Levin. 
Science. Vol. 341 no. 6151 pp. 1239-1242
    Wiersma 2010. The Preferences of Commercial Fishermen to Supply 
Collaborative Research in New England: A Welfare Analysis. 
Dissertation. University of Rhode Island.

                                  <all>

</pre></body></html>
